<html>
<title> - H.R. 31, LUMBEE RECOGNITION ACT, AND H.R. 1385, THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT OF 2009.</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 H.R. 31, LUMBEE RECOGNITION ACT, AND H.R. 1385, THOMASINA E. JORDAN 
      INDIAN TRIBES OF VIRGINIA FEDERAL RECOGNITION ACT OF 2009.

=======================================================================



                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, March 18, 2009

                               __________

                           Serial No. 111-11

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-110                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 18, 2009........................     1

Statement of Members:
    Broun, Hon. Paul C., a Representative in Congress from the 
      State of Georgia...........................................    62
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     3
        Prepared statement of....................................     4
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................    42
        Prepared statement of....................................    42
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2
    Wittman, Hon. Robert J., a Representative in Congress from 
      the State of Virginia, Prepared statement of...............    13

Statement of Witnesses:
    Adkins, Hon. Stephen R., Chief, Chickahominy Indian Tribe, 
      Virginia...................................................    69
        Prepared statement on H.R. 1385..........................    72
    Cook, Michael, Executive Director, The United South and 
      Eastern Tribes, Inc., Nashville, Tennessee.................    93
        Prepared statement on H.R.  31...........................    95
    Danforth, Gerald L., Retired Chairman, Oneida Tribe of 
      Indians of Wisconsin, Oneida, Wisconsin....................    76
        Prepared statement on H.R.  31...........................    78
    Goins, Hon. James Ernest, Chairman, Lumbee Tribe of North 
      Carolina, Pembroke, North Carolina.........................    64
        Prepared statement on H.R. 31............................    65
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................    40
        Prepared statement on H.R.  31...........................    41
    Kaine, Hon. Timothy M., Governor, Commonwealth of Virginia, 
      Richmond, Virginia.........................................     5
        Prepared statement on H.R.  1385.........................     7
    Locklear, Arlinda F., Esquire, Attorney for the Lumbee Tribe 
      of North Carolina, Washington, D.C.........................    80
        Prepared statement on H.R. 31............................    83
    McHenry, Hon. Patrick, a Representative in Congress from the 
      State of North Carolina....................................    39
        Prepared statement on H.R.  31...........................    39
    McIntyre, Hon. Mike, a Representative in Congress from the 
      State of North Carolina....................................    15
        Prepared statement on H.R.  31...........................    26
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................    27
        Prepared statement on H.R.  1385.........................    29
    Rountree, Helen C., Ph.D., Professor Emerita of Anthropology, 
      Old Dominion University, Norfolk, Virginia.................    89
        Prepared statement on H.R. 1385..........................    91
    Shuler, Hon. Heath, a Representative in Congress from the 
      State of North Carolina....................................    31
        Prepared statement on H.R.  31...........................    38
    Skibine, George, Deputy Assistant Secretary for Policy and 
      Economic Development for Indian Affairs, U.S. Department of 
      the Interior, Washington, D.C..............................    50
        Prepared statement on H.R.  31 and H.R. 1385.............    52

Additional materials supplied:
    Easley, Hon. Michael F., Governor, State of North Carolina, 
      Letter to The Honorable Nick J. Rahall, Chairman, Committee 
      on Natural Resources, and The Honorable Don Young, Ranking 
      Minority Member, Committee on Natural Resources, dated 
      April 18, 2007, submitted for the record...................    20
    Hagan, Hon. Kay R., U.S. Senator, State of North Carolina, 
      Letter to The Honorable Mike McIntyre, U.S. Representative, 
      State of North Carolina, dated March 18, 2009, submitted 
      for the record.............................................    22
    Harper, Keith M., Attorney at Law, Kilpatrick Stockton LLP, 
      Washington, D.C., Official statement of President Barack 
      Obama submitted for the record.............................    24
    Hicks, Principal Chief Michell, The Eastern Band of Cherokee 
      Indians, on H.R. 31, Statement submitted for the record....    31
    Hunt, Hon. James B., Jr., Governor, State of North Carolina, 
      Letter to The Honorable Bruce Babbitt, Secretary, U.S. 
      Department of the Interior, dated January 28, 1993, 
      submitted for the record...................................    18
    Hunt, Hon. James B., Jr., Governor, State of North Carolina, 
      Letter to The Honorable Bruce Babbitt, Secretary, U.S. 
      Department of the Interior, dated March 11, 1993, submitted 
      for the record.............................................    19
    Martin, Hon. James G., Governor, State of North Carolina, 
      Letter to Senator Daniel K. Inouye, Chairman, Senate Select 
      Committee on Indian Affairs, dated July 30, 1991, submitted 
      for the record.............................................    16
    Martin, Hon. James G., Governor, State of North Carolina, 
      Letter to The President, The White House, dated October 18, 
      1991, submitted for the record.............................    17
    Perdue, Hon. Beverly, Governor, State of North Carolina, 
      Letter to The Honorable Nick J. Rahall, Chairman, Committee 
      on Natural Resources, and The Honorable Doc Hastings, 
      Ranking Minority Member, Committee on Natural Resources, 
      dated May 1, 2009, submitted for the record................    23


 LEGISLATIVE HEARING ON H.R. 31, ``LUMBEE RECOGNITION ACT,'' AND H.R. 
     1385, ``THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL 
                       RECOGNITION ACT OF 2009.''

                              ----------                              


                       Wednesday, March 18, 2009

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:02 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Hastings, Kildee, 
Faleomavaega, Napolitano, Holt, Bordallo, Heinrich, 
Christensen, Kratovil, Smith, Wittman, Broun and Lummis.

STATEMENT OF HON. NICK J. RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources is meeting 
today to conduct a hearing on H.R. 31, the Lumbee Recognition 
Act, and H.R. 1385, a bill which would grant Federal 
recognition to six Indian tribes residing in the Commonwealth 
of Virginia.
    We have with us several Native Americans and other 
individuals from North Carolina and Virginia who have come here 
this morning to give and listen to testimony of great 
importance.
    We are also very honored to have with us today the Governor 
of Virginia, Governor Tim Kaine. Governor, we welcome you.
    Governor Kaine. Thank you, Mr. Chairman.
    The Chairman. Both of these bills were considered by the 
Committee last Congress and passed by the House of 
Representatives.
    With respect to the Lumbee bill, quite frankly, and it 
pains me to say this, I feel that we are all starring in the 
movie Groundhog Day. The legislation passed the House in the 
102nd Congress, it passed the House in the 103rd Congress, and 
it passed the House in the 110th Congress, always by large 
margins. Yet here we are again, at the beginning of the 111th 
Congress, starting the process all over once again.
    Time and time again, the hopes and dreams of the Lumbee 
people have been raised, only to be dashed as each Congress 
fails to get the job done. Yet throughout these long decades, 
you have continued to hold your heads high, with the dignity 
and respect you deserve.
    I do not need to go through the long history of this 
struggle. It is well documented and will be further documented 
during the course of this hearing, as has the saga of the six 
Virginia tribes which are the subject of H.R. 1385.
    Two years ago marked the 400th anniversary of the founding 
of Jamestown, Virginia. At the time, many Americans were 
startled to learn that the very Native Americans who greeted 
the English settlers are still not Federally recognized as 
tribes.
    The members of these six Virginia tribes have faced decades 
of deliberate discrimination from policies aimed at stripping 
them of their identities. They were targeted and subject to 
having their race designation changed on their birth 
certificates and all other legal documents, but they have 
endured. They have kept their traditions alive and continue to 
function as governments.
    In closing, I can assure you that the Committee will 
continue to press forward on tribal congressional recognition 
when the circumstances indicate it is necessary to do so, and 
we will also continue to work to reform the Federal 
acknowledgment process that has long been considered broken by 
all involved in the process, including Congress.
    Both the Lumbee and the Virginia tribes require the 
attention of Congress. Let us now seriously go about the 
business of rectifying wrongs to the Lumbee and the Virginia 
tribes.
    Before I recognize the Ranking Member, Mr. Hastings, I want 
to also recognize two colleagues of ours from whom we will be 
hearing on the panel--first being my dear friend from Northern 
Virginia, Congressman Jim Moran, who has been quite a leader 
not only from his position on the House Appropriations 
Committee, but each and every day of the year he has been a 
leader for his Virginia tribes and on a number of other issues 
that come before this body.
    Congressman Mike McIntyre from the State of North Carolina 
has also been a tremendous leader for his Lumbee Tribe, and I 
wish to recognize his valuable leadership and day-to-day help 
on this issue as well.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    This morning the Committee is meeting to conduct a hearing on H.R. 
31, the Lumbee Recognition Act, and H.R. 1385, a bill which would grant 
federal recognition to six Indian Tribes residing in the Commonwealth 
of Virginia.
    We have with us several Native Americans and other individuals from 
North Carolina and Virginia who have come here this morning to give, 
and listen to, testimony of great importance. We are also honored by 
the presence of the Governor of Virginia, Tim Kaine.
    Both of these bills were considered by the Committee last Congress, 
and passed by the House of Representatives.
    With respect to the Lumbee bill, quite frankly, and it pains me to 
say this, I feel like we are all starring in the movie Ground Hog Day. 
The legislation passed the House in the 102nd Congress. It passed the 
House in the 103rd Congress. And it passed the House in the 110th 
Congress. Always by large margins.
    Yet here we are again, at the beginning of the 111th Congress, 
starting the process all over once again.
    Time and time again the hopes and dreams of the Lumbee people have 
been raised, only to be dashed as each Congress fails to get the job 
done. Yet throughout these long decades you have continued to hold your 
heads high, with the dignity and respect you deserve.
    I do not need to go through the long history of this struggle. It 
is well documented, and will be further documented during the course of 
this hearing.
    As has the saga of the six Virginia tribes which are the subject of 
H.R. 1385. Two years ago marked the 400th anniversary of the founding 
of Jamestown, Virginia. At the time, many Americans were startled to 
learn that the very Native Americans who greeted the English settlers 
are still not federally recognized as Tribes.
    The members of these six Virginia tribes have faced decades of 
deliberate discrimination from policies aimed at stripping them of 
their identities. They were targeted, and subjected to having their 
race designation changed on their birth certificates and all other 
legal documents.
    But they have endured, kept their traditions alive and continue to 
function as governments.
    In closing, I can assure you that the Committee will continue to 
press forward on tribal congressional recognition when the 
circumstances indicate it is necessary to do so. And we will also 
continue to work to reform the Federal Acknowledgment Process that has 
long been considered broken by all involved in the process, including 
Congress.
    Both the Lumbee and Virginia tribes require the attention of 
Congress. Let us now seriously go about the business of rectifying 
wrongs, to the Lumbee and to the Virginia Tribes.
    Thank you.
                                 ______
                                 
    The Chairman. I now recognize the Ranking Member, Mr. 
Hastings. We will be hearing from Heath Shuler as well. Where 
is Heath?
    Voice. He is right there.
    The Chairman. OK. Yes. Heath will be testifying perhaps on 
a different side of the issue, but we will hear his testimony 
as well.
    The gentleman from Washington, Mr. Hastings?

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing on H.R. 31 and H.R. 1385.
    There are a number of new Members of this Committee, and I 
think it is good for them to be able to hear the testimony on 
this and the information that they will be receiving.
    I want to say generally it seems that the Lumbee and the 
six Virginia tribes, they generally enjoy the support of their 
respective representatives and in this case their state 
Governors. I am one that generally believes in deferring to the 
judgment of Members on matters affecting their district. 
Unfortunately, this principle is not consistently applied in 
this Congress, but that would be an issue that can be discussed 
in other venues, I suppose.
    Having said this, I do have concerns with H.R. 31 and H.R. 
1385. Recognition of a tribe conveys a unique set of benefits, 
legal immunities and responsibilities. It affects the tribe's 
individual members, and it has an impact on states, counties, 
local towns and other tribes. It affects the Federal 
government's ability to deal with hundreds of recognized tribes 
at a time when the Federal budget is stretched thin and a huge 
backlog of unmet needs exist across Indian country.
    These factors in and of themselves don't necessarily mean 
tribal recognition is not warranted for the Lumbee or the six 
Virginia tribes, but these are the practical and political 
realities that must be faced when the choice is made to seek 
recognition in the legislative arena.
    Another concern I have is how the Lumbees and the six 
Virginia tribes are deemed to be tribes, but not the other 
tribes that have petitioned through the Department of the 
Interior for recognition. Some of these tribes petitioned long 
ago, even as early as the 1970's and the 1980's. In many cases, 
or in some cases, their petition are considered ready.
    Also, other Members of Congress have sponsored bills to 
recognize their tribes in their states or districts. There 
seems to be no clear reason why these groups are not under 
consideration today while the Lumbees and the six Virginia 
tribes are receiving such consideration and likely are to be 
considered on the House Floor in the near future.
    Even though the Bureau of Indian Affairs regulatory process 
for considering recognition petitions has its problems, it does 
use a fixed set of seven mandatory criteria to judge whether a 
tribe is a tribe within the meaning of the Federal law.
    I hope the Committee carefully considers whether it would 
be more appropriate to defer to this process. If we do not, 
then perhaps such a lack of faith in this system suggests it is 
time for Congress to stop just ignoring the issue and instead 
examine the purpose and continued usefulness of the BIA process 
altogether.
    I say that for both recognized tribes and those seeking 
recognition. It is a matter of fundamental fairness to ensure 
recognition is not given in an arbitrary manner that could 
undermine the status of all who hold it.
    Mr. Chairman, I hope there will be further discussions as 
to what kind of criteria we use in considering H.R. 31 and H.R. 
1385 and whether such criteria will be applied equally for 
other petitioners. Neither this Committee, nor for that matter, 
Congress should be acting in an arbitrary, unclear and 
subjective way when considering recognition of a tribe.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hastings follows:]

       Statement of The Honorable Doc Hastings, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, thank you for holding a hearing on H.R. 31 and H.R. 
1385. There are a number of new Members of the Committee who may not 
have been exposed to tribal recognition issues before today and this 
hearing should be very informative for them.
    It seems that the Lumbee and the six Virginia tribes generally 
enjoy the support of their respective Representatives and State 
governors. I am one that generally believes in deferring to the 
judgment of Members on matters affecting their districts. 
Unfortunately, this principle is not consistently applied in Congress.
    Having said this, I have concerns with H.R. 31 and H.R. 1385. 
Recognition of a tribe conveys a unique set of benefits, legal 
immunities, and responsibilities. It affects the tribe's individual 
members, and it has an impact on states, counties, local towns and 
other tribes. It affects the federal government's ability to deal with 
the hundreds of recognized tribes in a time when the federal budget is 
stretched thin and huge backlogs of unmet needs exist across Indian 
Country.
    These factors in and of themselves don't necessarily mean tribal 
recognition is not warranted for the Lumbee or the six Virginia tribes. 
But these are the practical and political realities that must be faced 
when the choice is made to seek recognition in the legislative arena.
    Another concern I have is with how the Lumbees and the Virginia 
tribes are deemed to be tribes, but not the other tribes that have 
petitioned for recognition. Some tribes petitioned long ago, even as 
early as the 1970's and 1980's. Their petitions are considered ready. 
Other Members of Congress have also sponsored bills to recognize other 
tribes. There seems to be no clear reason why these groups are not 
under consideration today, while the Lumbees and the six Virginia 
tribes are receiving such consideration and are likely to be considered 
on the House Floor in the near future.
    Even though the Bureau of Indian Affairs regulatory process for 
considering recognition petitions has its problems, it does use a fixed 
set of seven mandatory criteria to judge whether a tribe is a tribe 
within the meaning of Federal law. I hope the Committee carefully 
considers whether it might be more appropriate to defer to this 
process. If we do not, then perhaps such a lack of faith in this system 
suggests it is time for Congress to stop just ignoring the issue and, 
instead, examine the purpose and continued usefulness of the BIA 
process altogether. For both recognized tribes and those seeking 
recognition, it is a matter of fundamental fairness to ensure 
recognition is not given in an arbitrary manner that could undermine 
that status for all who hold it.
    Mr. Chairman, I hope there will further discussion as to what kind 
of criteria we should use in considering H.R. 31 and H.R. 1385, and 
whether such criteria will be applied equally for other petitioners. 
Neither this Committee, nor Congress, should be acting in an arbitrary, 
unclear and subjective way when considering recognition of a tribe. 
Thank you.
                                 ______

    The Chairman. Thank you, Mr. Hastings.
    The Chair will move on to our first witness today, The 
Honorable Tim Kaine, the Governor of the Commonwealth of 
Virginia. We recognize or the Chair recognizes certainly the 
time constraints under which the Governor is operating today. 
We will attempt to be gentle with our questions and brief and 
allow you to proceed now in any manner that you wish.
    We do have your prepared testimony. It will be made a part 
of the record as if actually read, and you may proceed as you 
desire.

            STATEMENT OF HON. TIM KAINE, GOVERNOR, 
          COMMONWEALTH OF VIRGINIA, RICHMOND, VIRGINIA

    Governor Kaine. Thank you, Mr. Chairman. It is an honor to 
be with you this morning on a very important issue. I will just 
summarize a couple of points from the written testimony.
    To begin, I want to thank the Chair for your leadership on 
this issue and your support for the Virginia tribes. To 
Congressman Moran, who will speak later, his strong leadership 
on this issue is much appreciated in Virginia, as well as the 
co-sponsors of this bill, Congressman Wittman and other members 
of the Virginia delegation. We appreciate your leadership.
    This bill deals with tribes who encompass the best known 
stories of the interaction between those who settled this 
country from Europe and the Native populations who lived in 
this land when the settlement occurred. There is no story that 
is better known about the interaction between the Europeans who 
came to this country and became Americans and the Indian tribes 
than the story of the Jamestown settlers, Pocahontas and the 
Powhatan Nation.
    It is a story that is a powerful story in our memories, but 
also it is a powerful story even to today because if it were 
not for the forbearance of these tribes and even the assistance 
of these tribe during the early difficult years at Jamestown, 
it is very clear that the Jamestown settlement would have 
perished and then the history of Virginia and of the Nation 
would have been a different history.
    And yet despite the fact that this is probably the best 
known story of the interaction between Native Americans and 
these European settlers, there are 562 Federally recognized 
tribes and none of the Virginia tribes are recognized, and so 
that naturally calls forth the question why, and I think there 
are two reasons. Neither of these reasons should stand as a bar 
to recognition of these tribes. In fact, I think the statement 
of the reasons demonstrates why this bill is so powerful and so 
right.
    First, the Virginia tribes did something that in retrospect 
was unfortunate. They made peace with the English before we had 
an American government. They were willing to lay down arms and 
they were willing to welcome settlers to this new world with 
the English Government in the 1600s, and as a result they never 
entered into treaties with the U.S. Government, and that has 
made the process of their recognition more difficult.
    There is a wonderful tradition that I get to enjoy as 
Governor of Virginia. Every year since 1677, as a result of a 
treaty with King Charles II, the Virginia tribes come to the 
Governor's Mansion and present a tribute to the Governor in 
lieu of taxes, a tribute of wild game and gifts, and that has 
been an unbroken tradition now for over 300 years. But it 
should not be held against these tribes that they made peace 
with our people before there was an American government.
    It is also a bit ironic they made peace with our people, 
but members of these tribes have fought side-by-side with our 
people in every war that this country has been involved with 
from the Revolutionary War to the present. These are great 
patriots who have been involved side-by-side with us ever since 
those treaties were signed in the 1670s.
    So the first reason for nonrecognition of these tribes is 
basically they laid down arms and made peace with us too soon. 
The second reason is a more sinister reason. Beginning in 1924, 
Virginia passed a law, the Racial Integrity Act, that was in 
place from 1924 until it was struck down by the Federal Courts 
in 1967.
    That law, which came out of the misguided eugenics movement 
in the 1920s, systemically denied the heritage and the 
recognition of Virginia Indians as Indians, and in fact under 
the very strict application of that law by a Virginia public 
official, Walter Plecker, for over 25 years the documents and 
records pertaining to Virginia tribal members were 
systematically altered and changed, and everyone who was a 
Native American had their records changed to colored.
    That was the state policy, and because the records were 
changed it made it so much more difficult for these tribes to 
present the historic case that would be required to go through 
the BIA process. Virginia perpetrated this monstrous injustice 
for a very long time. Thank goodness it was struck down.
    In the 1980's, under successive leadership of both 
Democratic and Republican Governors and Democratic and 
Republican members of our state legislature, what we have done 
at the state law is to apologize, to state recognize these 
tribes with a state recognition beginning in the 1980's and to 
begin an earnest quest on behalf of the overwhelming majority 
of Virginians to see that these injustices are righted and that 
the Virginia tribes be recognized.
    And so those are the two reasons why these tribes that are 
among the best known in the United States have never been 
recognized by the Federal government. They made peace with the 
English rather than with the United States, and their records 
were systematically altered due to official state policy in the 
Commonwealth for over 40 years. Neither of these reasons should 
block the recognition of these tribes. In fact, the two reasons 
I think really compel the reverse response; that it is now past 
time that they be recognized.
    Let me say one final word just as a personal story. Mr. 
Chairman, you referred to the Jamestown commemoration. It has 
been one of the great pleasures of my term as Governor to be 
able to preside over the commemoration of the 400th anniversary 
of Jamestown Island, and I had your Governor, because your 
state is named after the virgin queen, Queen Elizabeth, with me 
as we welcomed Queen Elizabeth to the Governor's Mansion and to 
Jamestown in May of 2007.
    That commemoration gave us reason for pride, but also 
sadness. In 1957, when we celebrated the 350th anniversary, the 
stories of the Virginia Indian tribe were just sideshows, 
entertainment. It wasn't seriously told, and there wasn't 
serious recognition and appreciation for the amazing role that 
these tribes played in our future to this day.
    In 2007, we wanted to do it better and so the stories of 
these tribes were an integral part of what we celebrated as 
Jamestown's 400th. The tribes went to England and were 
recognized as royalty, as a nation that entered into treaties 
with the English Government, received a recognition on the 
English shores that they never received here.
    That was a wonderful and a bittersweet moment, but we all 
were struck in trying to recognize 400 years of Virginia and 
American history that these tribes were still not recognized, 
so although we were able to include them and tell the story in 
a completely different way than we had done it 50 years ago, 
that felt good.
    And yet there was a hollowness in our feeling that we had 
come a long way because we still weren't completely there, and 
it took away from our 400th commemoration that these tribes 
were still not recognized Federally.
    Again, we bear a huge burden of this on the state side, and 
I will candidly admit that as I have done. Had it not been for 
this policy of rewriting the records the BIA process might have 
been easier, so we bear the burden for that 40 years of 
injustice in dealing with these tribes, but we have now 
recognized them.
    With the tremendous history and connection of these tribes' 
stories with the American stories, it would be our supreme 
delight as a Commonwealth if these tribes could join the 560 
plus tribes that have been recognized by the Federal government 
and have their status as sovereign nations finally acknowledged 
by this nation.
    Thank you very much.
    [The prepared statement of Governor Kaine follows:]

        Statement of The Honorable Timothy M. Kaine, Governor, 
                        Commonwealth of Virginia

    Thank you for the opportunity to speak with you today in support of 
Federal Recognition for Virginia's Native American Tribes. We are proud 
of Virginia's Native Tribes and the contribution their communities have 
made to our Commonwealth and the Nation.
    I am here today because recognition of these Tribes by the Federal 
Government is long overdue.
    As a part of my Inaugural Address on January 14, 2006 at the 
Colonial Capital in Williamsburg, Virginia, I stated:
        ``Our Virginia might not exist today were it not for the 
        generosity extended to those first settlers by the native 
        Virginia tribes living in this region. Without the hospitality 
        of Chief Powhatan...those in Jamestown would have 
        perished...And, we should use this historic time to help those 
        who first helped us by working with the federal government to 
        see that Virginia's native Indian tribes are finally 
        recognized.''
    Almost immediately after first landing at Jamestown in 1607, the 
early English settlers and explorers came into contact with the 
Virginia Tribes living throughout Eastern Virginia. While the 
relationship between the Native Tribes and the English settlers was not 
always easy, there can be little doubt that had it not been for 
accommodations on both sides, the settlement would not have survived. 
Indeed, Virginia's Native American Tribes played an integral role in 
helping the settlers survive those first harsh winters.
    Almost two years after the 400th anniversary of the first permanent 
English Settlement at Jamestown, it is especially tragic that these 
tribes still have not received equal status with the 562 other 
Federally Recognized Tribes in the United States.
    How can we commemorate their history and not recognize their 
existence? Now is the time to reconcile history. Let us, once and for 
all, honor their heritage. A heritage, I might add, that has been 
sorely tested by centuries of racial hostility and state-sanctioned 
coercive actions.
    The eight Virginia Tribes--the Chickahominy, Eastern Chickahominy, 
Mattaponi, Monacan Indian Nation, Nansemond, Pamunkey, Rappahannock and 
the Upper Mattaponi--are unique. Unlike most tribes that obtained 
federal recognition when they signed peace treaties with the federal 
government, tribes in Virginia signed their peace treaties with the 
British Monarchy.
    <bullet>  Most notable among these was the Treaty of 1677 between 
Virginia's Tribes and Charles the II--well before the establishment of 
the United States. This treaty has been recognized by the Commonwealth 
of Virginia every year for the past 332 years when the Governor of 
Virginia accepts tribute from the Tribes in a ceremony now celebrated 
at the State Capitol.
    However, while the Virginia Tribes have received official 
recognition from the Commonwealth of Virginia, acknowledgement and 
officially recognized status from the federal government has been 
considerably more difficult due to systematic mistreatment over the 
past century.
    I do not believe that the Virginia Tribes should be penalized for 
having decided early on to begin peaceful relations with the settlers 
who are our ancestors.
Recent History of Tribal Recognition Issue in Virginia--
    For 34 years, from 1912 to 1946, Walter Ashby Plecker, at the 
Virginia Bureau of Vital Statistics, led an effort to actively destroy 
vital records and evidence of Indian existence in the Commonwealth.
    This practice was supported when the eugenics movement was endorsed 
by Virginia Universities and the Virginia General Assembly enacted the 
Racial Integrity Act in 1924--a race based statute that forced all 
segments of the population to be registered at birth in one of two 
categories ``white'' or ``colored''. From that point on no reference 
was allowed for other ethnic distinctions and no reference was allowed 
for Indian Tribal peoples in Virginia. Members of Virginia's Tribes 
were denied their identities as Native peoples.
    Essentially, Virginia declared, by law and the systematic altering 
of key documents, that there were no Indians in the Commonwealth as of 
1924. The passage of these race based statutes in Virginia made it 
criminal for Native peoples to claim their Indian Heritage. For 
instance, married couples were denied marriage certificates or even 
forbidden to obtain the release of their newborn child from a hospital 
until they changed their ethnicity on the state record to read 
``colored.''
    <bullet>  Ironically, 1924 is the same year that the Federal 
Government guaranteed Native Americans full citizenship and the 
corollary right to vote.
    The Racial Integrity Act was not struck down by the Federal Courts 
until 1967.
    From 1983-1989 each Tribe gained official Recognition in the 
Commonwealth of Virginia.
    In 1997, then Governor George Allen signed legislation 
acknowledging the ``paper genocide'' of Indians in Virginia. This 
legislation provided that state records be corrected that had been 
deliberately altered to list Virginia Indians on official state 
documents as ``colored.'' In 1999, the Virginia General Assembly 
adopted a resolution calling upon Congress to enact legislation 
recognizing the Virginia Tribes.
    Each of the tribes have also petitioned the U.S. Department of 
Interior and the Bureau of Indian Affairs (BIA) for official 
recognition under the process set forth in 25 CFR Part 83, ``Procedures 
for Establishing that an American Indian Group Exists as an Indian 
Tribe.'' The Virginia Tribes have also submitted letters of intent and 
partial documentation to petition for Federal acknowledgment.
    Unfortunately, these applications have been denied as incomplete. 
Without proper records and complete documentation the Tribes cannot 
fulfill the requirements of the BIA process. As a result of years of 
systematic efforts to deny their heritage the ability of Tribes to 
comply with the BIA process has become nearly impossible.
    These are the two reasons why the Virginia Tribes have never been 
recognized: they laid down their arms and made peace in the 1670s and 
then their collective heritage was denied by Commonwealth policy during 
the 1900s.
    Helen Rountree, noted anthropologist and expert on Native-Americans 
in Virginia, has spent her life documenting the Virginia Tribes. 
Through her thorough analysis and research the Commonwealth of Virginia 
was provided with sufficient authentication to officially recognize 
these tribes. I believe that that research should also be sufficient to 
address the damage of the Racial Integrity Act era.
Need for Congressional Action--
    It is clear that political action is needed to remedy what 
bureaucracies cannot fix. Justice begs for a congressional response.
    Six of the Tribes first came to Congress seeking recognition in 
1999. They joined together to request Congressional action on their 
application for Federal Acknowledgement through the ``Thomasina E. 
Jordan Indian Tribes of Virginia Federal Recognition Act'' (this year 
it is H.R. 1385). The Tribes view Federal recognition as a basic issue 
of equality with the other 562 tribes. The six Tribes that are working 
together for recognition under H.R. 1385 are the Chickahominy, Eastern 
Chickahominy, Monacan Indian Nation, Nansemond, Rappahannock and the 
Upper Mattaponi.
    Under the United States Constitution Indian Commerce Clause, 
Congress has the authority to recognize a ``distinctly Indian 
community'' as an Indian tribe. I believe that the Tribes' situation 
clearly distinguishes them as excellent candidates for Congressional 
action.
    Under H.R. 1385, the six Tribes would finally, and at long last, be 
granted federal recognition. At the same time, I feel that the 
safeguards provided in this legislation would address some Virginians' 
concerns about Class III style gaming in the Commonwealth. Indeed, this 
legislation would give both the Governor and the General Assembly 
strict control over any possibility of the development of Indian 
Gaming.
    I commend the committee for giving its time and attention to the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act. 
I would like to especially thank Chairman Nick Rahall (D-WV) for his 
leadership on this important issue.
    I would also like to thank Representative Jim Moran (D-VA) for his 
years of work on behalf of the native peoples of Virginia and his 
testimony today. I am also heartened by the bipartisan Virginia 
Delegation support for H.R. 1385 and thank Representatives Gerry 
Connolly (D-VA), Tom Perriello (D-VA), Rob Wittman (R-VA), and Bobby 
Scott (D-VA) for their original co-sponsorship of the legislation.
    It is time for these Virginia native peoples to be recognized by 
their own country. Indeed, Federal recognition of the Tribes of 
Virginia is long overdue.
    Congress has the power to recognize these Tribes. It has exercised 
this power in the past, and it should exercise this power again with 
respect to our Virginia Tribes.
    I strongly believe that our recent commemoration of the 400 years 
of modern Virginia history will be incomplete without successful 
Federal recognition of these Virginia Tribes. Virginians consider this 
a matter of fundamental justice and an acknowledgment of the fact that 
we would not be what we are today had these Tribes supported the 
settlement at Jamestown Island.
    The Virginia Tribes are a part of us. They have been in our 
schools, worked with us, and served in all of our wars from the 
Revolution to the current day. This should be acknowledged. They should 
be officially recognized.
    It is time to finally right an historic wrong for Virginia and the 
Nation.
    Thank you for the opportunity to testify today on this important 
issue and I welcome your questions.
                                 ______
                                 
    The Chairman. Thank you, Governor. We appreciate very much 
the manner in which you delivered your testimony, empathy and 
certainly a recognition of the struggle that these tribes have 
faced. We appreciate very much your being with us today.
    Governor Kaine. Thank you.
    The Chairman. I have no questions. The gentleman from 
Washington?
    Mr. Hastings. Thank you, Mr. Chairman, and thank you, 
Governor Kaine, for being here. I just have one question, maybe 
two.
    Do you support the provision in that bill that prohibits 
the tribes from conducting gaming under the Indian Gaming 
Regulatory Act?
    Governor Kaine. Congressman, I do. If I could write it 
myself, I would rather have them have the exact same rights as 
Virginia citizens have--no more, no less--and we don't have 
gaming in Virginia.
    Mr. Hastings. Right.
    Governor Kaine. I don't think they should have less rights 
than Virginia citizenry as a whole has.
    The language currently is even stronger than that so that 
if 50 years from now the Governor or the general assembly were 
to allow more gaming in Virginia, and it is not that likely 
even 50 years from now, I think they should have the same 
rights as other Virginia citizens, but the tribes have always 
maintained that gaming and gambling is not their issue at all 
and so this language, which I think will help it pass, is 
language that I support.
    Mr. Hastings. Do you think in a larger sense that that 
should be a condition of recognition of tribes in general?
    Governor Kaine. I don't know. Really the circumstances of 
tribes in different states is not something that I have really 
studied.
    I do know these tribal leaders in Virginia pretty well. We 
have breakfast every Thanksgiving together, as I have 
mentioned.
    Mr. Hastings. Yes.
    Governor Kaine. And others are members of my 
administration. They are very unequivocal in their intention 
not to have gaming or gambling, so that has not been a 
challenging issue in this context.
    Mr. Hastings. Good. OK. Thank you very much, Mr. Chairman. 
I yield back.
    The Chairman. The gentleman from American Samoa, Mr. 
Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
you for your leadership and our distinguished Ranking Member 
also for bringing these important pieces of legislation for 
consideration by our Committee.
    I also want to offer my personal welcome to the Governor of 
the State of Virginia, Governor Kaine, and my good friend and 
colleague, Congressman Jim Moran, for his leadership and 
efforts in bringing this before the Committee.
    I was very moved by Governor Kaine's statement of the fact 
that no other leaders in the State of Virginia would know more 
about the history and the relationship between the State of 
Virginia and some five or six Indian tribes, and after 400 
years of this relationship it now has finally been brought to 
the forefront.
    I am certain that many Members of this Committee have never 
even known the fact that all these laws have caused a lot of 
problems. I recall that we even had miscegenation statutes that 
prohibited the states from marrying any person of color. Call 
it a racist statute as far as I am concerned.
    I want to share with Governor Kaine and would certainly 
welcome his comments to the fact that I had a little bit of 
experience in reading and trying to review exactly what the 
essence of what has been our relationship, our national policy 
toward the Native American Indians.
    I think our first national policy was to kill the Indians, 
get rid of them. Then the next national policy that we tried to 
propound or even promote, assimilate the Indians. Make them 
part of all Americans. Don't even recognize them and their 
given character and ethnic recognition, so assimilation was the 
next national policy that we had in mind. Then the termination. 
Don't even recognize Indians.
    The problem now of recognition. In 1934, we passed a 
statute, a national statute, saying in order to be an American 
Indian you have to be 50 percent blood or more. If that is not 
the most racist statute that I have ever heard. How do you 
blood quantify a human being? Does 49.9 percent make you less 
Indian, even if it were born and raised in the reservation?
    I mean, this is the kind of national policy that the 
Indians have had to ensure for all these years. Now we have 
what is known as the Federal acknowledgement process. This is a 
regulatory process, and there is nothing in the Constitution 
nor any Federal statute that prevents the Congress at any time 
to give Federal recognition to any tribe.
    So I don't think we are circumventing the process. The 
problem is that this process has been an absolute failure. We 
are trying at least as Members of this Committee to see if we 
can propose legislation that will better improve the process.
    Mr. Chairman, I recall years ago in this very Committee we 
had the gentleman to testify who actually wrote the Federal 
acknowledgement process, coming up with some seven criteria 
that these Indian tribes have had to go through to say OK, I am 
an Indian, even to the point of examining the teeth that they 
have. What makes them separate as Indians to the rest of 
America? I mean, you talk about such an undignified--it is just 
unbelievable what the American Indians have had to go through 
in doing this.
    I will say, Governor Kaine, I really, really appreciate 
your comments, your statement concerning this proposed 
legislation. Mr. Chairman, my good friend, the distinguished 
Ranking Member, I absolutely support this piece of legislation, 
and I hope my colleagues will do the same.
    One question just to Governor Kaine. When you said was it 
Pocahontas that was primarily involved?
    Governor Kaine. Pocahontas and Powhatan, yes.
    Mr. Faleomavaega. And would it be safe to say that without 
these Indians our first settlers that came from the Old World 
would have died if it had not been for the love and affection 
from one human being to others?
    Governor Kaine. Absolutely. There is no doubt the Jamestown 
settlement would have perished if it had not been for the 
forbearance and the assistance of the Virginia tribes who 
enabled it to survive.
    Mr. Faleomavaega. I just want to say something in closing. 
I remember seeing a cartoon, Mr. Chairman. It was a spaceship. 
There were two Indians talking to each other, and this 
spaceship came down. They said oh, no. Here we go again.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Virginia, Mr. Wittman?
    Mr. Wittman. Thank you, Mr. Chairman. I want to begin by 
thanking Chairman Rahall and Ranking Member Hastings for 
calling this hearing and for this bill to come before us.
    Governor Kaine, welcome today. It is good to have you here.
    Governor Kaine. Thank you.
    Mr. Wittman. Good to see you. Representative Moran, thank 
you so much for sponsoring the bill. Both of you have been 
great leaders on this issue, and I think it is near and dear to 
all of our hearts concerning recognition for Virginia tribes. 
It is absolutely long overdue, and I appreciate, Governor, your 
leadership and, Representative Moran, your leadership on this 
issue.
    I wanted to begin by talking a little bit about the 
Commonwealth's efforts to recognize tribes. Can you tell us a 
little bit about the criteria the Commonwealth uses for 
recognition for tribes, and is that process similar to the BIA 
process?
    Governor Kaine. We do not have a regulatory agency that 
would be the equivalent of the BIA, but beginning again in the 
1980's, and I don't have the precise dates, there was a 
profound recognition that this Racial Integrity Act had been a 
monstrous injustice, that these tribes were part of who we are 
and helped us become the Commonwealth we are.
    And so the legislature, Congressman Wittman, began to enact 
statutes to recognize tribes based on historic research that 
had been presented by individuals with the tribes themselves. 
And also academics who have studied this issue often made it 
the focus of their entire career and so the tribal recognitions 
that were done, they were done in a legislative process, but 
they were based upon historic materials that were presented and 
scrutinized by the legislature prior to the recognitions.
    Mr. Wittman. Can you tell us a little bit about what gave 
the Commonwealth the level of certainty in recognizing these 
tribes, just as where the level of validity stood in their mind 
about recognizing tribes?
    Governor Kaine. Congressman Wittman, because these were 
actions taken by the legislature before I was involved in state 
politics I can kind of report secondhand.
    Mr. Wittman. Yes.
    Governor Kaine. But it was scrutiny of the historic records 
and academic materials and oral folklore of the tribe members 
themselves.
    Two of the tribes in Virginia have reservation lands that 
were committed to them beginning with the treaties, but the six 
tribes that are the focus of this bill, they have tribal 
properties but not sort of in the formal reservation sense.
    But they presented their own material, and then the 
academics in Virginia, both working with the tribes and working 
at some of the state's institutions, gathered other material. 
These were not close questions. It was not difficult for the 
legislature ultimately to review the historic record about 
these tribes and concludes that, yes, they were a part of these 
original Virginia tribes that welcomed the English to Virginia 
in 1607.
    Mr. Wittman. It seems to where the process Virginia then 
has pursued is very, very similar to the BIA process and their 
designations, so it seems like that Virginia has already gone 
through that process, something very similar to what has gone 
forth on other tribes that have been recognized at the Federal 
level, so it seems like the ground has kind of been paved by 
Virginia.
    Governor Kaine. Indeed. Indeed.
    Mr. Wittman. You know, you brought up a great point earlier 
talking about the service of our Native American tribes in 
Virginia in the military.
    Can you tell us a little bit about the legacy of service of 
our tribal members and also how the recognition effort would 
affect them?
    Governor Kaine. Absolutely. Absolutely, Congressman 
Wittman. We have been able to determine, and we will submit 
this to the Committee, that there are hundreds of members of 
these Virginia tribes that have served in the military at least 
from the Civil War forward. Previous to the Civil War the 
records are more difficult, but from the Civil War forward 
there are hundreds.
    We can say with confidence that among these tribes there is 
at least one Silver Star winner, two Bronze Star winners and--a 
little irony that we kind of discovered as we did this 
research--at the same time as Virginia was denying the tribal 
membership of the Indians in our Racial Integrity Act, the U.S. 
military was stamping on the dog tags of these brave folks in 
the service Native American, so the U.S., at least in the 
military, was recognizing these individuals as tribal members 
at the same time that Virginia was erasing the record of their 
being members of these proud tribes.
    Mr. Wittman. Well, that is great. I tell you, we appreciate 
their service, and we hear many stories of their bravery during 
these American conflicts. They stood there shoulder to shoulder 
with other folks that had recognition and more rights than our 
Native American folks. We want to make sure that we are doing 
everything we can obviously to help them out.
    I again want to thank you for your leadership on this 
issue. You have been tremendous there in Virginia not only in 
your vocal support, but also in the things that you do, in the 
actions that your administration takes and the appointments 
that you make in making sure that you not only walk the walk 
or, excuse me, talk the talk, but walk the walk as far as how 
we should be recognizing our Native American tribes there in 
Virginia, so we really appreciate that, and thank you so much 
for coming up today.
    Governor Kaine. Thank you, Congressman Wittman. Thank you 
very much.
    Mr. Wittman. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wittman follows:]

   Statement of The Honorable Robert J. Wittman, a Representative in 
           Congress from the State of Virginia, on H.R. 1385

    Chairman Rahall,
    Thank you for your support and for calling this hearing on H.R. 
1385, the Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act. I appreciate Governor Kaine's time and testimony in 
support of federal recognizing Virginia's Tribes. Also, I appreciate 
and want to recognize Rep. Jim Moran who has long championed this 
effort. Finally, thanks to Chief Adkins of the Chickahominy Tribe and 
Dr. Rountree for their testimony.
    As a cosponsor of H.R. 1385, I support Congressional action to 
federally recognize Virginia's Indian tribes. My congressional district 
includes the tribal seats of the Upper Mattaponi in King William County 
and the Rappahannock Tribe in King and Queen County.
    I recognize and appreciate the Bureau of Indian Affairs (BIA) 
``federal acknowledgement process'' and their preference for 
recognition to work through the Department of Interior. However, I 
believe that a strong case can be made that due to several factors 
Virginia Indian recognition may be an exception to that rule.
    As the witnesses have outlined today, law and politics of the 
Commonwealth of Virginia discriminated and effectively ``erased'' legal 
documentation of the Virginia Indian's heritage. After the Civil War, 
policies forced Indians to register birth, death and other official 
documents as either ``white'' or ``colored.'' These polices have made 
it difficult if not impossible to ever meet the BIA's criteria for 
recognition.
    These Virginia Indian tribes are important culturally and 
historically to the Commonwealth of Virginia. Tribal ancestors from 
these tribes populated coastal Virginia when Captain John Smith and the 
first permanent English colony in the ``new world'' was founded at 
Jamestown in 1607. These ``first contact'' tribes' history and culture 
has been intertwined with birth of our nation for over 400 years. 
Today, these tribes continue to preserve a culture and heritage 
important to Virginia and the nation.
    I support H.R. 1385, and look forward to Congressional action on 
this important effort to federally recognize Virginia's Indian tribes.
                                 ______
                                 
    The Chairman. The gentlelady from Guam, Ms. Bordallo?
    [No response.]
    The Chairman. The gentleman from Nebraska, Mr. Smith?
    [No response.]
    The Chairman. No? OK. The gentleman from New Mexico, Mr. 
Heinrich?
    [No response.]
    The Chairman. Governor, we said we would get you out by 
10:30. It is now 10:29 and 45 seconds. Thank you for being with 
us.
    Governor Kaine. Thank you, Mr. Chairman. Thank you to the 
Members of the Committee. I appreciate it.
    The Chairman. Our next panel is composed of five of our 
colleagues, two being co-sponsors of the pending legislation 
before our Committee, first being Congressman Mike McIntyre 
from North Carolina in favor of H.R. 31, who has been an 
invaluable leader on this issue; Congressman Jim Moran, whom I 
have already recognized and salute for his leadership on H.R. 
1385.
    Two of the next three gentlemen are former members of this 
Natural Resources Committee, the gentleman from North Carolina, 
Health Shuler, the gentleman from North Carolina, Mr. Walter 
Jones, and they are also joined by our colleague from North 
Carolina, Patrick McHenry.
    We welcome all of you to the Committee on Natural 
Resources. We do have your prepared testimonies. It will be 
made part of the record as if actually read, and you may 
proceed in the order that I recognized in whatever summary 
manner you wish.
    Mike, do you want to go first?

 STATEMENT OF HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. McIntyre. Thank you, Mr. Chairman, and thanks to all of 
you for having this opportunity for us to testify about the 
Lumbee Indian Tribe today.
    Chairman Rahall, the members of the Lumbee Tribe and I 
appreciate your leadership and support and persistence in the 
fight for Lumbee Indian Federal recognition. We know that the 
Lumbee Tribe has no better friend than this Congress and you, 
Mr. Chairman, and I thank you on behalf of all the Lumbee 
members when I say thank you for your consistent leadership in 
this issue.
    I would like to ask, Mr. Chairman, unanimous consent to 
place into the record over the last 32 years--Jim Hunt, Jim 
Martin and Mike Easley--and a letter from our newest Governor, 
Governor Beverly Perdue. The letter should be forthcoming.
    I would like to ask unanimous consent to enter all four of 
these letters into the record.
    The Chairman. Without objection. It will be made part of 
the record.
    Mr. McIntyre. Thank you.

    [NOTE: The letters listed in chronological order follow:]
    <bullet>  Martin, Hon. James G., Governor, State of North 
Carolina, Letter to Senator Daniel K. Inouye, Chairman, Senate 
Select Committee on Indian Affairs, dated July 30, 1991, 
submitted for the record
    <bullet>  Martin, Hon. James G., Governor, State of North 
Carolina, Letter to The President, The White House, dated 
October 18, 1991, submitted for the record
    <bullet>  Hunt, Hon. James B., Jr., Governor, State of 
North Carolina, Letter to The Honorable Bruce Babbitt, 
Secretary, U.S. Department of the Interior, dated January 28, 
1993, submitted for the record
    <bullet>  Hunt, Hon. James B., Jr., Governor, State of 
North Carolina, Letter to The Honorable Bruce Babbitt, 
Secretary, U.S. Department of the Interior, dated March 11, 
1993, submitted for the record
    <bullet>  Easley, Hon. Michael F., Governor, State of North 
Carolina, Letter to The Honorable Nick J. Rahall, Chairman, 
Committee on Natural Resources, and The Honorable Don Young, 
Ranking Minority Member, Committee on Natural Resources, dated 
April 18, 2007, submitted for the record
    <bullet>  Hagan, Hon. Kay R., U.S. Senator, State of North 
Carolina, Letter to The Honorable Mike McIntyre, U.S. 
Representative, State of North Carolina, dated March 18, 2009, 
submitted for the record
    <bullet>  Perdue, Hon. Beverly, Governor, State of North 
Carolina, Letter to The Honorable Nick J. Rahall, Chairman, 
Committee on Natural Resources, and The Honorable Doc Hastings, 
Ranking Minority Member, Committee on Natural Resources, dated 
May 1, 2009, submitted for the record 

[GRAPHIC] [TIFF OMITTED] 48110.005

.eps[GRAPHIC] [TIFF OMITTED] 48110.008

.eps[GRAPHIC] [TIFF OMITTED] 48110.004

.eps[GRAPHIC] [TIFF OMITTED] 48110.003

.eps[GRAPHIC] [TIFF OMITTED] 48110.006

.eps[GRAPHIC] [TIFF OMITTED] 48110.007

.eps[GRAPHIC] [TIFF OMITTED] 48110.009

.eps[GRAPHIC] [TIFF OMITTED] 48110.010

    Mr. McIntyre. Mr. Chairman, as we look at the situation 
I would also like to lay before the Chairman an editorial from 
the Fayetteville Observer, which is a newspaper in North 
Carolina that has recently had a series of articles that go 
into great detail about this situation and gives a very strong 
opinion about why Lumbee recognition is important in its 
investigative capabilities.
    And also we have a statement from President Obama in 
support of this bill and would like to enter that in the record 
as well.
    The Chairman. Without objection. Your request is granted.
    Mr. McIntyre. Thank you.
    [The statement from President Obama follows:]

 Official Statement of President Barack Obama submitted for the record 
     by Keith M. Harper, Attorney at Law, Kilpatrick Stockton LLP, 
                            Washington, D.C.

    Because of unfortunate congressional action in the 1950s, the 
Lumbee Indians have been deprived of the ability other non-federally 
recognized tribes enjoy to seek federal acknowledgment through 
administrative means. Accordingly, consideration of Lumbee recognition 
has delayed 50 years. Senator Obama believes there are rare 
circumstances when Congress should intervene and recognize a tribal 
group, when the equities of a particular situation call out for 
immediate and decisive action. The case of the Lumbee Indians of North 
Carolina is one such rare case. Relegating this tribal group so long 
deprived of due process of law to what is widely viewed as a troubled 
and slow administrative process after such an extraordinary lapse of 
time would, simply put, not be fair,
                                 ______
                                 
    [The editorial from the Fayetteville Observer submitted for 
the record by Mr. McIntyre is copyrighted and has been retained 
in the Committee's official files.)
    Mr. McIntyre. Mr. Chairman, over the last six years the 
Lumbee Tribe and many of its members have faithfully traveled 
to Capitol Hill. We have with us Chairman Goins, and I would 
like the Chairman and some of the other tribal leaders who are 
here to stand <plus-minus>and be recognized. Thank you for 
coming today. We have many more who are out in the hall waiting 
to come in and join us.
    The Lumbees are now attending their sixth hearing in six 
years to present their strong and solid case for Federal 
recognition by the U.S. Congress, and this does not take into 
account the numerous times the Congress has discussed this 
issue prior to the last six years.
    In fact, the Lumbees have been patient. For a hundred years 
they have been coming before Congress with regard to this 
issue, and in 1956 the Congress recognized the Lumbees in name, 
but did not complete the recognition process.
    We know that in the 110th Congress this Committee passed 
and the full U.S. House voted in a bipartisan way by exactly a 
two-thirds vote, 256 to 128, to say yes to Lumbee Federal 
recognition, and then the Senate Indian Affairs Committee also 
voted to send this bill to the Floor of the Senate. 
Unfortunately, with the national elections that occurred last 
fall, the Senate did not take final action on the bill so here 
we are again.
    Mr. Chairman, no doubt the time has come finally for 
recognition. We know that indeed for discrimination to end it 
is time for recognition to begin. During the past few hearings, 
the Lumbee Tribe has heard concerns raised about whether or not 
``they are true Indians,'' and I am sure that issue may well be 
raised again today.
    That statement is nothing more, Mr. Chairman, than a dagger 
in the heart of good, decent and honorable people who 
contribute to our society in every way, who have served in our 
nation's militaries, who serve as judges back in my home town 
of Lumberton, who serve in the state legislature in Raleigh on 
behalf of the county that I live in.
    In fact, I am a minority in my home county. The Lumbee 
Indians are the plurality in terms of population. They have 
held positions of leadership on the school board, on the county 
commission, in the state legislature and the judicial system. 
Our current county clerk, our current county registrar of 
deeds, are all Lumbee Indians.
    It shows that they have earned the respect and merited the 
respect of the general population back home. In fact, I grew up 
and went to a tri-racial high school, and Robeson County is the 
most ethnically diverse county of all 100 counties in North 
Carolina according to the last U.S. Census. The Lumbees have 
shown their leadership, their commitment, their willingness to 
make a difference in all phases of life.
    There have been some comments also about going through the 
process and the fairness of the process. Let me just jump to 
the heart of that issue. The Lumbees have been examined 11 
times by the Bureau of Indian Affairs. They have gone through 
the process, so why do we have this bill before Congress? Let 
us get to the bottom line.
    The Solicitor General has stated back in 1989 that because 
Congress took action in 1956 in recognizing the tribe in name, 
but never completed the process, Congress has to finish the 
process. The Lumbees are the only tribe in America in this 
situation. It is a very direct situation. It will not have 
implications for other tribes like we have heard comments about 
and I am sure we will hear more about today.
    There were two other tribes in America in this situation, 
and Congress acted on them both and completed the recognition 
and gave those tribes recognition. That will be documented in 
further testimony by other witnesses today. The only tribe in 
America left in limbo, this legal limbo, are the Lumbees, and 
it can't just be sent to the BIA because the Solicitor General 
has already stated that Congress needs to resolve it.
    Our good friends on both sides of the aisle understood 
this, and that is why we had such an overwhelming two-thirds 
vote from liberals, conservatives, moderates, Republicans, 
Democrats. We had votes in fact not only from folks from across 
the nation, but even when it went to the Senate we saw strong 
bipartisan support as Senators Dole and Byrd supported this 
measure when it was before the Senate during the last session.
    The Governors that I mentioned earlier represent both 
Republican and Democratic Governors from North Carolina as 
well, and they understand the plight that the Lumbees have had 
over these years.
    I have to tell you that as I go home virtually every 
weekend, as I spend time with my friends from the Lumbee 
community, in my home county where approximately 40,000 of the 
55,000 Lumbees reside, I know the injustice they feel in their 
hearts and the indignity they know in their minds that our own 
Federal government, despite all their contributions, despite 
their hard work, despite their commitment, despite their being 
here even before the first Englishman arrived on the coast of 
North Carolina at Roanoke Island, that our Federal government 
still doesn't give them the dignity of being fully recognized.
    I know that it is time for Congress to be able to proceed 
without further delay. Indeed, we know that justice delayed is 
justice denied. For a hundred years this tribe has been denied 
that justice, and we know now for over the last 52 years, after 
Congress did finally act and recognize the Lumbee Tribe in 
name, that justice has continued to be delayed.
    It is now indeed time to move forward. It is time indeed 
for discrimination to end and recognition to begin.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McIntyre follows:]

Statement of The Honorable Mike McIntyre, a Representative in Congress 
      from the State of North Carolina, 7th Congressional District

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify before you today regarding federal recognition 
for the Lumbee Indians.
    Chairman Rahall, the members of the Lumbee Tribe and I appreciate 
your leadership, support, and persistence in the fight for Lumbee 
Indian federal recognition. The Lumbee Tribe has no better friend in 
this Congress than Nick Joe Rahall, and I know that I speak on behalf 
of all the Lumbee members when I say, ``thank you.''
    Chairman Rahall, I would like to ask unanimous consent to place 
into the record 3 letters from North Carolina's only Governors over the 
last 32 years--Jim Hunt, James Martin, and Mike Easley. These letters 
show bi-partisan support for federal recognition for the Lumbee Tribe 
from our state's highest official.
    Mr. Chairman, over the last six years, the Lumbee Tribe and many of 
its members have faithfully traveled to Capitol Hill. They are now 
attending their sixth hearing in six years to present their strong and 
solid case for federal recognition by the U.S. Congress. And this does 
not take into account the numerous times the Congress has discussed 
this issue prior to this time. The Lumbees have been patient. They have 
been respectful. And, yes they have been persistent.
    In the 110th Congress, this committee passed and the full U.S. 
House voted in a bi-partisan way, 256-128, to say yes to Lumbee federal 
recognition. The Senate Indian Affairs Committee also passed the bill 
but unfortunately, the full U.S. Senate did not act on this bill. So, 
here we start again.
    Mr. Chairman, the time has come for positive finality on this 
issue. The time has come for passage in the House, passage in the 
Senate, and signature by President Obama who has said he supports 
Lumbee federal recognition.
    Once and for all, the time has come for discrimination to end and 
recognition to begin! This is the Lumbee Tribe's time!
    During the past few hearings, the Lumbee Tribe has heard concerns 
raised about them as to whether they are ``true Indians,'' and I am 
certain that it will be raised again here today.
    Chairman Rahall, that question is a dagger in the heart of the 
good, decent, and honorable people who compose the Lumbee Tribe! It 
represents a weak attempt to try and confuse the issue of federal 
recognition.
    Mr. Chairman, the record and the facts are crystal clear--the 
Lumbee Tribe exists as an Indian tribe and has done so over its long 
history. The Department of Interior has, on several occasions, 
concluded that the Lumbees are a distinct Indian community. The various 
names by which the tribe has been known were the result of State law. 
In no case, except for the name Lumbee, were the names chosen by the 
tribe itself. All the other names were imposed upon the tribe or chosen 
for them! Furthermore, the BIA regulations on acknowledgement of Indian 
tribes specifically provide that changes in names are not relevant to 
Indian identity.
    In the late 1500's, when English ships landed on the shores at 
Roanoke Island on the North Carolina coast, the Englishman discovered 
Native Americans. Included among those Native Americans were both the 
Cheraw and Pee Dee Indians, who are direct ancestors of the Lumbee 
Indians. Later, in 1888, the Lumbees made their first effort at gaining 
federal recognition. For at least 500 years, Lumbee Indians have been 
inhabitants of this land, and for over half of the time that our 
country has been in existence, 121 (First petition to Congress was in 
1888) of the 233 (2009-1776=233) years, the Lumbee Indians have been 
seeking the recognition and respect that they deserve. As the largest 
tribe east of the Mississippi and the largest non-recognized tribe in 
America, it is unfathomable that this tribe of 55,000 people has never 
been fully recognized by our government.
    I was born and reared in Robeson County, North Carolina, the 
primary home of the Lumbee people. I go home there virtually every 
weekend, and I have the high honor of representing approximately 40,000 
of the 55,000 Lumbees who live in my home county. In fact, there are 
more Lumbees in Robeson County than any other racial or ethnic group. 
The Lumbee Indians, many of whom are in the in the audience today, are 
my friends, many of whom I have known all my life. They are important 
to the success of everyday life in Southeastern North Carolina, and 
their contributions to our society are numerous and endless. From 
medicine and law to business and banking, from the farms and factories 
to the schools and the churches, from government, military, and 
community service to entertainment and athletic accomplishments, the 
Lumbees have made tremendous contributions to our county, state, and 
nation. In fact, in my home county, the former sheriff, the current 
clerk of court, the register of deeds, the school superintendent, 
several county commissioners and school board members, and the 
representative in the state legislature of the area where I live, as 
well as two of the district court judges and one of the superior court 
judges are all Lumbee Indians.
    Mr. Chairman, those contributions are being recognized by our 
colleagues here in the U.S. House through their support of H.R. 31, 
legislation that I have introduced to grant the Lumbees federal 
recognition. I am pleased to report to the Natural Resources Committee, 
that 179 members of the U.S. House from both parties have co-sponsored 
Lumbee recognition!
    Lumbee contributions are also being recognized at home by both the 
public and private sector. From City Councils to County Commissioners, 
from the Chamber of Commerce to the Southeastern Regional Medical 
Center--all have endorsed the effort to grant the Lumbees federal 
recognition.
    Mr. Chairman, in conclusion, let me urge this Committee, and this 
U.S. Congress, not to delay any more on this issue. Justice delayed is 
justice denied! As you will hear from the next panel, the evidence is 
clear, cogent, and convincing. It is time to say ``yes''--yes to 
dignity and respect; yes to fundamental fairness; yes to decency; yes 
to honor; yes to federal recognition! And as I said earlier, it's time 
for discrimination to end and recognition to begin!
    Thanks again for the opportunity to testify, and I look forward to 
working with you and the committee for this long over-due recognition. 
May God grant that justice finally be done! With your help, I am 
confident that it will!
                                 ______
                                 
    The Chairman. Thank you, Mike.
    Jim?

  STATEMENT OF HON. JAMES MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thanks very much, Mr. Chairman. I don't want to 
reiterate what the Governor has already said and said so 
articulately, but I very much appreciate you bringing this bill 
up again. This has been a long and in many ways a very painful 
process, particularly to our friends, the Virginia Indian 
tribes.
    Chief Stephen Adkins of the Chickahominy Tribe is here. 
Other relatives and friends are here. You will hear from Helen 
Rountree, an esteemed historian.
    This is a difficult thing for this country to come to grips 
with. To respond to my good friend, the Ranking Member, Mr. 
Hastings, there are two unique circumstances surrounding the 
Virginia Indian tribes, and to the extent that history is one 
sequence of ironies after another this takes the cake because 
these were the Indians that enabled the first English 
settlement in 1607 to survive. They taught them how to survive.
    In 1677, they signed a treaty with King Charles II of 
England, so they were never officially at war with the settlers 
and in fact never had any leverage to acquire sovereignty for 
their tribe, even though the treaty that they signed is the 
longest celebrated treaty in the history of the United States. 
It is celebrated every single year and celebrated by Virginia, 
and yet they are not recognized.
    The principal reason is the second unique circumstance to 
Virginia's Indian tribes, and it goes back to the beginning of 
the 20th century. In 1924, there was a law passed in Virginia 
called the Racial Integrity Act. A guy by the name of Dr. 
Walter Plecker, who was an avowed white supremacist, took it 
upon himself to lead the effort to implement this Racial 
Integrity Act.
    And so he went to the state and local courthouses and 
expunged the records, reclassifying in Orwellian fashion every 
document, particularly birth certificates, of Native Americans 
to make sure that all nonwhites were recorded as the official 
term was colored.
    In fact, if you were an Indian woman who gave birth in a 
hospital, you could not take your child out of the hospital 
until you checked a form identifying yourself as colored. They 
were given two lines. One white. One colored. You had to check 
that.
    Now, it was targeted at Native Americans in the 
Commonwealth of Virginia to ensure that they lost their 
identity. To call yourself a Native American put you at risk of 
one year in jail. That is how severe the law was.
    If you wanted to be married, you had to travel out of the 
state. Also, even to enlist in the military and to be 
identified as a Native American you had to travel out of the 
state.
    Finally it was struck down, this law, in 1967, but between 
1924 and 1967 virtually all of the public and most of the 
private records that confirmed the existence of Native 
Americans in Virginia were destroyed. That is why they can't go 
to the Bureau of Indian Affairs and get their recognition. This 
is a unique situation.
    They were told maybe it might be possible sometime if you 
go through the traditional process, but it will not be in your 
lifetime--Chief Adkins can tell you that; they were told that--
because there isn't the paper documentation. Some historians 
have called this a paper genocide. They wiped out all evidence 
of Native Americans.
    I won't go further into the reasons why the ruling elite in 
Virginia wanted so desperately to do that and all. It goes back 
to Pocahontas' descendants and so on. But there is no doubt 
these tribes exist, have existed.
    Now let me just give some insight into the issue about 
gambling. The only people who would allow them to receive any 
manner of education were the Christian missionaries and so they 
happened to be very strong, religious people, and they don't 
believe in gambling. You know, there are a number of clubs down 
the street from where they live that have bingo night and so 
on. They don't have any. They are allowed to do that. They 
won't do it. So again the irony of making this a restriction.
    And in this law the MGM, the Harrahs, all of these 
billionaires, Sheldon Adelson, billionaires that have made 
money from gambling, they can make all the money they want, but 
the Virginia Indian tribes can't make a dime from gambling, 
even if the Virginia law is changed. That is how restrictive 
this legislation is.
    But it is about their dignity, being recognized for who 
they are. That is what this legislation is all about. You know, 
this will bring closure to something that has just been an 
absolute travesty. That I am aware of, I don't have one Native 
American who is a constituent, but the problem is, and I think 
all of you, and Mr. Faleomavaega voiced it particularly. When 
you realize the history, the travesty of justice that has 
occurred here, you feel almost a personal responsibility to 
rectify it.
    That is what this bill will do. I thank you for considering 
it, and I trust this year it will finally be passed. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Moran follows:]

Statement of The Honorable James P. Moran, a Representative in Congress 
                       from the State of Virginia

    Mr. Chairman, thank you and thank you Members of the Natural 
Resources Committee who have been particularly sensitive during your 
service here in Congress to the needs of Native Americans and 
Virginia's Indian people.
    The Virginia Indians who are here with me in this hearing room and 
their friends and relatives who could not make today's trip to the 
Capitol are not myths or legends. They are the blood descendants of a 
proud people who populated the Mid-Atlantic and were part of the 
Powhatan Confederacy. They were the first to greet the English in 1607 
and ensure their survival for the first few years of their settlement 
at Jamestown. And, they have continued to exist as a people and as 
tribes ever since.
    Two years ago, this nation celebrated the 400th anniversary of the 
settlement of Jamestown. But while the anniversary brought greater 
notoriety to the Virginia Indians, it was not a celebration for the 
descendents of Pocahontas, for they have yet to be recognized by our 
federal government. Unlike most Native American tribes that were 
officially recognized when they signed peace treaties with the federal 
government, Virginia's six Native American tribes made their peace with 
the Kings of England. Most notable among these was the Treaty of 1677 
between these tribes and King Charles II. This treaty has been 
recognized by the Commonwealth of Virginia every year at Thanksgiving 
when the Governor accepts tribute from the tribes in a ceremony now 
celebrated at the State Capitol. Last November, I had the honor of 
attending the 331st ceremony affirming that treaty. I understand the 
event marks the longest celebrated treaty in the United States.
    The history of Virginia tribes is unique in two important ways that 
are relevant to why they are here today. The first explains why the 
Virginia tribes were never recognized by the federal government; the 
second explains why congressional action is needed. First, by the time 
the federal government was established in 1789, the Virginia tribes 
were in no position to seek recognition. They had already lost control 
of their land, withdrawn into isolated communities, and the state had 
stripped them of most of their rights. Lacking even the rights granted 
by the English Kings, much less our own Bill of Rights, the tribes 
found that federal recognition was nowhere within their reach.
    The second unique circumstance for the Virginia tribes is what they 
experienced at the hands of the state government during the first half 
of the 20th Century. It has been called a Apaper <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9cbc0c1cdc7cacb80ee">[email&#160;protected]</a> At a time 
when the federal government granted Native Americans the right to vote, 
Virginia's elected officials adopted racially hostile laws targeted at 
those classes of people who did not fit into the dominant white 
society. The fact that some of Virginia's ruling elite claimed to be 
blood descendants of Pocahontas in their view meant that no one else in 
Virginia could make a claim they were Native American and a descendent 
of Pocahontas' people. To do so would mean that Virginia's ruling elite 
were what they decreed all non-whites to be: part of ``the inferior 
Negroid race.''
    With great hypocrisy, Virginia's ruling elite pushed policies that 
culminated with the enactment of the Racial Integrity Act of 1924. This 
act directed state officials to destroy or alter all public records 
that might affirm the existence of Native Americans. One state 
official, Walter Plecker, an avowed white supremacist, spent his career 
as Director of the State Office of Vital Records sacking state and 
local courthouse records and reclassifying in Orwellian fashion other 
documents to make sure all non-whites were recorded as ``colored.''
    The law targeted Native Americans with a vengeance, denying Native 
Americans in Virginia their identity. To call oneself a ANative 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acedc1c9dec5cfcdc2ec">[email&#160;protected]</a> in Virginia was to risk a jail sentence of up to one year. In 
defiance of the law, members of Virginia's tribes traveled out of state 
to obtain marriage licenses or to serve their country in wartime. The 
law remained in effect until it was struck down in federal court in 
1967. In the period between 1924 and 1967, state officials waged a war 
to destroy all public and many private records that confirmed the 
existence of Native Americans in Virginia. Historians have affirmed 
that no other states' efforts compare to Virginia's efforts to 
eradicate its citizens' Indian identity.
    All of Virginia's state-recognized tribes have filed petitions with 
the Bureau of Acknowledgment seeking federal recognition. But it is a 
very heavy burden the Virginia tribes will have to overcome, and one 
fraught with complications that officials from the bureau have 
acknowledged may never be resolved in their lifetime. The 
acknowledgment process is already expensive, subject to unreasonable 
delays, and lacking in dignity. Virginia's ``paper genocide'' further 
complicates these tribes' quest for federal recognition, making it 
difficult to furnish corroborating state and official documents and 
aggravating the injustice already visited upon them.
    It wasn't until 1997, when then Governor George Allen signed 
legislation directing state agencies to correct state records, that the 
tribes were given the opportunity to correct official state documents 
that had deliberately been altered to list them as <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a6b49454645584f4e046a">[email&#160;protected]</a> The law 
allows living members of the tribes to correct their records, but the 
law cannot correct the damage done to past generations or to recover 
documents that were purposely destroyed during the ``Plecker Era.''
    In 1999, the Virginia General Assembly adopted a resolution calling 
upon Congress to enact legislation recognizing the Virginia tribes. I 
am pleased to have honored that request, and beginning in 2000 and in 
subsequent sessions, Virginia's Senators and I have introduced 
legislation to recognize the Virginia tribes.
    There is no doubt that the Chickahominy, the Eastern Chickahominy, 
the Monacan, the Nansemond, the Rappahannock, and the Upper Mattaponi 
tribes exist. These tribes have existed on a continuous basis since 
before the first European settlers stepped foot in America. They are 
here with us today.
    I know there is resistance in Congress to granting any Native 
American tribe federal recognition. And I can appreciate how the issue 
of gambling and its economic and moral dimensions has influenced many 
Members' perspectives on tribal recognition issues. The six Virginia 
tribes are not seeking federal legislation so that they can build 
casinos. They find this assertion offensive to their moral beliefs. 
They are seeking federal recognition, because it is an urgent matter of 
justice, and because elder members of their tribes, who were denied a 
public education and the economic opportunities available to most 
Americans, are suffering and should be entitled to the federal health 
and housing assistance available to federally recognized tribes.
    To underscore this point, the legislation I introduced includes 
language approved last session by the House of Representatives that 
would prevent the tribes from engaging in gaming on their federal land, 
even if everyone else in Virginia were allowed to engage in Class III 
casino-type gaming.
    In the name of decency, fairness, and humanity, the Virginia tribes 
deserve federal recognition. It is long overdue and would bring closure 
to the centuries of injustice Virginia's Indians have endured.
    Again, I appreciate your leadership and responsiveness in 
scheduling this hearing, and I would be pleased to respond to any 
questions.
    Thank you.
                                 ______
                                 

        Cosponsors of legislation introduced by Rep. Jim Moran 
                    recognizing six Virginia tribes

                    The Honorable Nick J. Rahall II

                      The Honorable Robert Wittman

                    The Honorable Gerald A. Connolly

                      The Honorable Raul Grijalva

                       The Honorable Tom Periello

                       The Honorable Bobby Scott

                     The Honorable Neil Abercrombie

                                 ______
                                 
    The Chairman. Thank you, Jim.
    Heath?

 STATEMENT OF HON. HEATH SHULER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Shuler. Thank you, Mr. Chairman. I want to thank 
Chairman Rahall and Ranking Member Hastings for holding this 
hearing today and for all the good work they have done on 
behalf of Native Americans.
    In 1978, the Department of the Interior recognized the need 
to end the inconsistency process of Native recognition and 
adopt uniform guidelines for Federal recognition. The Lumbee 
Recognition Act would bypass this process. I cannot support 
this legislation.
    I believe the Federal government's process allows for the 
evaluation necessary to make an informed and accurate decision. 
This process requires that any petition group meet seven 
mandatory criteria in order to become Federally recognized. The 
process is a thorough one, managed and overseen by qualified 
experts in the field of genealogy, anthropology and Native 
American history.
    Members of the Congress should not arbitrarily rule on the 
identity of a people without establishing the facts. The best 
way to establish those facts is to let the system work and let 
the experts do their job. The fair way to address the situation 
is to allow the Lumbee to complete the administrative process 
at the Office of Federal Acknowledgement in the Department of 
the Interior. This process protects not only the integrity of 
the United States, but also the political and cultural 
integrity of established Indian tribes.
    To preserve the integrity of Native American recognition, I 
have introduced H.R. 839, which would allow the Lumbee to 
undergo the process through the Department of the Interior.
    I also ask unanimous consent to insert a statement from 
Chief Michell Hicks of the Eastern Band of Cherokee Indians, 
who strongly oppose H.R. 31, into the record.
    The Chairman. Without objection. Request granted.
    [The statement from Chief Michell Hicks of the Eastern Band 
of Cherokee Indians follows:]

              Statement of Principal Chief Michell Hicks, 
            The Eastern Band of Cherokee Indians, on H.R. 31

    Chairman Rahall, Ranking Member Hastings, members of the House 
Natural Resources Committee, I appreciate the opportunity to provide 
this written testimony to this Committee on behalf of the Eastern Band 
of Cherokee Indians.
    The Eastern Band strongly believes that Congress should not enact 
H.R. 31. As I have testified on behalf of the Eastern Band a number of 
times before this Committee and the Senate Indian Affairs Committee, 
this bill has factual and policy flaws that fundamentally make the bill 
unfair to the United States and existing federally-acknowledged Indian 
tribes.
    First, there are serious problems with the tribal and individual 
identity of the Lumbee. Credible experts in the area of genealogy, who 
are not affiliated with the Eastern Band, have reached difficult 
conclusions concerning Lumbee identity that this Committee should not 
ignore. Paul Heinegg, whose work has been recognized by The American 
Society of Genealogists, concludes that the Lumbee are ``an invented 
North Carolina Indian tribe,'' <SUP>1</SUP> and that many of the 
persons who first self-identified as Indian in Robeson County, North 
Carolina, are not of Indian ancestry.
---------------------------------------------------------------------------
    \1\ ``The Lumbees' Long and Winding Road,'' Roll Call 13 (July 17, 
2006) (published following the Senate Indian Affairs Committee hearing 
on the Lumbee Recognition Act in 2006).
---------------------------------------------------------------------------
    Another indisputable expert in this area is Dr. Virginia DeMarce, 
who formerly served as Chair of the National Genealogical Association 
and as an expert in this area at the Department of the Interior. Dr. 
DeMarce concludes from her genealogical studies that many Lumbee 
families do not originate from the Robeson, North Carolina, area, but 
migrated there from other places.
    As you know, in past testimony before the Congress, Department of 
Interior officials also have raised serious concerns about Lumbee 
individual and tribal identity as well.
    This uncertain background may somewhat explain why the Lumbee have 
sought federal recognition as descending from four different tribes 
over the years: Cherokee, Siouan, Croatan, and now Cheraw.
    This leads to my second point. The cultural and political integrity 
of the Eastern Band and other tribes with living tribal languages and 
long standing government-to-government relations with the United States 
is undermined when Congress acts arbitrarily in federal acknowledgement 
matters, allowing politics and emotion to drive decision making, rather 
than facts about tribal identity. Eastern Cherokee leaders have raised 
these identity concerns about the Lumbee since at least 1910, when the 
Lumbees first claimed a Cherokee identity.
    Third, the Department of the Interior's Office of Federal 
Acknowledgement (OFA), while imperfect, is the only federal entity 
equipped to make an informed, merits-based determination of Lumbee 
tribal identity and recognition. Congress, while it certainly has the 
power to recognize tribal groups, is not as well equipped to evaluate 
and make these decisions as the Department of Interior.
    And finally, Congress should be absolutely certain that the Lumbees 
meet the objective criteria at Interior before it enacts a bill that 
could cost the taxpayers more than $800 million over five years, 
undermine the integrity of existing federally-recognized tribes, and 
further decrease the funds existing tribes and Indians receive. But due 
to the problems with Lumbee identity, Congress cannot be confident in 
the merits of this bill.
    A fair approach would be for Congress to clear the way for the 
Lumbees to get a fair shot at federal acknowledgement through the 
Department of the Interior's Office of Federal Acknowledgement. 
Congressman Heath Shuler (D-NC) has introduced H.R. 839 that would all 
Indian groups that fall under the 1956 Lumbee Act to complete the 
administrative process. This is the fair way to address this issue.
Serious Problems with Claimed Lumbee Identity
    ``An Invented North Carolina Indian Tribe'': Credible Experts Raise 
Serious Problems With Lumbee Identity
    Dr. Virginia DeMarce, the former Chair of the National Genealogical 
Society, and Paul Heinegg, an award-winning genealogist and author, 
have published research on Lumbee family genealogies and reached 
conclusions that contradict the fundamental bases for the Lumbee 
Recognition Act. Heinegg summarizes his conclusions concerning Lumbee 
identity, referring to the Lumbee as ``an invented North Carolina 
Indian tribe.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ ``The Lumbees' Long and Winding Road,'' Roll Call 13 (July 17, 
2006) (published following the Senate Indian Affairs Committee hearing 
on the Lumbee Recognition Act in 2006).
---------------------------------------------------------------------------
    Dr. DeMarce's research demonstrates that many Lumbee families 
migrated into the Robeson County, North Carolina, area from other 
places prior to 1800. <SUP>3</SUP> These include the Brayboy, Chavis 
(Chavers), Cumbo, Gowen, Locklear, Kersey, and Sweat families. Heinegg 
concurs and adds the Lumbee families of Carter, Hammond, Jacobs, James, 
Johnston, Lowry, Manuel, and Roberts to this list. <SUP>4</SUP> Dr. 
DeMarce also states that genealogical evidence does not bear out that 
these families significantly married into Indian families upon arrival 
into the Robeson County area in the 1800s. <SUP>5</SUP> In fact, there 
is evidence that non-Indians in the area did not consider these Lumbee 
families to be Indians in the 1840s. <SUP>6</SUP> Beyond those families 
listed earlier, Dr. DeMarce also states that other notable genealogists 
frequently refer to other self-identified Lumbee families as residing 
in other areas prior to any settlement in the Robeson County area. 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \3\ Virginia DeMarce, ``Looking at Legends''Lumbee and Melungeon: 
Applied Genealogy and the Origins of Tri-Racial Isolate Settlements,'' 
National Genealogical Society Quarterly 81 (March 1993): 27-31.
    \4\ Paul Heinegg, Free African Americans of North Carolina and 
Virginia (Baltimore, MD: Clearfield, 1997, 3rd Ed.): 23.
    \5\ DeMarce, Legends at 37.
    \6\ DeMarce, Legends at 27. These genealogical findings are 
supported by Historian John Hope Franklin quoting a petition from the 
North Carolina Legislative Papers for 1840-41 that showed Robeson 
County inhabitants during the first half of the nineteenth century did 
not agree with the theory that the Lumbees were Indians but were 
migrants from Virginia. Id.
    \7\ DeMarce, Legends at 30.
---------------------------------------------------------------------------
    More broadly, Heinegg states that the Lumbees from Robeson County 
were not Indians but ``African American as shown by their 
genealogies.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Heinegg at 22.
---------------------------------------------------------------------------
    DeMarce states that Lumbee families had good reason to identify 
themselves as Indian at the time. The ``legal, social, educational, and 
economic disadvantages of being African-American were so great that it 
was preferable for a person to be considered almost anything else.'' 
<SUP>9</SUP> Heinegg adds that until about 1835, ``free African 
Americans in Robeson County attended white schools and churches, voted, 
and [congregated] with whites. However, the relations between the 
whites and free African American communities deteriorated rapidly after 
1835, and by the end of the Civil War they were strained to the 
breaking point.'' <SUP>10</SUP> The Lumbee claims of Indian ancestry 
allowed Lumbee children to go to different schools from the children of 
newly freed slaves. <SUP>11</SUP> According to DeMarce, not until after 
the Civil War did most communities of African Americans advance a claim 
of also being of Indian ancestry. <SUP>12</SUP>
---------------------------------------------------------------------------
    \9\ Virginia DeMarce, ```Verry Slitly Mixt': Tri-Racial Isolate 
Families of the Upper South--A Genealogical Study,'' National 
Genealogical Society Quarterly 81 (March 1992): 6.
    \10\ Heinegg at 25.
    \11\ Heinegg at 25. According to the 1956 Lumbee Act, the Lumbees 
themselves were persons ``owning slaves.''
    \12\ DeMarce, Tri-Racial Isolates at 7.
---------------------------------------------------------------------------
    In 1900, over 120 Lumbee families, including the ones above, self-
identified as ``Indian'' in the federal census. Dr. Campisi relies on 
federal census records as the ``best source of evidence concerning the 
Lumbee community.'' <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ 109th Congress, Campisi testimony at 38.
---------------------------------------------------------------------------
The Lumbee Have Self-Identified As Four Different Tribes
    This uncertain genealogical background illuminates the remarkable 
story of Lumbee efforts to attain federal acknowledgement as four 
different Indian tribes, including the ``Cherokee Indians of Robeson 
and Adjoining Counties.''
    The Lumbee group seeking Congress's acknowledgment today has been 
before the Congress on numerous occasions in the past, beginning in 
1899. The tribal identity of the Lumbees, who have over the course of 
history self-identified themselves as four different tribes before 
Congress ``Croatan, Cherokee, Siouan, and now Cheraw--is highly in 
question. These appellations do not correlate with each other. 
Linguistically, the Croatan were Algonquian, the Cherokee Iroquoian, 
and the Cheraw were Siouan. Thus, these disparate references themselves 
implausibly covered three distinct and separate linguistic groups. 
Moreover, referring to themselves as the ``Siouan Tribe'' did not make 
sense because the term ``Siouan'' is simply a reference to a broad 
generic linguistic classification that encompassed many distinct tribal 
languages in North America, including Osage, Assiniboine, Dakota, 
Lakota, Catawba, Hidatsa, Crow, Mandan, Ponca, Biloxi, and Quapaw, to 
name a few.
    The origin of the Lumbee name comes not from a historic tribe but 
from a geographic location in the State of North Carolina, a place 
along the Lumber River. The term ``Lumbee'' is a modern creation that 
the group selected as its name in 1952.
Lumbee's Self-Identification as ``Croatan'' Indians
    The Lumbee sought federal services from the Congress as ``Croatan'' 
Indians in the 1880's and early 1900's. <SUP>14</SUP> In 1993, this 
Committee's House Report contained the following relating to the 
history of the Lumbee group, including its ``Croatan'' origins:
---------------------------------------------------------------------------
    \14\ ``Testimony of Dr. Jack Campisi, in Support of S. 420, United 
States Senate Committee on Indian Affairs'' (September 17, 2003) p. 6.
---------------------------------------------------------------------------
        The story of how the progenitors of the Lumbee came to live in 
        this area of North Carolina is a multifarious one. In fact, 
        there are almost as many theories as there are theorists. Up 
        until the 1920's, the most persistent tradition among the 
        Indians in Robeson County was that they were descended 
        primarily from an Iroquoian group called the Croatans. This 
        theory, though highly conjectural, is as follows. In 1585, Sir 
        Walter Raleigh established an English colony under Gov. John 
        White on Roanoke Island in what later became North Carolina. In 
        August of that year, White departed for England for supplies, 
        but was prevented from returning to Roanoke for 2 years by a 
        variety of circumstances. When he finally arrived at the 
        colony, however, he found the settlement deserted; no physical 
        trace of the colonists was found.

        The only clue to their whereabouts were the letters ``C.R.O.'' 
        and the word ``Croatoan'' carved in a tree. From this it was 
        surmised that the colonists fled Roanoke for some reason, and 
        removed to the nearby island of Croatoan which was inhabited by 
        a friendly Indian tribe. There, according to the theory, they 
        intermarried with the Indians, and the tribe eventually 
        migrated to the southwest to the area of present-day Robeson 
        County. The theory is lent some credence by reports of early 
        18th century settlers in the area of the Lumber River who noted 
        finding a large group of Indians--some with marked Caucasian 
        features such as grey-blue eyes ``speaking English, tilling the 
        soil, ``and practicing the arts of civilized life.'' In 
        addition, many of the surnames of Indians resident in the 
        county match those of Roanoke colonists. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ H.R. Rep. No. 103-290, 103rd Cong., 1st Sess. at 179 (1993).
---------------------------------------------------------------------------
Genealogist Paul Heinegg refers to this theory of Lumbee tribal 
background as well as the one posited today by the Lumbee as 
``fantastic theories on [Lumbee] origin....'' <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ Heinegg at 17.
---------------------------------------------------------------------------
Lumbee's Self-Identification as ``Cherokee'' Indians
    In the state of North Carolina, the Lumbee group sought recognition 
from the North Carolina legislature in 1913 as the ``Cherokee Indians 
of Robeson County.'' This legislation was passed, despite the Eastern 
Band's opposition, and the group was recognized in North Carolina as 
``Cherokee'' Indians. That continued for 40 years until 1953 when the 
North Carolina legislature, at the Lumbee group's request, passed 
legislation recognizing them as the ``Lumbee'' Indians instead of as 
the ``Cherokee'' Indians.
    After World War I, the Lumbees sought federal legislation in 
Congress for recognition as ``the Cherokee Indians of Robeson and 
adjoining counties.'' Specifically, in 1924, Dr. Campisi noted that the 
now-called Lumbee group had legislation introduced in the U.S. Senate 
that would have recognized them as ``Cherokee'' Indians. However, the 
Commissioner of Indian Affairs Charles H. Burke opposed the legislation 
and it failed to pass.
    In 1932, the Lumbees sought legislation that was introduced in the 
Senate that would have recognized them as ``the Cherokee Indians,'' but 
this effort failed also. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
    In 1933, another Lumbee acknowledgement bill failed because the 
Lumbees themselves did not agree on whether the tribal affiliation 
should be changed from ``Cherokee Indians'' to ``Cheraw Indians.'' 
<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Campisi testimony, 109th Congress at 40.
---------------------------------------------------------------------------
Lumbee's Self-Identification as ``Siouan'' Indians
    According to the Lumbee, they sought federal recognition as 
``Siouan'' Indians in 1924. In the 1930's, for purposes of the Indian 
Reorganization Act, the Lumbees self-designated themselves as the 
``Siouan Indian Community of Lumber River.'' <SUP>19</SUP> As stated 
above, the term ``Siouan'' is a reference to a generic linguistic 
classification that is spoken by many tribes in North America and is 
not a term that describes a distinct historical tribe.
---------------------------------------------------------------------------
    \19\ Id. at 9.
---------------------------------------------------------------------------
    It was not until 1952 that the Lumbees decided to refer to 
themselves as ``Lumbee'' based upon their geographic location next to 
the Lumber River. In 1956, Congress, at the request of the Lumbees, 
passed legislation commemorating their name change. <SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Id. at 9-10. Contrary to Lumbee claims that the 1956 Lumbee 
Act both acknowledged the Lumbee as a tribe and terminated that tribal 
status in the same law, the Act itself states that the Lumbee are 
individuals only ``claiming joint descent from remnants of early 
American colonists and certain tribes of Indians originally inhabiting 
the coastal regions of North Carolina....'' The legislative history of 
the Act also makes clear that it only commemorates a name change. 102 
Cong. Rec. 2900 (1956).
---------------------------------------------------------------------------
The Lumbees' Current Efforts to Link Themselves to the Cheraw Tribe Are 
        Tenuous
    The federal acknowledgment criteria require that the membership of 
a petitioning group consist of ``individuals who descend from a 
historical Indian tribe or from historical Indian tribes which combined 
and functioned as a single autonomous political entity.'' <SUP>21</SUP> 
The regulations define ``historical'' in this context as ``dating from 
first sustained contact with non-Indians.'' <SUP>22</SUP> The origin 
and ties to a historical tribe have been the subject of uncertainty not 
only among experts in the area but also the Lumbee themselves.
---------------------------------------------------------------------------
    \21\ 25 C.F.R. Sec. 83.7(e).
    \22\ Id. at 83.1.
---------------------------------------------------------------------------
    Experts at the Bureau of Indian Affairs have testified that the 
Lumbee ties to the Cheraw Tribe are tenuous. On August 1, 1991, 
Director of the Office of Tribal Services Ronal Eden testified on 
behalf of the Administration regarding federal legislation that would 
congressionally acknowledge the Lumbee. Regarding the Lumbee petition 
for federal recognition before the agency, the Director testified to a 
``major deficiency'' that ``the Lumbee have not documented their 
descent from a historic tribe.'' <SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ Statement of Ronal Eden, Director, Office of Tribal Services, 
Bureau of Indian Affairs, Department of the Interior, Before the Joint 
Hearing of the Select Committee on Indian Affairs, United States 
Senate, and the Interior and Insular Affairs Committee, United States 
House of Representatives, on S. 1036 and H.R. 1426 (August 1, 1991) p. 
3-5.
---------------------------------------------------------------------------
    The testimony also stated that the 18th century documents used by 
Lumbee to support its claim that it is primarily descended from a 
community of Cheraws living on Drowning Creek in North Carolina in the 
1730's needed extensive analysis corroborated by other documentation. 
<SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Id.
---------------------------------------------------------------------------
    In his September 17, 2003 testimony before the Senate Indian 
Affairs Committee, Lumbee expert Jack Campisi relies on a report of Dr. 
John R. Swanton of the Bureau of Ethnology for concluding ``in the 
1930s that the Lumbees are descended predominantly Cheraw Indians.'' 
<SUP>25</SUP> The House Report specifically refutes this claim, stating 
that Swanton chose ``Cheraw'' rather than another tribal name he 
identified--``Keyauwee''--because the Keyauwee name was not well known. 
``In other words, the choice of the Cheraw was apparently made for 
reasons of academic ease rather than historical reality.''
---------------------------------------------------------------------------
    \25\ Campisi Testimony at 21.
---------------------------------------------------------------------------
    Furthermore, the head of the BIA's acknowledgment process 
questioned the adequacy of the underlying proof of Cheraw descent. He 
testified in 1989 that:
        The Lumbee petition...claims to link the group to the Cheraw 
        Indians. The documents presented in the petition do not support 
        [this] theory....These documents have been misinterpreted in 
        the Lumbee petition. Their real meanings have more to do with 
        the colonial history of North and South Carolina than with the 
        existence of any specific tribal group in the area in which the 
        modern Lumbee live.
    Arlinda Locklear, Counsel to the Lumbee, in her 2003 testimony 
before the Senate Indian Affairs Committee admitted that these concerns 
continue today. ``Department staff that administers the administrative 
acknowledgment process have expressed some concern about the absence of 
a genealogical connection between the modern day Lumbee Tribe and the 
historic Cheraw Tribe.'' <SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ ``Testimony of Arlinda Locklear, Patton Boggs LLP, Of Counsel 
for the Lumbee Tribe of North Carolina in Support of S. 420 United 
States Senate Committee on Indian Affairs'' (September 17, 2003) p. 4 
fn. 1.
---------------------------------------------------------------------------
    On July 12, 2006, an Interior official testifying before the Senate 
Indian Affairs Committee restated the problem the Lumbee have had in 
identifying their historic tribe.
        ``[T]he uniqueness is the lack of pinning down of the 
        historical tribe.,,There is a considerable period of time where 
        evidence would be needed to fully understand who this group was 
        and is...[because] there have been approximately 26 bills 
        introduced since 1899...[that ] have provided possible 
        historical tribes and there are quite a number of them...One 
        report indicated...the Cherokee, another...the Cheraw, 
        another...the Croatan. One report included a whole group of 
        different historical tribes, such as the Eno, the Hatteras, the 
        Keowee, the Shakori. Even John R. Swanton, who is a renowned 
        anthropologist, in a 1946 report for the Bureau of Ethnology, 
        stated that there were several possibilities that the Lumbee 
        could descend from either the Cheraw, the Siouan Indians of 
        Lumber River, the Keowee, and another group known as the 
        Washaw. There is a whole number of possibilities.''
Claimed Lumbee Membership Not Tied to Cheraw Individuals
    The various documents on which the Lumbee membership list is based 
similarly cast doubt as to the ability of the Lumbee to meet the 
acknowledgement criteria. The Lumbees claim over 62,000 enrolled 
members who are descended from anyone identifying as ``Indian'' in five 
North Carolina counties and two South Carolina counties in either the 
1900 or 1910 federal census. The Lumbee Constitution refers to these 
census lists as the ``Source Documents.'' Yet the individuals on these 
lists cannot be specifically identified and verified as Cheraw Indians. 
In fact, these individuals cannot be identified as belonging to any 
tribe whatsoever. These are lists of people who self-identified or were 
identified by the census as ``Indian.''
    Members of this Committee have recognized the weaknesses and 
complexities in the Lumbee group's claim to tribal recognition in the 
past:
        The Lumbee...have never had treaty relations with the United 
        States, a reservation, or a claim before the Indian Claims 
        Commission; they do not speak an Indian language; they have had 
        no formal political organization until recently; and they 
        possess no autochthonous ``Indian'' customs or cultural 
        appurtenance such as dances, songs, or tribal religion. One of 
        the groups consultant anthropologists, Dr. Jack Campisi, noted 
        this lack of Indian cultural appurtenances in a hearing 
        colloquy with then-Congressman Ben Nighthorse Campbell:

        Mr. Campbell:  Do [the Lumbee] have a spoken language...?
        Dr. Campisi:   No.
        Mr. Campbell:  Do they have distinct cultural characteristics 
        such as songs, dances and religious beliefs and so on?...Do the 
        Lumbees have that?
        Dr. Campisi:   No. Those things were gone before the end of the 
        18th Century.

    This absence of cultural appurtenances in part identify the Lumbee 
as part of what sociologist Brewton Berry has termed the ``marginal 
Indian groups.'' As Berry notes:
        These are communities that hold no reservation land, speak no 
        Indian language, and observe no distinctive Indian customs. 
        Although it is difficult to establish a firm historical Indian 
        ancestry for them, their members often display physical 
        features that are decidedly Indian. Because they bear no other 
        historic tribal names, they often emphasize a Cherokee 
        ancestry.

        These characteristics require more than just a simple one-page 
        staff memo to understand fully. Needless to say, if those 
        [Members of Congress] charged with the day-to-day oversight of 
        Indian affairs do not have the necessary expertise--or even 
        knowledge--in this area, how will the balance of our Members 
        appropriately exercise those judgments as they will be called 
        upon to do when this legislation reaches the floor? 
        <SUP>27</SUP>
---------------------------------------------------------------------------
    \27\ H.R. Rep. No. 103-290, 103rd Cong., 1st Sess. at 186-87 
(1993).
---------------------------------------------------------------------------
    Furthermore, in his 2006 Senate testimony, the BIA director 
identified ``over 80 names of groups that derive from these 
counties,,.[including] the Cherokee Indians of Robeson and Adjoining 
Counties, the Lumbee Regional Development Association, the Cherokee 
Indians of Hoke Count, Inc., the Tuscarora Nation of North Carolina, 
The Tuscarora Nation of Indians of the Carolinas...[in which] there is 
an overlapping of membership, there is an overlapping of some of the 
governing bodies and there is an overlap of the ancestry of these 
groups with the Lumbee.'' <SUP>28</SUP>
---------------------------------------------------------------------------
    \28\ S. Hrg. 109-610, Lumbee Recognition Act, July 12, 2006, page 
16.
---------------------------------------------------------------------------
This Legislation Impacts the Integrity of Eastern Band and other 
        Established Tribes
    Since before the coming of Europeans to this continent, the 
Cherokee have lived in the southeastern part of what is now the United 
States, in the states of North Carolina, South Carolina, Alabama, 
Georgia, Kentucky, Tennessee, and Virginia. Through these years, the 
Cherokee have faced unending threats to our very existence--including 
the tragic Trail of Tears where more than 15,000 Cherokee Indians were 
forcibly removed by the U.S. Army from their ancestral homelands to the 
Indian Territory as part of the federal government's American Indian 
Removal Policy. Thousands died. The Cherokee came to call the event 
Nunahi-Duna-Dlo-Hilu-I or Trail Where They Cried. The Eastern Band of 
Cherokee Indians are the descendants of those Cherokees that resisted 
removal in the Great Smoky Mountains and escaped the Trail of Tears or 
who were able to return to their homeland in the Smoky Mountains after 
the Trail of Tears.
    Yet, through all of this, the Cherokee people have fiercely 
protected our separate identity as Cherokees. Many of our tribal 
members are fluent in the Cherokee language. We have a separate culture 
that makes us different than any group of people in the world. 
Leadership of the Cherokee and the Cherokee people themselves, with 
tenacity and determination, have fought to ensure that our way of life, 
our beliefs, and our sovereignty will survive. And we are still here 
today--proud and strong.
    Like other tribes across the country, we hold in high regard the 
long-standing government-to-government relationship the Eastern Band of 
Cherokee Indians has with the United States. We are proud that the 
United States has entered into treaties with the Cherokee that helped 
shape the government-to-government relations with all tribes.
    But today, like other tribes, we face a new threat to our separate 
identity: groups of people who claim, or who have claimed Cherokee, or 
other tribal affiliations whose legitimacy is doubtful at best. 
Unfortunately, we believe this to be the case with this bill.
    If Congress recognizes groups whose tribal and individual identity 
as Indians is seriously in doubt, it will dilute the government-to-
government relationships that existing federally recognized tribes have 
with the United States. We strongly believe that this bill would 
undermine the integrity of existing federally recognized Indian tribes 
due to the real problems that the Lumbee have in demonstrating that it 
is a tribe, including their inability to trace the genealogy of its 
62,000 members to a historic tribe.
Interior's Office of Federal Acknowledgement Is the Proper Forum for 
        Deciding Whether the Lumbee Should be Federally Recognized
    The Department of the Interior through the Office of Federal 
Acknowledgement (OFA) has an established, uniform administrative 
process with objective criteria that can make exactly the kind of 
substantive, merits-based determinations that the Congress is not able 
to make. To allow the Lumbees to circumvent that process would also 
undermine the federal recognition process, as it has evolved at the 
Department of Interior, and would be patently unfair to the hundreds of 
applicants that have gone through or are going through the process 
developed by the Department. Congressional approval of this legislation 
will short circuit the process and allow the Lumbee to avoid the proven 
regulatory process, which we believe the Lumbees seek to do because 
they have significant historic, cultural and genealogical gaps for 
which they can provide no proof of their existence as a sovereign 
entity, in favor of old-fashioned politics.
    Members of the Resources Committee have noted the harm that would 
come to long-standing federally recognized tribes from legislation like 
this:
        Bypassing the [administrative] process not only ignores the 
        problem [with that process], but is unfair to all of the 
        recognized tribes. There exists a formal government-to-
        government relationship between the recognized tribes and the 
        United States. If Congress creates tribes at will, without 
        meaningful uniform criteria or substantial corroborated 
        evidence that the group is indeed a tribe, then we dilute and 
        weaken that relationship. <SUP>29</SUP>
---------------------------------------------------------------------------
    \29\ Id. at 202.
---------------------------------------------------------------------------
    Members of this Committee have acknowledged that a large number of 
tribes and tribal organizations supported strict adherence to a 
systematic administrative procedure, including:
        [T]ribes in twelve states, from regional intertribal 
        organizations representing all the tribes of the Pacific 
        Northwest, Montana and Wyoming, the United South and Eastern 
        Tribes (representing all the tribes from Maine to Florida and 
        west to Louisiana), all of the ten southwestern Pueblo tribes, 
        and twenty-five of the twenty-six tribes in Arizona. 
        <SUP>30</SUP>
---------------------------------------------------------------------------
    \30\ Id. at 202-03.
---------------------------------------------------------------------------
    Moreover, while the Lumbee have argued that the process is unfair, 
their bill, contrary to their argument, provides that the other North 
Carolina groups, who the Solicitor's office at Interior has also 
determined are barred from accessing OFA under the 1956 Lumbee Act, 
would be authorized to submit petitions to OFA for federal 
acknowledgment. If it is fair for these other groups to go through the 
OFA process, then it should be fair for Lumbee also.
    When substantially similar legislation came up in the past, members 
of this Committee argued strongly that the Lumbee should be required to 
follow the administrative process:
        [T]he argument that the Lumbee should be allowed to bypass the 
        process because it is too cumbersome and backlogged 
        is...specious. While the BIA recognition process is in need of 
        repair, it is not as decrepit as the majority would have us 
        believe. There is only a backlog of nine petitions, not the 120 
        cases often cited; and while we concede that the process is 
        imperfect, the most rational solution is to fix it. Bypassing 
        the process only ignores the problem, undermines the role of 
        the BIA, and is unfair to both recognized and unrecognized 
        tribes. <SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Id. at 206.
---------------------------------------------------------------------------
Congress Should Not Obligate Enormous Spending Where the Identity of 
        the Tribe is Uncertain at Best
    The impact on appropriations to other Indian tribes would be 
unprecedented in the history of federal acknowledgment. On May 15, 
2008, the Congressional Budget Office determined that, based on an 
estimate of 54,000 Lumbees, that the cost of this legislation would be 
$768 million over five years. Yet the Lumbees claim over 64,000 service 
population. The real cost of this bill would be much higher than this 
estimate.
    Accordingly, this bill would have a huge, negative impact on the 
budgets of Bureau of Indian Affairs and the Indian Health Service and 
would decrease even further the badly needed funds Indian people 
receive as a result of promises and trust obligations of the United 
States to Indians and tribes. This Committee and the Congress should 
not dive into support for this legislation for emotional or political 
reasons, particularly without being absolutely certain that this group 
constitutes an Indian tribe in accordance with the objective criteria 
utilized by the Office of Federal Acknowledgement for evaluating 
petitions for federal acknowledgement.
CONCLUSION
    If this Committee and the Congress choose to pass this legislation, 
the consequences will be dramatic for existing federally recognized 
tribes.
    First and foremost, politics will have won a decided victory over 
sound policy. The notion of ``taking the politics out of federal 
recognition'' will have suffered its most severe setback in history.
    Second, with federal acknowledgement comes the ability of a group 
to engage in serious activities associated with sovereign status, such 
as the ability to tax and enjoy certain tax advantages, the ability to 
exercise civil jurisdiction over non-Indians as well as Indians, and 
the right to engage in gaming. Enacting legislation like this only arms 
those who seek to erode sovereign rights with evidence that some of 
those with such rights were haphazardly afforded them.
    The Eastern Band of Cherokee Indians would welcome the Lumbees into 
the family of federally recognized tribes if they can successfully make 
it through the administrative process at the Department of the 
Interior. Absent their meeting the objective criteria at Interior, with 
complete vetting of their claimed tribal identity, membership lists, 
and other requirements, we believe that passing this legislation would 
be a serious mistake, with politics winning out over sound policy.
    If you determine that legislation is necessary to address this 
situation, we urge you to require the Lumbee provide evidence to 
Congress which shows that it meets the equitable and standardized 
requirements established in the administrative process.
                                 ______
                                 
    Mr. Shuler. Thank you, Mr. Chairman, for allowing us to 
have this hearing today. I would certainly like to say I 
certainly miss the Committee work and being on this Committee. 
Thank you, sir.
    [The prepared statement of Mr. Shuler follows:]

     Statement of The Honorable Heath Shuler, a Representative in 
               Congress from the State of North Carolina

    I want to thank Chairman Rahall and Ranking Member Hastings for 
holding this hearing today and for all the good work they have done on 
behalf of Native Americans.
    Mr. Chairman, every time a legislative body has tried to resolve 
the Lumbee issue, they have made the situation worse.
    In 1978, the United States Department of Interior recognized the 
need to end the inconsistent process of native recognition, and adopted 
a uniform guideline for federal acknowledgement.
    H.R. 31, the ``Lumbee Recognition Act,'' would circumvent that 
process. I cannot support such legislation.
    I believe the federal acknowledgment process allows for the uniform 
and rigorous evaluation necessary to make an informed and accurate 
decision.
    This process requires that any petitioning group meet seven 
mandatory criteria in order to become federally recognized.
    The process is a thorough one, managed and overseen by qualified 
experts in the fields of genealogy, anthropology, and Native American 
history.
    I strongly oppose any attempts to circumvent this established 
process by any group, including Lumbee. Members of Congress should not 
arbitrarily rule on the identity of a people without establishing the 
facts.
    And the best way to establish those facts is to let the system 
work, and let the experts do their job.
    The fair way to address this situation is to allow the Lumbee to 
complete the administrative process at the Office of Federal 
Acknowledgement in the Department of the Interior.
    This process protects not only the interests of the United States 
but also the political and cultural integrity of established Indian 
tribes.
                                 ______
                                 
    The Chairman. We miss having you on the Committee, Heath.
    Patrick McHenry?

STATEMENT OF HON. PATRICK McHENRY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. McHenry. Thank you, Mr. Chairman and Ranking Member 
Hastings. I appreciate the opportunity to testify today about 
this important legislation that affects North Carolina and our 
folks at home.
    Mr. Chairman, Native Americans across this country are 
looking to Congress to help on a number of high priority 
issues, and I know the Committee is concerned about this, 
including Indian health care reform, fixing the U.S. Supreme 
Court's decision regarding land trust issues and tribal 
sovereignty protection from the Employee Free Choice Act.
    Unfortunately, we are discussing the Lumbee Recognition Act 
today. It is a highly controversial piece of legislation in 
North Carolina and many parts of Indian Country as well. My 
position on this bill is very straightforward. All groups 
seeking Federal acknowledgement as Indian tribes should go 
through the administrative process of the Department of the 
Interior.
    In this case, the Department has stated that the 1956 
Lumbee Act prevents the Lumbee from going through the process, 
so Congress should lift that restriction. That is why I have 
co-sponsored and supported Congressman Heath Shuler's 
legislation. It removes the barrier set forth in the 1956 
Lumbee Act and provides the Lumbee with the same opportunities 
to attain Federal recognition as other tribes have.
    To the extent the process needs to be reformed, we should 
let Congress or the agency focus on the process instead of 
individual recognition bills. I cannot support this legislation 
which would allow the Lumbee to circumvent the established 
process we have while other groups are still diligently working 
through the recognition process at the Office of Federal 
Acknowledgement. I think it would be unfair to those groups to 
go around and circumvent this process.
    Also, it is unfair to existing Federally recognized tribes, 
such as the Eastern Band of Cherokee, who do not want to see 
its cultural identity undermined by legislation such as this 
today. Federal recognition matters get caught up in emotion 
and--well, let us be honest--politics. We should take the 
politics out of the Federal recognition process and allow the 
Office of Federal Acknowledgement to do its job.
    I appreciate the Committee's indulgence in allowing me to 
testify today. Thank you, Mr. Chairman. Thank you, Ranking 
Member Hastings. I look forward to your questions.
    [The prepared statement of Mr. McHenry follows:]

              Statement of The Honorable Patrick McHenry, 
              Tenth District of North Carolina, on H.R. 31

    Mr. Chairman, Indian tribes across the country are looking to the 
U.S. Congress for help on a number of high priority issues: Indian 
health care reform, fixing the U.S. Supreme Court's decision regarding 
land trust issues, and tribal sovereignty protection in the Employee 
Free Choice Act.
    But this Committee's first action of the new Congress is to 
consider the ``Lumbee Recognition Act,'' a bill that is highly 
controversial not only in Indian country but also in Congress.
    My position on this bill is very straightforward. All groups 
seeking federal acknowledgement as Indian tribes should go through the 
administrative process at the Department of the Interior. In this case, 
the Department has stated the 1956 Lumbee Act prevents the Lumbee from 
going through the process, so Congress should act to lift that 
restriction. This is why I support Congressman Shuler's legislation; it 
removes the barriers set forth in the 1956 Lumbee Act and provides the 
Lumbee with the same opportunity to attain federal recognition as other 
tribes have.
    To the extent that the process needs to be reformed, we should let 
Congress or the agency focus on the process, instead of individual 
recognition bills.
    I cannot support this legislation, which would allow the Lumbee to 
circumvent the process, while other groups diligently work toward the 
goal of recognition through the Office of Federal Acknowledgement. This 
would be unfair to those groups.
    Also, it is unfair to existing federally recognized tribes, such as 
the Eastern Band of Cherokee Indians, who do not want to see its 
cultural identity undermined by legislation such as this.
    Federal recognition matters get caught up in emotion and, let's 
face it, politics. We should take the politics out of federal 
recognition and allow the Office of Federal Acknowledgement to do its 
job.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you, Patrick.
    Another former Member of our Committee, the gentleman from 
North Carolina, Walter Jones. Welcome.

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you. It is really nice to 
come back to the Committee. I am sorry I couldn't continue to 
serve on it. You were always an outstanding Member certainly, 
Mr. Hastings and many other people who are still here, Mr. 
Kildee and my friend from Guam. We just thank each and every 
one for the opportunity today.
    I am going to be very brief because Mr. Shuler and Mr. 
McHenry have taken many of the words that I would use, but I 
will say this. My respect for this Committee will continue 
until the day I leave Congress and after that time.
    I think what you are being asked to do by passing this 
legislation, and I don't have a better friend--he is my brother 
in Christ--than Mike McIntyre. I know he is doing this for the 
right reasons, and he believes that. I will always respect him 
for that. But as Mr. Shuler said and Mr. McHenry said, we are 
bypassing the process. The process, good or bad, maybe the 
process needs to be changed, but I don't think it needs to be 
changed with this legislation.
    Mr. Shuler said and Mr. McHenry said this will circumvent 
the process. It is my understanding and the reason I joined Mr. 
Shuler in H.R. 839 was that this would give an advantage to the 
Lumbees if they deserve that advantage to move them in front of 
the list, to give them a chance to go ahead and have their case 
heard.
    As Mr. McHenry has said, there are many questions, right or 
wrong, about the historical history of the Lumbees. In fact, 
when Mr. McIntyre said a hundred years ago they weren't known 
as Lumbees at that time, so I think there are some legitimate 
questions that all of us as American citizens, we want our 
people who have fallen, as Mike said, for this country to be 
recognized, the people who are working, whether they be Lumbees 
or not, but this process is too important to scrap.
    If you let one bill come through the House and the Senate 
then you know better than I, Mr. Chairman and Ranking Member. 
You know what is coming next. You are going to have a whole 
trainload of groups out here in this country that are going to 
ask for the same consideration and the same recognition, and I 
do not believe sincerely that that is what this Congress should 
be about.
    Particularly, the Indians of this country have been never 
given the proper respect for what they did for this country. We 
have a process to give them that respect. If Mr. Shuler's bill 
will help move some of the groups like the Lumbees who for 
years have been feeling like they have not gotten that 
recognition, to move it forward then I think maybe I would hope 
the Committee would look at both bills before you would just 
pass H.R. 31 and move it through the process without having the 
proper review by the Bureau of Indian Affairs.
    So with that, Mr. Chairman, I know the Committee will do 
what it thinks right, and I will agree with that whatever the 
Committee decides, but please be careful on this issue. It 
really does need careful, careful study and consideration. And 
look seriously at Mr. Shuler's bill, if the Committee would do 
so.
    I yield back the balance of my time.
    [The prepared statement of Mr. Jones follows:]

 Statement of The Honorable Walter Jones, a Representative in Congress 
                    from the State of North Carolina

    Chairman/Ranking Member, thank you for the opportunity to testify 
today. As a former member of this Committee, I have long been 
interested in the issue of federal acknowledgment, and I believe this 
is an important matter for the Committee's consideration.
    I do not believe, however, that Congress should disregard the 
federal acknowledgment process at the Department of the Interior. We 
may not like its results or its inefficiencies, but it is still 
necessary to help answer the difficult questions about the merits of 
federal acknowledgment. Yes, Congress has acknowledged tribes in the 
past. But since 1978, the federal government has had a process in place 
to answer these difficult questions.
    To this end, I have cosponsored a bill (H.R. 839) with my fellow 
North Carolinian Heath Shuler that would address this issue as it 
relates to Indian groups whose access to the process has been limited 
by the 1956 Lumbee Act. I believe Congress should lift that restriction 
and let all those groups complete the process, even on an expedited 
basis. Under the Shuler bill, the Lumbee are one of the groups that 
would be free to access the process once again.
    Furthermore, I would argue that Congress is not well equipped to 
deal with the complex questions inherent in federal recognition. It's 
not like other situations in the past where there is absolutely no 
doubt about the identity of the tribe because of treaty relations with 
the United States. In this case, the Lumbees have never had such a 
relationship.
    Mr. Chairman, to the extent that the recognition process needs to 
be reformed, then let us focus on reforming that process. But let us 
not let politics reign and throw merit out the window by pursuing 
individual recognition bills.
    Thank you.
                                 ______
                                 
    The Chairman. The Chair wishes to thank our colleagues for 
being with us this morning.
    Let me say first to the opponents of this legislation, and 
it is no secret. I am on record numerous times as stating the 
process of recognition is broken. There is a need to examine it 
very closely, and in this regard the Chair will work with those 
that have introduced legislation such as Mr. Shuler, and 
certainly Mr. Faleomavaega on our Committee is deeply involved 
in this whole recognition process, as is Mr. Kildee.
    We will continue to examine this process. It is hopeful we 
can fix it. I hope that this Committee under this Chairman will 
have it fixed for this whole process, but we know that it has 
been circumvented, if you will, or that there has been such 
recognition bills that have occurred in the past. I had the 
whole list here, but I am not going to enumerate those 
recognitions that have been granted by the Congress, at the 
same time recognizing that the process is broken.
    So I just have one quick question for Heath, and I am sure 
you have been asked this before and it is no surprise to you, 
but the Eastern Band of Cherokee Indians in your district. Let 
me ask you. How were they recognized? Through what process?
    Mr. Shuler. I don't recall how they were recognized. It was 
obviously well before my time.
    The Chairman. Well, perhaps the Chair can help you. By 
Congress through legislation in 1868.
    Mr. Shuler. You know, I do look at it like this. I mean, 
where does the Trail of Tears begin? I mean, it begins there, 
not on the eastern part of North Carolina.
    The Chairman. The gentleman from Washington, Mr. Hastings?
    [No response.]
    The Chairman. The gentleman from Michigan, Mr. Kildee?

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. I apologize for being late since these bills 
are of great interest to me, but I will submit a statement and 
make remarks just at this point.
    I passionately support the recognition of the sovereignty 
of the Lumbee Tribe and the Virginia tribes. I think this is a 
question of justice. I do it out of a sense of justice. I have 
studied this now for 33 years, and this Congress has been 
studying this for 33 years.
    We are told leave this to the bureaucrats. They are the 
experts on this. Well, I carry this with me wherever I go. It 
says here the Congress shall have power to regulate commerce 
with foreign nations and among the several states and with the 
Indian tribes. Congress, not faceless bureaucrats. Congress 
shall have the power.
    Let me tell you. When this Constitution was written one 
could see openly the culture and the history of both these 
tribes, the Lumbee and the Virginia tribes, and I suggest that 
we follow the Constitution, which gives Congress the power, and 
not ever defer our power to bureaucrats. I yield back the 
balance of my time.
    [The prepared statement of Mr. Kildee follows:]

Statement of The Honorable Dale E. Kildee, a Representative in Congress 
          from the State of Michigan, on H.R. 31 and H.R. 1385

    Mr. Chairman, thank you for holding this hearing today on H.R. 31, 
the Lumbee Recognition Act and H.R. 1385, the Thomasina C. Jordan 
Indian Tribes of Virginia Federal Recognition Act of 2009.
    In my forty-five years of involvement in Indian affairs, I have 
observed that few issues generate as much passion and conviction as 
Federal recognition. I am sure that today's hearing will demonstrate 
this point.
    About fifteen years ago, I sponsored legislation that reaffirmed 
Federal recognition for three tribes in Michigan (Little Traverse, 
Little River, Pokagon) each having signed treaties with the United 
States and each having their unique Federal status unilaterlly stripped 
away from them by the Federal Government. It took a long time and 
effort, but I was able to get those measures passed as law.
    I'm not sure that my legislation would have passed in today's 
environment where so many of our colleagues express concerns about 
Indian gaming everytime we consider legislation that relates to Federal 
recognition, tribal land or economic development.
    Nevertheless, Congress certainly has the authority to pass Federal 
recognition legislation and has done so many times. In my view, 
Congress has sufficient experience with these bills in general and 
knowledge of the Lumbee and Virginia Tribes in particular to support 
final passage of both measures.
    I strongly support both bills. While I respect my colleagues and 
friends whose positions are contrary to mine, I believe that these 
bills will bring justice long denied to the Lumbee and Virginia Tribes.
    I look forward to hearing the testimony from our witnesses today.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you, Dale.
    The gentleman from American Samoa, Mr. Faleomavaega?
    Mr. Faleomavaega. Mr. Chairman, just for the record I do 
want to associate myself with the statements that have been 
made earlier by Governor Kaine and our colleague, Congressman 
Moran, in full support of the proposed legislation to recognize 
the tribes from the State of Virginia.
    I also want to note, Mr. Chairman, that I have the utmost 
respect for my colleagues, Congressman McHenry, Congressman 
Shuler and Congressman Jones, whom I have known for many years.
    I never questioned the sincerity in their intention in 
wanting to do this the right way, understanding also that some 
may have said that this is politics, but I want to commend my 
good friend, Congressman McIntyre, for his tireless efforts for 
all these years in trying to right the wrongs that we have 
done.
    Tremendous injustice has been done against the Lumbee 
Indians. I think 110 years is long enough for any tribe to live 
in maligned, even streaks of racism, and the history that they 
have tried earnestly to seek recognition.
    If you want to talk about history, the 1956 Act definitely 
did recognize the Lumbee Indians as a Federally recognized 
tribe, but guess the reason why Congress did not give full 
recognition?
    The Lumbee Indians is the largest tribe east of the 
Mississippi, and at that time the Congress said well, we just 
don't have enough funds to go around, so therefore while we 
recognize the Lumbees as a tribe at this point in time, no, for 
some quirk or whatever happened that transpired in that period 
of time, they were never given that proper recognition.
    I want to say again we had the gentleman, the bureaucrat, 
the expert in this very Committee testify before this Committee 
who wrote the Federal acknowledgement process regulation, if 
you will, who developed the seven criteria points that the 
tribes have had to go through before they could be given 
recognition.
    I will get the exact words that he had spoken before this 
Committee, Mr. Chairman. He said if I were going to go through 
this process, even I would have objected to the seven criteria 
that I wrote in establishing this Federal recognition process.
    I might also add with tremendous respect to my colleagues 
who do not support the Lumbee bill that is now before us, and I 
want to note to my good friend, Congressman Jones, yes, we are 
being very, very careful. In the 20 years that I have served as 
a Member of this Committee, Mr. Chairman, I can't think of a 
tribe that I have spent more time reading about its history, 
reading through the congressional proceedings, reading about 
the contradictory statements that have been made by the so-
called experts, the bureaucrats.
    Even they don't agree among themselves and to the point of 
saying genealogically or historically. The problems that even 
the fact organization or this little bureau that is within the 
Department of the Interior with the limited resources that they 
have, some of these tribes have had to go through 15, 20 years 
because they could not meet the seven criteria.
    As I recall, the Lumbee Indians have had to expend over 
$500,000 to try to go through the process, so I want to say 
with tremendous respect to my good friends, Mr. McHenry and Mr. 
Shuler and Mr. Jones, I believe 110 years is long enough for 
these people who have had to endure the pain and the suffering 
of being maligned and to suggest that they are not Indians. I 
don't need to go through the fact that they also bleed and died 
for our nation's defense, and I don't think there is any 
question of that.
    To my good friend, the Co-Chair of our American Indian 
Congressional Caucus, Mr. Kildee, and Mr. Cole I am sure if he 
was here he would have spoken. You know, we had the Ranking 
Member for years, the gentleman from Alaska, Mr. Young, 
supporting this legislation. I can't think of a better person.
    This is not a Republican or a Democratic bill, by the way. 
This is a bill for America, for these fellow Americans who are 
just simply saying give us justice. Give us fairness. We should 
support this legislation, Mr. Chairman.
    I yield back.
    The Chairman. The gentlelady from Guam, Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman. I really don't have 
a question. Much of this is new to me, but I am learning a 
great deal.
    I am a sponsor, and I support both bills, the Lumbee Tribe 
and the Virginia tribes. After hearing the comments of our 
esteemed Member, Mr. Kildee, that the responsibility of 
recognizing these tribes lies with Congress, I can't imagine 
that we would do anything else but to go forward and take the 
responsibility upon ourselves.
    I don't understand why it has taken so long. Certainly a 
hundred years or how many years here we have talked about what 
is the biggest obstacle that these tribes have in being 
recognized? Can anybody give me that information?
    Mr. McIntyre. I would say that to the extent that my 
colleague, Mr. McHenry, although he is on the opposite side of 
the bill, that unfortunately politics was the reason in the 
past that this has not happened. Whatever those politics may 
be, and that can be subject to a much lengthier discussion, the 
point is today it is time to put those kind of political 
bickerings aside.
    When you have folks as wide and varied as Mr. Young, who is 
the former Chairman and now Ranking Member, as Mr. Rahall, as 
the two Republican Senators that supported this that North 
Carolina had last session, Mrs. Dole, who formerly served, 
realized the injustice that had occurred when Senator Helms 
blocked this bill.
    If we want to be blunt politically, he blocked it all 
through his tenure, even though it passed the House twice under 
my predecessor. Ms. Dole recognized the injustice. The first 
bill that she dropped as United States Senator was the Lumbee 
bill that paralleled the same bill that I had in the House, and 
she stood on a stage with me in Lumberton, my hometown, in 
front of nearly 800 folks from our county, mainly Lumbees, but 
we had African-Americans and whites there too, who stood there 
and cheered that finally the politics in this was over. They 
could see a senator and a congressman, a Republican and a 
Democrat, stand together to say it is time for this justice to 
quit being delayed.
    So I would hope that those kinds of politics are behind us 
now. We have already heard that the Lumbees have been examined 
in the process 11 times. They have done everything they 
physically and possibly could, as well as historically and 
research, and now they have the opportunity to go forward. The 
only thing that remains the barrier is an action by Congress, 
which the Solicitor General has already said is what is 
required.
    Just as Mr. Kildee pointed out, it is our constitutional 
duty. It is time to get on with it. Thank you.
    Ms. Bordallo. I thank the gentleman for answering my 
question.
    Mr. Chairman, if politics is the root of all of this, then 
I say we should go forward and take care of--yes?
    Mr. Faleomavaega. Will the gentlelady yield?
    Ms. Bordallo. Yes, I will.
    Mr. Faleomavaega. I will submit to the gentlelady that just 
as we have heard from Congressman Moran and Governor Kaine, 
that if these Indian tribes in Virginia had to go through the 
seven criteria of the Federal acknowledgement process they 
would have failed miserably because all the records have been 
expunged based on this racial legislation that Virginia had to 
abide by to say that if you are of color--not necessarily being 
black. Any person of color is discriminated against in the 
worst way.
    This is part of this big debate that went over. I think at 
that time it was known as craniology. They even determined by 
race that your brain determines if you were the most 
intelligent species there is, and it got to the point where 
this is where the Aryanism that Hitler had propounded about the 
white supremacy race and that everybody else of color were less 
human, if you will.
    So all this is part of what happened here, and the Indians 
are caught in between in this whole debate about making 
examinations of you physically.
    I would say to the gentlelady if the seven criteria is what 
we are insisting upon, these Indian tribes of Virginia will 
never see the light of ever being recognized because they would 
fail automatically, and I thank the gentlelady.
    Ms. Bordallo. I thank the gentleman.
    Mr. Chairman, I say we go forward. We have been assured by 
the President that he supports these bills, so I don't think we 
just wasted too much time, and we definitely should go forward. 
Thank you.
    The Chairman. The gentlelady from the Virgin Islands, Dr. 
Christensen?
    Mrs. Christensen. Thank you, Mr. Chair. I don't have any 
questions.
    I want to second that we should move forward with this. I 
think it is a travesty that we are here meeting again on this 
issue, and I look forward. I support both bills. I think with 
the support of the President of the United States also on 
record for the recognition of these two tribes I think they 
have waited too long, and I hope that we can get this done.
    I know the House can get it done, and I hope the Senate 
will follow and we can have these tribes finally recognized.
    The Chairman. The gentleman from Maryland, Mr. Kratovil?
    Mr. Kratovil. Thank you, Mr. Chairman. I do have a 
question.
    In terms of official recognition being granted to these 
tribes, what percentage have been recognized through the 
administrative process if you will, Heath, that you suggest we 
should follow, and what percentage has been granted by 
Congress?
    Mr. Shuler. Well, obviously in 1978----
    Mr. Kratovil. It doesn't have to be addressed. It is not 
directly addressed to Heath. Anybody.
    Mr. Shuler. Right. 1978 is when the Department of the 
Interior started the acknowledgement process, so we have 
through the Office of Federal Acknowledgement since 1978, and 
that is when obviously some of those changes we are talking 
about with the teeth and other things were eliminated in 1978.
    Mr. Kratovil. OK. Anybody else, too. When was the last time 
we had one that was recognized through this process that many 
of you are suggesting is broken?
    Mr. Shuler. You would have to ask the staff that.
    Mr. Kratovil. Anybody know?
    Mr. McIntyre. There have only been a dozen--around about a 
dozen--tribes or maybe 13 tribes. We will be glad to let our 
experts, who are in the next panel, answer that more directly, 
Frank, but about a dozen tribes have been recognized through 
the BIA process.
    There have been 562 tribes recognized overall either by 
Congress or through other special legislation or special 
legislative administrative action.
    Mr. Kratovil. OK.
    Mr. Shuler. The Lumbees have gone through that recognition 
process, and then right before the end they have withdrawn I 
think two times.
    Mr. Kratovil. OK. And when was the last time there was 
recognition granted through the official administrative 
process?
    Mr. Shuler. You will have to ask the staff that.
    Mr. Hastings. Would the gentleman yield?
    Mr. Kratovil. Yes.
    Mr. Hastings. Since this process started there have been 16 
tribes that have been recognized. The last one was in February 
of 2007. So there have been 16 since the process started.
    Mr. Kratovil. And how many have been seeking it?
    Mr. Hastings. There is a whole number right now that are on 
the queue, and I think there is something like nine tribes that 
are all ready. All the criteria has been satisfied.
    Mr. Kratovil. I will yield.
    Mr. Hastings. I thank the gentleman for yielding.
    Mr. Kratovil. Thank you.
    Mr. Faleomavaega. I thank the gentleman for yielding. One 
of the problems that we faced in the acknowledgement process is 
the poor tribes have to come up with the money to pay for the 
research and to go through the whole--just as I have said, a 
good example is the Lumbees that have had to bear a tremendous 
financial burden.
    I will say to the gentleman many of these tribes will not 
be able to meet that simply because financially they are unable 
to provide the funding to do the research and stuff.
    Mr. Kratovil. But it is fair to say that the vast majority 
have been recognized through some other form other than this 
process? Substantially more?
    Mr. McIntyre. That is abundantly correct, yes, and we will 
have an expert from the Administration that can go into that 
detail. Not since 1978 though.
    Mr. Kratovil. OK.
    Mr. McHenry. And obviously in terms of the length of our 
country, this recognition process established by Congress is 
shorter in duration. Therefore, you can understand that in a 
200 year history and we have a roughly 30 year process 
established, obviously the numbers are larger.
    But the point that I think Congressman Shuler and I, as 
well as Congressman Jones, are making is that we have an 
established process, and what we would like to do is reform 
that process and make it work. Otherwise it is largely 
irrelevant. Congress is picking, based on obviously our notion 
of genealogy, which let us be honest. It is more political than 
it is historical, and so that is what we are advocating.
    Congressman Shuler's legislation would in fact put the 
Lumbee at the front of the line, let them go through the 
process and have a timeframe under which they could get an 
answer. I think that is really what this is all about.
    Mr. McIntyre. There is no sense at all that the Lumbees are 
jumping in the front of the line. They have waited over a 
hundred years.
    Congress did act in 1956 by recognizing the fact that they 
were a tribe that should be recognized by their name, but did 
not complete the process. The reason we are here is because the 
Solicitor General has said Congress has got to act.
    And why would we be reforming a process until it is broken? 
My colleagues have said about well, the process needs to be 
reformed. It needs to be improved. OK. Yes, it does. Otherwise 
you wouldn't have all these tribes that have had to wait for 
recognition. You wouldn't have the situation of tribes having 
to spend all this money and then wait years and years and 
years.
    Again, I know the Administration will speak to the 
particular situation involving it, but the only other two 
tribes that were like the Lumbees Congress has corrected. Both 
these tribes, the Pascua Yaqui Tribe of Arizona and the Ysleta 
del Sur, which were known as the Tiwas of Texas, were in the 
same limbo where Congress had acted by recognizing them in 
name, but never completed the process. Congress went back and 
corrected it.
    So the Lumbee Tribe, 57,000, are now the only tribe in 
America in this situation. This is not going to open a 
floodgate. It is not going to open the doors. No other tribe is 
in this situation in America, and no other tribe has a ruling 
that the Solicitor General has made saying you have to go back 
and correct it, Congress, if you are going to grant full 
recognition.
    So while we can hear all the concerns, the fact of the 
matter is in this case this only applies to the Lumbees, and 
they are the only tribe being discriminated against and not 
being allowed to go forward, and only Congress can fulfill that 
constitutional responsibility.
    Mr. Kratovil. Thank you.
    Mr. Faleomavaega. Will the gentleman yield?
    The Chairman. The Chair will respond to one of the 
questions the gentleman from Maryland asked, a very good 
question as well, and that is the Committee does have a list of 
some 20 tribes that have been recognized since 1978 since the 
administrative process was set in place by legislation.
    The Chair will both give this to the gentleman from 
Maryland as well as provide it for the record.

    [The list of tribes follows:]
    [GRAPHIC] [TIFF OMITTED] 48110.002
    
    .epsMr. Kratovil. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Just one quick thought too?
    The Chairman. The Chair will recognize the gentleman from 
American Samoa.
    Mr. Faleomavaega. OK. Just to note also the fact that what 
happened was that Congress punted. In its primary 
responsibility to give recognition to the tribes, by implied 
consent, it never bothered to do anything other than to allow 
the bureaucracy to develop its Federal acknowledgement process.
    This is not a congressional process. It is a process that 
came about by regulation, and we have just kind of sat by and 
just kind of allowed this regulatory process to continue. How 
bad it is, I think we are still trying to make improvements by 
making it as a statutory mandate by Congress, but at this point 
in time Congress has not acted so this is the reason why we 
continue to flip flop like this.
    But it does not in any way under the Constitution or by any 
Federal statute that prevents the Congress from enacting a 
recognition Act just as a good example of what is now before 
us. I thank the gentleman.
    The Chairman. The Chair wishes to thank our colleagues for 
their time and testimony this morning, and you are dismissed.
    Our next panel is composed of one individual, Mr. George 
Skibine, the Acting Deputy Associate Secretary for Policy & 
Economic Development, Department of the Interior, Bureau of 
Indian Affairs, who will be testifying on both of the pending 
bills.
    Mr. Skibine, did I pronounce your name right?
    Mr. Skibine. Yes, Mr. Chairman.
    The Chairman. Thank you for being with us today. We do have 
your prepared testimony, and it will be made part of the record 
as if actually read. You may proceed as you desire.

  STATEMENT OF GEORGE SKIBINE, DEPUTY ASSISTANT SECRETARY FOR 
  POLICY & ECONOMIC DEVELOPMENT, DEPARTMENT OF THE INTERIOR, 
BUREAU OF INDIAN AFFAIRS; ACCOMPANIED BY LEE FLEMING, DIRECTOR 
            OF THE OFFICE OF FEDERAL ACKNOWLEDGEMENT

    Mr. Skibine. Thank you very much. My name is George 
Skibine. I am currently not what it says on the card here. I am 
not the Acting Deputy Associate Secretary.
    I am the Deputy Assistant Secretary for Policy & Economic 
Development for Indian Affairs at the Department of the 
Interior. I have assumed the responsibilities of the Assistant 
Secretary since May of last year. Accompanying me today is Mr. 
Lee Fleming.
    The Chairman. Excuse me. The Chair will stand corrected 
then, and the word Acting will be struck from everywhere in the 
record.
    Mr. Skibine. OK. All right.
    The Chairman. Thank you.
    Mr. Skibine. Accompanying me today is Mr. Lee Fleming, who 
has been suffering for the past 10 months under my 
dictatorship. He is the long-serving Director of the Office of 
Federal Acknowledgement. We certainly hope that the Obama 
Administration will have a permanent Assistant Secretary for 
Indian Affairs very soon.
    I am here today to provide the Administration's testimony 
on H.R. 31, the Lumbee Recognition Act, and H.R. 1385, the 
Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2009. My statement is in the record so I am 
not going to repeat. I am going to just make a few statements.
    As a general proposition, the Department prefers that 
groups seeking Federal recognition petition the Department 
under the process in 25 C.F.R. Part 83. However, we recognize 
that there are rare circumstances when Congress should 
intervene and recognize a troubled group, and the case of the 
Lumbee Indians is one such case. As a result, we support H.R. 
31 with amendments as discussed in my written statement.
    I will mention a few of these amendments that we feel are 
necessary. First is under H.R. 31 any fee land that the Lumbee 
seeks to convey to the United States to be held in trust that 
would be an on-reservation trust acquisition if the land is 
located within Robeson County, North Carolina.
    The current language in the bill implies that the Secretary 
has the authority to take land into trust for the tribe. 
However, the bill does not expressly provide that authority, 
and we think that Section 4 of the bill should be amended to 
clarify that Congress intends to delegate authority to the 
Secretary to acquire land in trust for the Lumbee Indians, and 
we believe that provision is necessary because of the recent 
Supreme Court decision in Carcieri v. Salazar, which 
potentially calls into question the ability of the Secretary to 
take land into trust for tribes that are recognized after 1934.
    So we feel that many of the Congress' restoration 
legislation that I have seen has included provisions 
specifically authorizing and sometimes even requiring that land 
be taken into trust within a specific geographic area, and for 
this tribe essentially that means that they are never going to 
have a problem with the Carcieri decision, and to make sure 
that that doesn't happen here we feel that that should be 
clarified in the bill.
    The other issues that I wanted to briefly mention is that 
the bill does grant jurisdiction to the state in criminal and 
civil matters, but it does not address whether the tribe would 
continue to have civil regulatory jurisdiction over its members 
on its territory.
    We believe that the tribe continues to have that 
jurisdiction under the bill, but I think it would be good that 
at least there was some clarification that that is the case so 
that the tribe continues to enjoy the attributes of sovereignty 
that all recognized tribes have so far.
    Right now in the bill the Department has two years to 
essentially verify the role of the tribe, and we would like to 
talk to the Committee about that because it is not exactly 
clear to us what it is that we are supposed to be verifying and 
because we do not have a membership roll currently for the 
tribe potentially there are a lot of members. This may take 
more than two years for us to do so, depending on what we are 
required to do, so the timeframe here may cause a problem for 
us.
    With respect to H.R. 1385, we neither support nor oppose 
the bill. We are staying neutral in a sense because we do not 
have sufficient information to determine why the groups cannot 
go through the Part 83 process that we have.
    We have heard testimony today about that, but in fact I 
think these groups have furnished to us their information that 
essentially would permit us to say with certainty that there 
are these issues that exist with respect to the genealogy, 
another issue that it would have to go through under the Part 
83, so for this reason we are unable to make that 
determination.
    We recognize that Congress, as has been stated by Mr. 
Kildee, has certainly the authority to recognize tribes under 
the Constitution.
    This concludes my opening statement. I would be pleased to 
answer questions.
    [The prepared statement of Mr. Skibine follows:]

Statement of George Skibine, Deputy Assistant Secretary for Policy and 
    Economic Development for Indian Affairs, U.S. Department of the 
                   Interior, on H.R. 31 and H.R. 1385

    Good afternoon, Mr. Chairman, Mr. Ranking Member, and Members of 
the Committee. My name is George Skibine. I am currently the Deputy 
Assistant Secretary for Policy and Economic Development for Indian 
Affairs at the Department of the Interior. I am here today to provide 
the Administration's testimony on H.R. 31, the ``Lumbee Recognition 
Act'' and H.R. 1385, the ``Thomasina E. Jordan Indian Tribes of 
Virginia Federal Recognition Act of 2009.''
    The acknowledgment of the continued existence of another sovereign 
is one of the most solemn and important responsibilities delegated to 
the Secretary of the Interior. Federal acknowledgment enables Indian 
tribes to participate in Federal programs and establishes a government-
to-government relationship between the United States and the Indian 
tribe, and has considerable social and economic impact on the 
petitioning group, its neighbors, and Federal, state, and local 
governments. Acknowledgment carries with it certain immunities and 
privileges, including governmental activities exempt from state and 
local jurisdictions and the ability of newly acknowledged Indian tribes 
to undertake certain economic opportunities.
    We recognize that under the United States Constitution, Congress 
has the authority to recognize a ``distinctly Indian community'' as an 
Indian tribe. But along with that authority, it is important that all 
parties have the opportunity to review all the information available 
before recognition is granted. That is why we support the Department's 
administrative recognition process that requires groups to go through 
the Federal acknowledgment process because it provides a deliberative 
uniform mechanism to review and consider groups seeking Indian tribal 
status.
    To be granted Federal acknowledgment under the Department's Part 83 
regulations, petitioning groups must demonstrate that they meet each of 
seven mandatory criteria. The petitioner must:
    (1)  demonstrate that it has been identified as an American Indian 
entity on a substantially continuous basis since 1900;
    (2)  show that a predominant portion of the petitioning group 
comprises a distinct community and has existed as a community from 
historical times until the present;
    (3)  demonstrate that it has maintained political influence or 
authority over its members as an autonomous entity from historical 
times until the present;
    (4)  provide a copy of the group's present governing document 
including its membership criteria;
    (5)  demonstrate that its membership consists of individuals who 
descend from an historical Indian tribe or from historical Indian 
tribes that combined and functioned as a single autonomous political 
entity and provide a current membership list;
    (6)  show that the membership of the petitioning group is composed 
principally of persons who are not members of any acknowledged North 
American Indian tribe; and
    (7)  demonstrate that neither the petitioner nor its members are 
the subject of congressional legislation that has expressly terminated 
or forbidden the Federal relationship.
    A criterion shall be considered met if the available evidence 
establishes a reasonable likelihood of the validity of the facts 
relating to that criterion. A petitioner must satisfy all seven of the 
mandatory criteria in order for the Department to acknowledge the 
continued tribal existence of a group as an Indian tribe under the Part 
83 regulatory process.
H.R. 31, the ``Lumbee Recognition Act''
    In 1956, Congress designated Indians then ``residing in Robeson and 
adjoining counties of North Carolina'' as the ``Lumbee Indians of North 
Carolina'' in the Act of June 7, 1956 (70 Stat. 254). Congress went on 
to note the following:
        Nothing in this Act shall make such Indians eligible for any 
        services performed by the United States for Indians because of 
        their status as Indians, and none of the statutes of the United 
        States which affect Indians because of their status as Indians 
        shall be applicable to the Lumbee Indians.
    In 1989, the Department's Office of the Solicitor advised that the 
1956 Act forbade the federal relationship within the meaning of the 
acknowledgment regulations, and that the Lumbee Indians were therefore 
precluded from consideration for federal acknowledgment under the 
administrative process. Because of the 1956 Act, the Lumbee Indians 
have been deprived of the ability to seek Federal acknowledgment 
through administrative means.
    There are rare circumstances when Congress should intervene and 
recognize a tribal group, and the case of the Lumbee Indians is one 
such rare case. We support H.R. 31 with amendments as discussed below.
    H.R. 31 extends Federal recognition to the ``Lumbee Tribe of North 
Carolina'' and permits any other group of Indians in Robeson and 
adjoining counties whose members are not enrolled in the Lumbee Tribe 
to petition under the Department's acknowledgment regulations. The 
Office of Federal Acknowledgment has received letters of intent to 
petition from six groups that may overlap with each other. In addition, 
we have identified over 80 names of groups that derive from these 
counties and are affected by the 1956 Lumbee Act. Some of these groups 
claim to be the ``Lumbee Tribe''. Therefore, we recommend Congress 
clarify the Lumbee group that would be granted recognition under this 
bill based on the group's current governing document and its current 
membership list. Not doing so could potentially expose the Federal 
government to unwarranted lawsuits and possibly delay the recognition 
process for the other groups of Indians in Robeson and adjoining 
counties not enrolled in the Lumbee Tribe.
    Under H.R. 31, any fee land that the Lumbee seeks to convey to the 
United States to be held in trust shall be considered an ``on-
reservation'' trust acquisition if the land is located within Robeson 
County, North Carolina. The current language in the bill implies that 
the Secretary has the authority to take land into trust; however, the 
bill does not expressly provide that authority. Section 4 of the bill 
should be amended to clarify that Congress intends to delegate 
authority to the Secretary to acquire land in trust for the Lumbee 
Indians.
    In addition, the bill would prohibit the Lumbee Indians from 
conducting gaming activities under any federal law, including the 
Indian Gaming Regulatory Act or its corresponding regulations.
    Under H.R. 31, the State of North Carolina has jurisdiction over 
criminal and civil offenses and actions on lands within North Carolina 
owned by or held in trust for the Lumbee Tribe or ``any dependent 
Indian community of the Lumbee Tribe.'' The legislation, however, does 
not address the State's civil regulatory jurisdiction, which includes 
jurisdiction over zoning, and environmental regulations. Additionally, 
the Secretary of the Interior is authorized to accept a transfer of 
jurisdiction over the Lumbee from the State of North Carolina, after 
consulting with the Attorney General of the United States and pursuant 
to an agreement between the Lumbee and the State of North Carolina. 
Such transfer may not take effect until two years after the effective 
date of such agreement.
    We are concerned with the provision requiring the Secretary, within 
two years, to verify the tribal membership and then to develop a 
determination of needs and budget to provide Federal services to the 
Lumbee group's eligible members. Under the provisions of this bill, the 
``Lumbee Tribe'', which the Department understands includes over 40,000 
members, would be eligible for benefits, privileges and immunities that 
are similar to those possessed by other Federally recognized Indian 
tribes. In our experience verifying a tribal roll is an extremely 
involved and complex undertaking that can take several years to resolve 
with much smaller tribes. While we believe there are approximately 
40,000 members, we do not currently have access to the Lumbee's 
membership list and thus do not have the appropriate data to estimate 
the time to verify them nor do we know how many Lumbee members may be 
eligible to participate in Federal needs based programs. Moreover, H.R. 
31 is silent as to the meaning of verification for inclusion on the 
Lumbee group's membership list roll.
    In addition, section 3 may raise a problem by purporting to require 
the Secretary of the Interior and the Secretary of Health and Human 
Services to submit to the Congress a written statement of a 
determination of needs and budget for the Lumbee Tribe for programs, 
services and benefits to the Lumbee Tribe. The appropriate means for 
communicating to Congress a determination of needs and budget for 
programs administered by the Department of the Interior and the 
Department of Health and Human Services is the President's Budget.
    Should Congress choose not to enact H.R. 31, the Department feels 
that at a minimum, Congress should amend the 1956 Act to afford the 
Lumbee Indians and all groups ``residing in Robeson and adjoining 
counties of North Carolina'' the opportunity to petition for Federal 
acknowledgment as an Indian tribe under the Department's regulations.
H.R. 1385: ``Thomasina E. Jordan Indian Tribes of Virginia Federal 
        Recognition Act of 2009.''
    H.R. 1385 would provide Federal recognition as Indian tribes to six 
Virginia groups: the Chickahominy Indian Tribe, the Chickahominy Indian 
Tribe--Eastern Division, the Upper Mattaponi Tribe, the Rappahannock 
Tribe, Inc., the Monacan Indian Nation, and the Nansemond Indian Tribe, 
all of which are currently petitioners in the Department's Federal 
acknowledgment process. Under 25 CFR Part 83, these six groups have 
submitted letters of intent and partial documentation to petition for 
Federal acknowledgment as Indian tribes. Some of these groups are 
awaiting technical assistance reviews under the Department's 
acknowledgment regulations. The purpose of the technical assistance 
reviews is to provide the groups with opportunities to supplement their 
petitions due to obvious deficiencies and significant omissions. To 
date, none of these petitioning groups have submitted completed 
documented petitions to demonstrate their ability to meet all seven 
mandatory criteria.
    The Department acknowledges the authority of Congress to recognize 
Indian tribes, but again, in most circumstances we prefer the 
uniformity and certainty provided by the existing administrative 
process.
    This concludes my prepared statement. I will be happy to answer any 
questions the Committee may have.
                                 ______
                                 
    Mr. Skibine. I have asked Mr. Fleming--well, he is gone 
now--to provide if he has any answers on statistics that were 
required by the gentleman from Maryland.
    The Chairman. Go ahead.
    Mr. Fleming. OK.
    The Chairman. State your name, please, for the record.
    Mr. Fleming. Lee Fleming.
    The Chairman. Your name and position?
    Mr. Fleming. Director of the Office of Federal 
Acknowledgement.
    Some of the questions were involved with the number of 
decisions that have been resolved under our acknowledgement 
process. We have on our website the status summary of 
acknowledgement cases, and the Department has resolved 47 
petitioning groups in their acknowledgement process.
    Forty-four went specifically through 25 C.F.R. Part 83, 
and, out of the 44, 16 were acknowledged and 28 were denied. 
One was clarified by legislation, and two were clarified by 
other means.
    Of the petitioners that have been resolved by Congress, two 
were restoration bills and two were recognition bills, so that 
is nine specifically of petitioners that have been resolved, 
and then there are 10 petitioning groups that have been 
resolved by other means, so when you add 47 by the Department, 
nine by Congress and 10 by other means of the petitioning 
groups, 66 petitions have been resolved by the Department or by 
Congress or by other means, and this is all on our website.
    The Chairman. Thank you very much for supplying that 
information. We appreciate it.
    Let me first ask unanimous consent that our colleague from 
North Carolina, Mr. McIntyre, be allowed to be a part of the 
podium and ask questions.
    [No response.]
    The Chairman. Without objection. We welcome you.
    Mr. Skibine, let me ask you. I understand you are a former 
director at Office of Indian Gaming.
    Mr. Skibine. That is correct.
    The Chairman. Then having served in that position, there is 
probably no one better to answer this question that I have.
    Does the gaming language in H.R. 31, the Lumbee bill, or 
H.R. 1385, the Virginia tribes bill, allow any of these tribes 
to open a casino?
    Mr. Skibine. In my opinion, the answer to that is no. We 
believe that the language, which is similar in all the bills, 
is ironclad in terms of preventing tribes from gaming, so we 
certainly agree with Congressman Moran, who testified before, 
that gaming is not going to be an option for the groups under 
consideration.
    The Chairman. Even if the Governor and/or the legislature 
of the affected states were to approve such?
    Mr. Skibine. That is correct.
    The Chairman. Thank you. Your testimony recommends 
amendments to the Lumbee Recognition Act, and you refer to them 
in your oral testimony as well, and we do look forward to 
working with you to resolve these issues. I am sure you will 
work with us on that as well.
    Mr. Skibine. Absolutely.
    The Chairman. The Chair recognizes the Ranking Member.
    Mr. Hastings. Thank you, Mr. Chairman, and welcome, Mr. 
Skibine, to the hearing. Thank you very much for your 
testimony.
    In 2007, somebody that has a similar position with you, 
Assistant Secretary for Indian Affairs, testified here on what 
is essentially the same bill or a similar bill regarding the 
Lumbees two years ago, and they testified more on the process, 
saying that the Lumbees should go through the regular process 
and therefore did not endorse the bill.
    Now, your testimony was pretty straightforward. You 
endorsed the bill.
    Mr. Skibine. That is correct.
    Mr. Hastings. OK. Given that there has been no Assistant 
Secretary of Indian Affairs that have even been nominated let 
alone confirmed, who made that decision then that the 
Department should endorse this bill?
    Mr. Skibine. The decision was made by the political 
leadership at Interior.
    Mr. Hastings. And who is that?
    Mr. Skibine. Well, I am not sure. We propose testimony, and 
then it is cleared through the Department. It is then cleared 
by the Office of Management and Budget. So involved in our 
process is the Deputy Chief of Staff, Renee Stone, and the 
Associate Deputy Secretary.
    Mr. Hastings. Well, let me ask you then. Was Secretary 
Salazar involved in this decision?
    Mr. Skibine. That I do not know because I think----
    Mr. Hastings. You don't know.
    Mr. Skibine.--that they probably talked to the Secretary, 
but I was not involved in those discussions.
    Mr. Hastings. OK. So what I have heard you say so far is 
you don't know if Secretary Salazar has endorsed this, but it 
was a political decision, and that decision came out of OMB?
    Mr. Skibine. Well, for every bill OMB needs to clear the 
testimony so that is what happened here.
    Mr. Hastings. So your interpretation is that the 
endorsement of this bill, contrary to what was the position of 
Interior two years ago, was a political decision made at OMB?
    Mr. Skibine. No. The Department. It was the Department's 
position, and OMB essentially has to look----
    Mr. Hastings. OK. All right. Now I am getting it. So the 
Department, your Department, said that you were going to 
endorse this legislation?
    Mr. Skibine. That is correct.
    Mr. Hastings. Who is that?
    Mr. Skibine. In the Department?
    Mr. Hastings. Yes.
    Mr. Skibine. Well, it is, as I said, the political 
leadership.
    Mr. Hastings. But I am asking. So who is the person?
    Mr. Skibine. Well, as I was beginning to say, we work with 
the Deputy Chief of Staff.
    Mr. Hastings. Who is that?
    Mr. Skibine. Renee Stone.
    Mr. Hastings. So Renee Stone is the Deputy Chief of Staff?
    Mr. Skibine. For the Secretary.
    Mr. Hastings. For the Secretary.
    Mr. Skibine. Right. And the Deputy Associate Solicitor, 
Laura Davis.
    Mr. Hastings. And so Laura Davis works for Ms. Stone? Is 
that correct?
    Mr. Skibine. No. She works for the Secretary.
    Mr. Hastings. For the Secretary?
    Mr. Skibine. Right.
    Mr. Hastings. But you don't know if the Secretary was 
involved in that directly because you got your correspondence 
with those two people?
    Mr. Skibine. Personally I do not know. That is correct.
    Mr. Hastings. OK. And then I know the testimony always has 
to be gone through OMB, so OMB bought off on this. I just find 
that rather strange.
    But you have no position on the other bill regarding the 
Virginia tribes?
    Mr. Skibine. On the Virginia bill, that is right. We do 
not, neither support nor oppose that bill.
    Mr. Hastings. You said a rare case. Why is the Lumbee 
situation rare?
    Mr. Skibine. The Lumbee situation is rare because the 
Lumbee Tribe, the Lumbees, as was stated in the previous panel, 
are unable to go through the restoration process in Part 83 
because of an Act of Congress that essentially has been 
interpreted by the Solicitor to prohibit them from going 
through that process.
    Mr. Hastings. Mr. Shuler's legislation would essentially 
negate that position. Do you have a position on Mr. Shuler's 
bill?
    Mr. Skibine. No, I do not.
    Mr. Hastings. Did you run that up the flagpole?
    Mr. Skibine. No, I do not. We are not testifying to that.
    Mr. Hastings. I mean did you ask if anybody in the 
Department had a position on Mr. Shuler's bill?
    Mr. Skibine. No, I did not.
    Mr. Hastings. OK. How come? The reason I ask is if your 
answer is because legislation prohibits them to go through the 
normal process and a bill has been introduced that if it would 
pass would allow them to go through the normal process, why 
wouldn't you run that up the flagpole?
    Mr. Skibine. Excuse me. I am sorry. I got distracted.
    Mr. Hastings. Well, I am just saying if your answer to me 
as to why Lumbee is a rare circumstance, the Lumbee issue is a 
rare circumstance, mainly Congress' Act of 1956, and 
legislation has been introduced by Mr. Shuler that would 
correct that, why wouldn't you check with people above you to 
find out what their position is on that bill?
    Mr. Skibine. Well, because we were not asked to testify on 
that bill, so essentially that was not an issue at this point.
    But I think that in looking at the Lumbee bill, the reasons 
that were eloquently stated by the gentleman from American 
Samoa. We think that as a matter of equity and good conscience 
it is time for the Lumbee Tribe to be recognized, and we stand 
on that.
    Mr. Hastings. As I said in my opening statement, the 
process here is what a lot of this is focused on. I think there 
are compelling arguments, frankly, why Congress should take 
this action, which they have a right to do, but I am just 
trying to figure out what the process is.
    Mr. Chairman, thank you very much for your indulgence.
    The Chairman. The Chair would just respond twice to the 
gentleman from Washington.
    First of all, the Secretary works for the President of the 
United States. Second, the Chair did not schedule a hearing on 
Representative Shuler's bill, so perhaps that is a reason why 
the Department did not express a position on Representative 
Shuler's bill because it was not scheduled for a hearing today.
    Mr. Hastings. Would the gentleman yield?
    The Chairman. Sure.
    Mr. Hastings. Yes. I recognize that, but I was just struck 
by his response and so that was a normal thing to follow up, 
but I thank you for that.
    I could ask, if I may, if he would submit at least for the 
record the process that he laid out here for the record in 
writing. I would appreciate that.
    Mr. Skibine. Sure. We will do that.
    Mr. Hastings. Thank you.
    The Chairman. Thank you.
    The gentleman from Michigan, Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    Mr. Skibine, do you think that Congress to streamline 
things should delegate its power of taxation to some bureau in 
the Executive Department?
    Mr. Skibine. I don't believe so.
    Mr. Kildee. OK. I am glad to hear you say that. Do you 
think it should delegate its appropriations power to some 
bureau?
    Mr. Skibine. I don't believe so either.
    Mr. Kildee. Do you think it should delegate its war power 
to someone like Rumsfeld?
    Mr. Skibine. I am not going to take a position on that one.
    Mr. Kildee. You are very prudent. You know, on the very 
same page where it says Congress shall have the power to 
regulate commerce with foreign nations and among the several 
states and with Indian tribes, all the powers I mentioned are 
on that very same page. As a matter of fact, regulating 
Commerce with the Indian tribes is even placed higher than the 
war powers on the same page.
    I mean, I take an oath every two years to uphold this 
Constitution. I don't take any oath to uphold what any bureau 
may say. I have some good friends in the Bureau, but I take an 
oath and that oath is very serious. In my religion, if I 
violated that oath it would be a sin. In law, it would be a 
crime. It is a very serious thing.
    Those words weren't put there just willy nilly. Our 
founding fathers really were trying to figure out a way to 
position the Federal government vis-a-vis the Indians, so it 
said we are going to treat them then with the same respect as 
sovereign nations, as France and Germany. As a matter of fact, 
when you go down to read the treaties you can find the treaties 
we made with France and other countries and the Indian 
treaties.
    I got started in this whole thing years ago. I read the 
Treaty of Detroit. That treaty was very important, so I wrote a 
bill to bottom out that treaty saying that any Michigan Indian 
can go to college, a public college of Michigan, and the state 
pays the tuition. That was my bill about 44 years ago. It is 
still the law.
    But I got that from reading the treaty made with a 
sovereign nation under the power of this Constitution, and I 
think all of us up here take an oath each year, every two 
years, to follow the Constitution so we would not delegate our 
war power, our taxation power, any of these powers to a 
bureaucracy. We alone hold those powers given by the 
Constitution.
    By the way, I do appreciate your personal work over there. 
You are the person who testified today, so I had to ask the 
questions of you. You would recognize this Constitution gives 
us enormous authority to govern this country?
    Mr. Skibine. Absolutely, yes.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    For the record, I just want to say, Mr. Secretary, 
Secretary Skibine and Mr. Fleming, not at any time have I ever 
tried to suggest that the Federal Acknowledgement Division of 
the Department of the Interior are evil people or they try to 
do things. I never question your sincerity or your efforts to 
work accordingly to the regulations that have been provided.
    I note with interest that Governor Kaine in his statement 
mentioned that these Indian tribes in Virginia did submit their 
applications through the FAP process, and it says that 
unfortunately, and I quote from the statement, ``These 
applications have been denied as incomplete.''
    One of the examples as to why the applications have been 
noted incomplete was the fact that from 1912 to 1946 this 
gentleman by the name of Walter Plecker of the Virginia Bureau 
of Vital Statistics led an effort to actively destroy vital 
records and evidence of Indian existence in the Commonwealth of 
Virginia. I suspect this is probably true in many other states 
of this effort.
    The practice was supported, and I am quoting from Governor 
Kaine's statement. ``The practice was supported when the 
eugenics movement...''--you know, this is where craniology and 
all these things, that a person's intelligence is determined by 
his physical being--``...was endorsed by Virginia universities 
and the Virginia General Assembly enacted a Racial Integrity 
Act in 1924, a race-based statute that forced all segments of 
the population to be registered at birth in one of two 
categories, white or colored.''
    It was even criminal. If you declared yourself as a Native 
American, you will be put in prison for one year. So for this 
30 year period, and I am just citing this example, Mr. Fleming, 
it would be totally impossible for these Indian tribes to 
combine with the seven criteria, given the fact that this is 
what states have done against the Indian tribes.
    So I just wanted to note that for the record. Would you say 
that the criteria that has been stipulated under the FAP 
requirements, these Indian tribes would never have a chance to 
be recognized given the fact that what the state has done to 
them by way of just nuding them, if you want to put it in those 
terms?
    Now, I notice that you neither recognized nor accept the 
applications of the Indian tribes of Virginia, but do you see 
the problems that we are having here if we are to depend 
entirely on the FAP process; that these tribes from Virginia 
would never see the day that they would be recognized because 
this is the kind of thing that was done against 
them?<plus-minus>
    Mr. Fleming. I would respectfully disagree with your 
statements, and I do take a different view from Governor 
Kaine's information from his statement.
    Records in Virginia do exist and they were not destroyed. 
The vital records of birth, marriage, divorce, death and 
probate, they are in the record. Not only are they in the hands 
of the individuals whom they pertain, but they are available at 
the local registrar level and the state registrar level.
    In preparation for this hearing I wanted to reach into what 
evidence was submitted on behalf of the Virginia groups, and in 
2001 this was the material that we received. In one of the 
group's materials were copies of vital records that were not 
destroyed. There were two marriage licenses and 17 copies of 
birth certificates.
    Every one of these documents recorded these individuals or 
parents of these individuals as Indian or red. They were not 
altered. They were not destroyed. Of the 17 copies of the birth 
certificates issued between 1915 and 1949----
    Mr. Faleomavaega. Reclaiming my time, the point that I am 
making here is this race-based statute in Virginia's past made 
it criminal for Native people to claim their Native American 
heritage. You go to jail if you say I am a Native American.
    So you may say that the records are in there. Are you 
suggesting that Governor Kaine's statement--he lied before this 
Committee in what he is saying?
    Mr. Fleming. I wouldn't say that. I would say he may have 
been misinformed because I have copies of these birth 
certificates that have Walter Plecker's signature on them, and 
they do indicate Indian as how they were recorded, and they 
are.
    Mr. Faleomavaega. Would you agree that the burden is on 
these Indian tribes that have to go through the whole process 
in figuring out that these records existed or maybe were 
deleted purposely because of this Virginia statute?
    Mr. Fleming. I would say that these groups have the 
opportunity to submit the same types of records that all the 
other petitioning groups submit, and these records do indicate 
racial designation of Indian.
    If there are examples of records that have been destroyed, 
then we need to see the evidence of that situation. Our 
regulation allows for courthouses that may have been burned or 
records that have truly been destroyed, but we have before us 
17 copies of birth certificates of individuals of one of the 
groups before this bill, and the records indicate Indian or 
red.
    Mr. Faleomavaega. I don't think you get my point here, Mr. 
Fleming. The point I am making here is it is a criminal 
statute. To declare yourself a Native American--just to say I 
am Native American--you go to jail for one year.
    What kind of a burden does that put on these Indian tribes 
from Virginia to go through the hurdle and say well, they 
changed the record to simply identify yourself as colored or 
white, but even to say you are Native American it is a criminal 
statute in the State of Virginia declaring yourself as an 
Indian.
    Mr. Fleming. But as you noted earlier, there were military 
records that are on the Federal level that indicates that these 
individuals fought with valor, and they were----
    Mr. Faleomavaega. Reclaiming my time, Mr. Fleming, I want 
to say simply from what has been said I respectfully do not 
agree with your point of view on this, and I sincerely hope 
that the flagpole goes up to Secretary Salazar and to the White 
House that the same consideration ought to be given to what has 
happened to the six tribes from Virginia, the same problem that 
for 110 years the Lumbee Indians are now given at last, for the 
first time in my 20 years that I have been here, that now the 
White House has given acknowledgement and agreement that the 
Lumbees should be recognized after 110 years.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. The Chair will announce, after recognizing 
the next Member, Mr. Broun of Georgia, that we will recess for 
approximately 15 or 20 minutes to answer two roll calls on the 
Floor of the House.
    Mr. Broun of Georgia?
    Mr. Broun. I thank the Chairman for yielding for my 
questions. I am sorry that I was late for this hearing. I was 
tied up in another committee, Mr. Chairman, and it made me run 
late.
    I know there is an administrative procedure, as well as a 
legislative procedure, to try to designate various tribes. I 
would like to get the witnesses to just comment about the two 
procedures and whether it is your intent that the legislative 
procedure is not as valid or is not as good a way to seek a 
remedy for tribes that want to seek designation, so if you all 
would please comment on that?
    Mr. Skibine. Well, in our view the legislative route that 
recognizes a tribe is clearly just as valid as the party D3 
process because, as stated by Mr. Kildee, the Congress has the 
constitutional authority to recognize Indian tribes, and the 
Congress has passed numerous legislation.
    These tribes are Federally acknowledged now and have the 
same rights as any other Indian tribe that has been recognized 
through the Federal regulation.
    Mr. Broun. Mr. Fleming, do you want to comment on that?
    Mr. Fleming. Well, I wanted to comment that in 1994 
Congress passed the Federally Recognized Indian Tribe List Act, 
and in its findings it acknowledged that there were ways in 
which Indian tribes could be acknowledged through an Act of 
Congress or through the 25 C.F.R. Part 83 process.
    The Judiciary Branch is listed, but our interpretation is 
that they review our administrative decisions under the 
Administrative Procedure Act, so those are the two mechanisms.
    Mr. Broun. Now, there have been many applications made to 
ask for designation, and many applications have been denied in 
that administrative process.
    Is it your intent to try to include people or groups or 
tribes as designees, or is it more your intent to exclude 
people or tribal groups as designees?
    Mr. Fleming. Our process allows for a thorough review of 
the evidence under seven mandatory criteria. Groups will either 
meet the criteria or they will not.
    Earlier I had mentioned that under our process directly 16 
groups have been acknowledged as Indian tribes and 28 groups 
have been denied Federal acknowledgement, so the decisions are 
either positive or they are negative, and then our regulations 
allow for due process, and if a petitioner or interested party 
does not agree with the Department's decision then they may 
appeal before the Interior Board of Indian Appeals or they may 
challenge the decision in Federal Court under the 
Administrative Procedure Act.
    Mr. Broun. OK. Mr. Chairman, just for the sake of time I 
will yield back and I appreciate your time since we have a vote 
on.
    Mr. McIntyre. Mr. Chairman, if he yields, may I just get a 
clarification on the statement he just made? I just want a 
clarification. May I?
    You stated that 16 tribes have been recognized by the 
Bureau since the time the legislation passed? That is the 
statement you just made to Dr. Broun?
    Mr. Fleming. The 16 groups that have been acknowledged have 
been acknowledged since the beginning of our acknowledgement 
regulations in 1978.
    Mr. McIntyre. And during that same time period, earlier it 
was stated in testimony that 20 have been recognized by 
Congress in that same time period, correct?
    Mr. Fleming. I recall the statement. My statistic is only 
of groups that are currently under our process.
    Mr. McIntyre. OK.
    Mr. Fleming. It does not include tribes that were 
recognized through other avenues.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman. I just 
wanted to make the point. Twenty by Congress. Sixteen through 
the process. Thank you.
    The Chairman. The Chair recognizes the gentleman from 
Georgia.
    Mr. Broun. Thank you, Mr. Chairman. Just one quick 
housekeeping item. I would ask unanimous consent to have my 
written comments entered into the record.
    The Chairman. Without objection. So ordered.
    [The prepared statement of Mr. Broun follows:]

Statement of The Honorable Paul C. Broun, a Representative in Congress 
                       from the State of Georgia

    Thank you, Chairman Rahall and Ranking Member Hastings for holding 
this important hearing today. I appreciate the opportunity to hear 
testimony and ask questions from the witnesses today on H.R. 31, the 
Lumbee Recognition Act, and H.R. 1385, the Thomasina E. Jordan Indian 
Tribes of Virginia Federal Recognition Act of 2009.
    I remain concerned with several aspects of both pieces of 
legislation before us today. There has been much debate over whether 
federal recognition of these tribes is warranted. Recognizing these 
tribes through the legislative process would go around the Department 
of Interior's existing Federal Acknowledgement Process that other 
groups seeking recognition have had to complete. I am also very 
concerned about the significant cost that would be placed on the 
American taxpayer.
    Receiving Federal acknowledgment would enable these Indian tribes 
to participate in Federal programs and provides them with special 
rights, services, and immunities. As such, I believe we must proceed 
with caution and make sure that circumventing the Bureau of Indian 
Affairs' recognition process is warranted and that a legislative 
solution is needed.
    Mr. Chairman, thank you for calling this hearing. I look forward to 
hearing from our witnesses.
                                 ______
                                 
    The Chairman. Does the gentlelady from the Virgin Islands 
wish to be recognized before we break for votes?
    Mrs. Christensen. Thank you, Mr. Chairman. I want for the 
record just to say--I should have said this earlier--that the 
limitation on gambling does give me some concern.
    I realize it is in the legislation and it is done, but I 
just think it is unfair for us to put the tribe to have to give 
up something that would normally be their right to participate 
in to get Federal recognition.
    I have one question I guess for Mr. Skibine.
    Mr. Skibine. Skibine.
    Mrs. Christensen. OK. Thank you. Are you aware of any prior 
instances where previously ineligible tribes for the 
administrative process were made eligible by Congress and 
required to go through that process?
    Mr. Skibine. No, actually we are not aware of any tribe, 
any such tribe.
    Mrs. Christensen. That has been ineligible by the 
administrative process where Congress overturned that? We have 
never done that?
    Mr. Skibine. And then has required them to go through the 
process? No, we are not aware of that.
    Mrs. Christensen. Thank you. I guess that would be my only 
question, Mr. Chairman. I yield back the time.
    The Chairman. Thank you. Does the gentlelady from Wyoming 
wish to be recognized quickly before we go to break, or would 
she rather wait until we come back?
    Ms. Lummis. Thank you, Mr. Chairman. I would prefer to wait 
until we come back.
    The Chairman. Fine.
    Ms. Lummis. Thank you.
    The Chairman. The Committee will stand in recess for 
approximately 15 or 20 minutes. We do have two votes on the 
House Floor.
    [Recess.]
    The Chairman. The Committee on Natural Resources will come 
to order and recognize the gentleman from Washington, Mr. 
Hastings.
    Mr. Hastings. Mr. Skibine, just one thing. We kind of had 
the conversation here and the exchange about how this decision 
was made. I just wanted to clarify that we did ask you for 
written explanation of how that decision----
    Mr. Skibine. Yes.
    Mr. Hastings. OK. I just wanted to clarify that. Thank you.
    Mr. Skibine. And we will provide that.
    Mr. Hastings. Thank you very much. Appreciate it.
    The Chairman. Does the gentleman from North Carolina, Mr. 
McIntyre, wish to ask questions?
    Mr. McIntyre. No, sir. No further questions. We are looking 
forward to our next panel from the Lumbee Tribe, and we want to 
thank these gentlemen for their testimony.
    The Chairman. OK. We were holding for Ms. Lummis, who 
wanted to come back. We are unable to locate her at this time, 
but we do ask unanimous consent--at least I ask unanimous 
consent--that she be allowed to ask questions for the record in 
writing and that you be available to respond to those.
    Mr. Skibine. Yes, we will.
    The Chairman. That your response will be made part of the 
record as well.
    Mr. Skibine. Yes.
    The Chairman. OK. Thank you, Mr. Skibine. We appreciate 
your testimony and your patience in being with us today.
    Mr. Skibine. Thank you very much.
    The Chairman. Our Panel No. 4 will be composed of the 
following individuals: The Honorable James Ernest Goins, 
Chairman, the Lumbee Tribe of North Carolina, Pembroke, North 
Carolina, testifying on H.R. 31;
    The Honorable Stephen R. Adkins, Chief, Chickahominy Tribe, 
on behalf of the Virginia Indian Tribal Alliance for Life, 
Charles Country, Virginia--maybe that is supposed to be 
County--in regard to H.R. 1385;
    Mr. Gerald L. Danforth, Retired Chairman, the Oneida Tribe 
of Wisconsin, Oneida, Wisconsin, on H.R. 31; Ms. Arlinda F. 
Locklear, Esquire, attorney for the Lumbee Tribe of North 
Carolina, from Washington, D.C. on H.R. 31;
    Dr. Helen C. Rountree, Ph.D., Professor Emerita of 
Anthropology, Old Dominion University, Hampton, Virginia, on 
H.R. 1385; and Mr. Michael Cook, the Executive Director, United 
South and Eastern Tribes, Inc., from Nashville, Tennessee, 
testifying on H.R. 31.
    Ladies and gentlemen, we welcome you to the Committee on 
Natural Resources and appreciate your patience in being with us 
all morning as you have. We do have your prepared testimony, 
which will be made part of the record as if actually read, and 
you may proceed as you desire in the order in which I announced 
you.
    The first one will be Chairman Goins.

STATEMENT OF HON. JAMES ERNEST GOINS, CHAIRMAN, LUMBEE TRIBE OF 
            NORTH CAROLINA, PEMBROKE, NORTH CAROLINA

    Mr. Goins. Thank you. Chairman Rahall, Congressman Hastings 
and Members of the Committee, thank you for the opportunity to 
testify in support of H.R. 31, a bill to recognize the Lumbee 
Tribe of North Carolina.
    On behalf of the Lumbee people, I want to express our 
particular gratitude to you, Chairman Rahall, for your support 
for our cause. I also want to express my heartfelt appreciation 
on behalf of the Lumbee people to Congressman McIntyre, Senator 
Burr and Senator Hagan for their leadership on this issue.
    Mr. Chairman, my name is James E. Goins, and I am Chairman 
of the Lumbee Tribe. I am the great, great grandson of Solomon 
Oxendine, who along with 44 other tribal leaders petitioned the 
Federal government for recognition in 1888. Today I come before 
you once again requesting Federal recognition for my people.
    I am joined by The Honorable Gerald Danforth, former 
Chairman of the Oneida of Wisconsin, who will testify about his 
experiences, visit and support for full Federal recognition of 
the Lumbee Tribe. Finally, I am accompanied by our attorney on 
recognition, Arlinda Locklear, who will also testify about the 
need for legislation to recognize our people.
    In a short film, I would like to share with you two parts 
of our community and history. Critics of the Lumbee always 
become believers once they visit our territory, so I bring to 
you the land of the Lumbee and hope that you, too, can support 
our cause.
    We begin with the Lumbee River, the place where we have 
always lived. Like other tribes, we draw our name, Lumbee, from 
this river, which is an important part of our identity. Lumbee 
is the only name my people have selected for themselves.
    St. Anna Church is shown here. It is one of 120 Indian 
churches in our territory and is one of the oldest. It has been 
led by Lumbee ministers for more than 100 years. This church is 
located in Dechava settlement and was a staging area for Fred 
Baker, a special Indian agent ordered by the Commission of 
Indian Affairs to study my people. His report, one of 11 done 
by the Federal government on the Lumbee, stated that over 2,000 
Lumbee tribal members met him at St. Anna.
    Mr. Chairman, I have these 11 reports and request that they 
be made part of the record.
    The Chairman. Without objection. The request is granted.
    [NOTE; The reports have been retained in the Committee's 
official files.]
    Mr. Goins. Mr. Chairman, each and every one of these 
reports identifies us as Indian and notes the strength of our 
community and leadership.
    In this panoramic view of St. Anna's Church, we see the 
Lumbee River holding its Methodist conference created in 1900. 
Today this association remains the only all Indian religious 
conference in the country.
    Education has always been important for the Lumbee Tribe. 
When the state recognized us in 1885, it established a school 
system controlled by the tribe and limited eligibility to our 
children. Here is one of the earliest pictures of one of our 
all Indian schools. Here is Prospect School that fits on the 
porch of the old Cheraw settlement.
    Prospect School has a student population that is 99.8 
percent Indian. The principal, teachers and, yes, even the 
superintendent of Robeson County Public Schools are all Indian. 
This school is very dear to my heart. My grandfather, my father 
and I attended this school. My children attended this school, 
and now my grandchild attend this school. Because we live in 
predominantly Lumbee communities, most of our children attend 
predominantly Indian schools.
    In 1887, the Indian Normal School was founded to train 
Indian teachers for our Indian school system. It has been in 
operation ever since and is now the University of North 
Carolina at Pembroke. North Carolina recently designated this 
campus as a historical Indian college.
    This is the family homeplace of the tribe's most famous 
hero, Henry Berry Lowry. Lowry led the effort to protect our 
people against constriction and to hard labor by the local 
militia during the Civil War. He watched the militia execute 
his father and brother in 1865. They are buried here. This 
began Lowry's 10 year war to protect our people.
    Here you see Red Banks where the BIA proposed to establish 
a land trust program for our people in 1935, but the BIA 
transferred the program to the Department of Agriculture. Even 
so, an all Indian agricultural farming co-op was established 
here and is the longest running such co-op in the country.
    Now you see a Lumbee homecoming held annually in Pembroke. 
Over 25,000 Lumbees gather to celebrate our heritage. 
Mistakenly, these streets were closed in 1956 to celebrate what 
we thought was full Federal recognition with the passage of the 
Lumbee Act. This was one of the many Acts introduced in 
Congress to recognize the tribe. The 1956 Act was the only one 
that passed. It recognized us as Lumbees, but at the same time 
terminated the tribe.
    Finally, our veterans. Honor, duty and love of country are 
qualities that our Lumbee veterans instill in our youth. My 
father and uncle served in World War II and passed these 
qualities down to me. I privately enlisted in the Army and 
served in Vietnam. For my service in Vietnam I was awarded the 
Purple Heart, the Bronze Star and the Air Medal.
    We think it is time for Congress to finish what it started, 
Mr. Chairman, in 1956. In the words of our good friend, 
Congressman McIntyre, it is time for the discrimination to end 
and recognition to begin.
    Thank you, sir.
    [The prepared statement of Mr. Goins follows:]

       Statement of The Honorable James Ernest Goins, Chairman, 
               Lumbee Tribe of North Carolina, on H.R. 31

    My name is James Ernest Goins and I am Chairman of the Lumbee 
Tribe. I want to express the Tribe's appreciation to Chairman Rahall 
for his support for our bill and the opportunity to testify at this 
hearing in support of H.R. 31, a bill that would extend full federal 
recognition to the Tribe. I also want to express the Tribe's deep 
gratitude to Congressman McIntyre for his hard work and leadership on 
this issue. Lumbee history will record his faithfulness to the Lumbee 
cause.
    As have generations of Lumbee leaders before me, I proudly appear 
today in support of H.R. 31 and the federal recognition for the Tribe 
that it would provide. Congress has deliberated on this issue for more 
than one hundred twenty years now and, on the Tribe's behalf, I urge 
the committee to report H.R. 31 favorably so that we can move one step 
closer to justice and fair treatment for the Tribe.
The Lumbee desire for federal recognition
    I am a direct lineal descendant of tribal leaders who first 
petitioned the United States for federal recognition in 1888. This 
petition to Congress was a request for federal recognition and 
financial support for the education of Lumbee children. At the time, 
the State of North Carolina had just established a separate school 
system for the education of Lumbee children; at the same time, the 
State approved two years funding for a normal school to train teachers 
for our schools, but none for purchase of land or construction of a 
school building. The Tribe donated the land and built the school but 
had trouble keeping the normal school open with so little support from 
the State. So, the Lumbee Tribe sought recognition from Congress for 
the purpose of supporting the Tribe's normal school. The Congress 
referred the request to the Department of the Interior and the 
Department gave what was to become its stock response to the Lumbee 
quest for recognition:
        While I regret exceedingly that the provisions made by the 
        State of North Carolina seem to be entirely inadequate, I find 
        it quite impractical to render any assistance at this time. The 
        Government is responsible for the education of something like 
        36,000 Indian children and has provision for less than half 
        this number. So long as the immediate wards of the Government 
        are so insufficiently provided for, I do not see how I can 
        consistently render any assistance to the Croatans or any other 
        civilized tribe.
    This was a theme that we were to hear often from the federal 
government--we know you are Indian and you are in need but we have too 
little funding to assist you.
    In 1899, Congressman John Bellamy introduced a bill that would 
recognize the Croatan Indians and provide assistance to the Indian 
normal school. In 1905, our people made a third effort. A rally was 
held at the Indian normal school for the purpose of securing a federal 
census of Indians in the community and federal support for the Indian 
school. Both these efforts failed.
    Between 1910 and 1924, no less than five separate bills were 
introduced to obtain federal recognition and assistance for the Indian 
normal school in Robeson County. Congress asked the Department of the 
Interior to investigate the history and needs of our people three times 
during this period. Each time the Department acknowledged that we were 
Indians, but each time the Department recommended against the bill, 
mostly for fiscal reasons.
    During the 1930s when my people were attempting to organize under 
the Wheeler-Howard Act, my wife's grandfather helped raise money to 
send our people to Washington. Their pleas met with the same results. 
Dr. Swanton from the Bureau of Ethnology was sent to investigate our 
origins and history. He concluded that the Lumbee people are 
descendants of the Cheraw Indians. But the effort failed.
    Then, in 1935, Assistant Solicitor Felix Cohen put in writing a 
plan that would allow the Indians of Robeson County to organize under a 
constitution. Tribal leaders immediately submitted a request to 
organize to the Department of the Interior. Commissioner Collier sent 
an Indian agent, Fred Baker, to Robeson County to work out a plan for 
land resettlement so that a reservation might be created for qualified 
half-bloods. The Indian agent reported in 1935 that he had met with 
approximately 4,000 members of the Indian community and found strong 
support for the idea. That meeting was held at a small Lumbee church 
between Prospect and an adjoining Lumbee community, known as Pembroke. 
In his report to Washington, he described this meeting:
        It may be said without exaggeration that the plan of the 
        government meets with practically the unanimous support of all 
        the Indians. I do not recall having heard a dissenting voice. 
        They seemed to regard the advent of the United States 
        government into their affairs as the dawn of a new day; a new 
        hope and a new vision. They hailed with joy the offer of the 
        government; many of the old people could not restrain their 
        feeling,--tears filled many eyes and flowed down furrowed 
        cheeks. We must confess to the fact that our own feelings were 
        deeply touched as the old people expressed so deep a longing to 
        have a piece of land on which they could live in peace...
    The agent concluded, ``It is clear to my mind that sooner or later 
government action will have to be taken in the name of justice and 
humanity to aid them.''
    Justice did not come that time either. The plan was contingent upon 
certification of Indians in the county as half or more Indian blood. 
Initially, Assistant Commissioner Zimmerman and Assistant Solicitor 
Cohen had thought that Indian school enrollment records, other state 
records, and oral tradition would all be used in this process. But in 
the end, the determinations were made based solely on physical 
measurements and features, e.g., body measurements, skin pigmentation, 
and facial features, which have since been discredited as having no 
scientific basis. Only 209 tribal members agreed to submit to these 
tests, out of which 22 were eventually certified as half-bloods. This 
effort eventually failed, too.
    In the early 1950s, the Tribe once again looked to legislation as 
the answer. After obtaining state legislation in 1953 recognizing the 
tribe under the name Lumbee, the Tribe sought federal recognition 
legislation on the same terms. In 1956, Congress did pass the Lumbee 
Act, designating the Indians in Robeson and adjoining counties as 
Lumbee Indian. But at the request of the Department of the Interior, 
the bill was amended before enactment to provide that Lumbees could not 
receive services as Indians. Thus, we failed once again because of the 
intervention of the Department of the Interior.
    Our latest effort for special legislation began about twenty years 
ago, after the Department of the Interior had promulgated regulations 
on recognition. In December 1987, the Tribe filed a fully documented 
petition for federal acknowledgment. Two years later, the Solicitor's 
Office decided that the Lumbee Tribe is not eligible for the 
administrative process because of the termination language of the 1956 
Lumbee Act added at the request of the Department of the Interior.
    Even so, some say repeal the 1956 Lumbee Act and force the Tribe to 
go through the administrative process. My answer to this is to pose the 
following question: What will the Department of the Interior learn that 
its experts haven't already told them? Every time a bill was introduced 
in Congress to recognize us, the Department studied our history and 
community, but opposed the bill because money was too short. How much 
do our people have to take? How many times does the Department of the 
Interior have to study our history? We believe enough is enough and the 
time has come for Congress to finish what it started in 1956.
    Our people lost control over our Lumbee schools because we are not 
federally recognized. When a federal judge ordered North Carolina to 
disband its segregated schools, the Tribe lost its separate schools. 
This was a serious blow to our people's independence. Without federal 
recognition, we cannot have full charge of our communities. Without 
federal recognition, we will continue to be treated as second-class 
Indians.
The Lumbee community and governance
    My family and I are typical of Lumbee families. Let me share a 
little about myself and my family to illustrate the strength and ties 
that bind our people.
    I am the son of Ernest and Ola Jacobs Goins and a son of the 
Prospect community, oldest documented Lumbee community located in the 
historic Cheraw settlement. My wife is Diane Locklear Goins, a Lumbee, 
and a retired schoolteacher, who taught at Pembroke Elementary School, 
a Lumbee school, for 31 years. Diane grew up in the Union Chapel Lumbee 
community, the home community of my mother. My oldest daughter Rhonda 
is a Rehabilitation Coordinator with the Robeson County Mental Health 
Department where she works with children from birth to three years of 
age. My daughter Jacqueline is a Lumbee educator at a predominantly 
Lumbee school. My youngest daughter Jamie recently served as an 
Ambassador with the Americans for Indian Opportunity's American Indian 
Ambassador Program. All my sons-in-law are Lumbee Indians and grew up 
in Lumbee communities in Robeson County.
    My family, like other Lumbee families, takes pride in our community 
and maintains a strong sense of tribalism. Because our communities are 
composed of large extended families, our children are not only our 
children but also the sons and daughters of our Lumbee communities. 
Children are raised by the whole family, not just mothers and fathers. 
Our people live in parallel worlds. We know what it is to be Lumbee and 
we know about the world outside the Lumbee world.
    Throughout my life, I attended all Indian churches. Growing up in 
Prospect community, I attended Prospect United Methodist Church, 
located immediately across form the Prospect School. The Prospect 
United Methodist Church is the largest American Indian church in the 
United Methodist Church. I now attend Union Chapel Holiness Methodist 
Church, my wife's home church. This church is part of the Lumbee River 
Holiness Methodist Conference (LRHMC), founded by the Lumbee people in 
1900. This religious conference is composed solely of Lumbee churches.
    I attended Prospect School, an all-Indian school. Its teachers and 
principals were all Indian. This school was part of the separate school 
system established for the Lumbee Tribe by the State in 1885. Only a 
rural country road separates the school from my church. During the 
school year, I--along with all other students--marched across that road 
for ``religious emphasis week''. I have grandchildren who attend 
Prospect School today. And they continue to cross the road one week 
during the school year where they receive one hour of religious 
training. Today, however, students are required to obtain parental 
consent.
    My schoolteachers were also my Sunday school teachers. The headmen 
of the community, being also the heads of our large extended families, 
selected the teachers for our schools. They also decided who could 
attend our schools. Both my paternal and maternal grandfathers, Willie 
Goins (Prospect community/school) and Anderson Jacobs (Union Chapel 
community/school) were among these headmen. They, along with the 
headmen from other Lumbee communities, had sole authority to decide who 
attended Indian schools and who would be allowed to teach in these 
schools. Teachers were selected based not only on qualification but 
also on their moral character. As religious and school leaders, these 
tribal leaders not only shaped our schools, churches, and communities, 
they ultimately governed the Tribe.
    After graduating from Prospect School in 1966, I enlisted in the 
United States Army and was severely wounded in the rice paddies of 
Vietnam on December 31, 1969. The men in my squad called me ``Chief'' 
and gave me the job of walking point through the jungles. Like all 
Lumbee veterans, I am proud of my service to this country and I wear 
its medals with pride: the Purple Heart, the Bronze Star, and the Air 
Medal. My father, too, served this county in Word War II. Indeed, 
Lumbee people have served this country as far back as 1775 when we 
fought side by side with the colonists. The only war the Lumbees did 
not serve in was the Civil War. During that period of time, we engaged 
in our own war against the Confederacy.
    Our connection to the land we call home and to each other is 
typical of Indian people. We draw our strength from home, known to 
others as Robeson County. Regardless of where a Lumbee may reside, home 
is always Robeson County. And when two Lumbees meet for the first time, 
the first question asked is who are your people, i.e., your family 
lines. All Lumbees know their family history three generations back and 
with a little discussion any two Lumbees can connect themselves either 
by direct kinship or marriage. These bonds--the ties to our land and 
each other--are the ties that have enabled us to survive as a tribe 
even without federal recognition.
    For most of our history, the Lumbee tribe has functioned with 
informal leaders, people typically drawn from the leading families 
within our communities. These leaders took whatever steps were required 
to protect our people, including self-defense such as during the Civil 
War, and handled all our government-to-government relations with the 
State of North Carolina. Recently, our people decided to establish a 
formal tribal government. We adopted a constitution with three branches 
of tribal government: a tribal chairman with executive powers, a tribal 
council with 21 members representing districts within the Lumbee 
territory, and a tribal court to hear disputes rising under tribal law 
among our members. This tribal government has been recognized by the 
State of North Carolina as the governing body of the Lumbee Tribe and I 
am the Tribal Chairman elected in accordance with its terms.
Lumbee membership
    Because the Tribe has not historically received services or other 
benefits for its members, the Tribe did not historically maintain a 
formal membership list. Informal and partial lists of tribal members 
have been prepared for various purposes, though. For example, 
attendance at the Lumbee schools was limited to Lumbee children and 
committees of Lumbee leaders (sometimes call blood committees) had 
authority to determine a child's eligibility to enroll. These 
committees produce partial membership lists.
    A few lists of tribal members can also be found in our churches' 
records. Since Lumbee people have historically attended all Indian 
churches, these lists are among the Tribe's base rolls. Finally, the 
United States census has occasionally prepared special Indian censuses 
to count Indians. The censuses are excellent records because Indian 
households are listed by order of visitation. So the censuses provide 
of record of families that comprise our communities, e.g., Prospect, 
Pembroke, Union Chapel, Saddletree, and Fairgrove. This collection of 
documents--school and church records and federal Indian censuses--was 
used to compile a base roll for the Lumbee Tribe.
    As part of the Tribe's effort to write a petition for federal 
recognition under the regulations, the Tribe initiated a formal 
enrollment process. The Tribe reduced to writing the membership 
criteria that it has always used informally and prepared a complete 
list of its members. There are two membership criteria: first, the 
person must prove descent from an ancestor on the base roll; second, 
the person must maintain contact with the Tribe. To us, maintaining 
contact means that you must be known to us, that is, known to be 
related to one of the families at home. Unless the Tribe knows you, 
then you are not allowed to enroll even if you can prove descent from a 
Lumbee ancestor. And the data in every application for enrollment is 
confirmed before an individual is enrolled. Using this process, we have 
enrolled approximately 55,000 members.
Conclusion
    The Lumbee Tribe believes it is time for Congress to finish what it 
began in 1956 and enact Mr. McIntyre's recognition bill. The Lumbee 
people have been patient and persistent in their quest for federal 
recognition, but I can tell you that our people have had about enough. 
The time has come for the United States to acknowledge the fact that 
the Lumbee people are and have always been an Indian tribe. This is the 
truth of the Lumbee people. It is a truth that North Carolina has long 
acknowledged. It is a truth that other Indian people and experts on 
Indian history accept. And it is a truth that the Department of the 
Interior has known for one hundred years.
    On behalf of the Lumbee people, I thank the committee for the 
opportunity to share our story with you and urge the committee to act 
favorably on H.R. 31.
                                 ______
                                 
    The Chairman. Thank you.
    Chief Adkins?

STATEMENT OF HON. STEPHEN R. ADKINS, CHIEF, CHICKAHOMINY TRIBE 
ON BEHALF OF VIRGINIA INDIAN TRIBAL ALLIANCE FOR LIFE, CHARLES 
                        COUNTY, VIRGINIA

    Mr. Adkins. Thank you, Chairman Rahall, Ranking Member 
Hastings and other distinguished Members of this Committee, for 
having me here today to speak on House Bill 1385.
    I would like to request that the written testimony from the 
six tribes represented in this bill be introduced into the 
record.
    The Chairman. Without objection. The request is granted.
    Mr. Adkins. Before I begin my remarks, Mr. Chairman, I must 
acknowledge you and the House of Natural Resources Committee, 
who heard testimony in H.R. 1294, carried the bill to the full 
House and led the bill to its eventual passage by the U.S. 
House of Representatives in May 2007.
    Today we thank you for again picking up the mantle and 
shepherding this true and just cause for the Eastern 
Chickahominy, the Monacan, the Nansemond, the Upper Mattaponi, 
the Rappahannock and my tribe, the Chickahominy, the tribes 
named in H.R. 1385. Thanks to Congressman Jim Moran for 
introducing this bill.
    We are honored to be testifying here today alongside the 
Governor of the Commonwealth of Virginia, Timothy Kaine, who, 
in his inaugural address, pledged his strong support for 
Federal recognition of these Virginia Indian tribes and has 
continued his strong support throughout his tenure.
    We are also pleased to testify along with Dr. Helen 
Rountree, a renown anthropologist specializing in the heritage 
of the Virginia Indian tribes.
    Finally, let me acknowledge the leaders of the 
aforementioned tribes whose compelling stories to a large 
degree mirror my own.
    Mr. Chairman, it saddens me that we have to appeal to the 
legislative body of arguably the greatest country in the world, 
a country noted worldwide as a champion of human rights, to 
find redress to correct this wrong that Virginia Indians have 
endured since the United States was formed, a country who in 
its search to form a more perfect union systematically ignored 
those very people who helped ensure the survival of the first 
permanent English settlement at Jamestown.
    Early in the relationship between the Virginia Indians and 
the Colonists, it became very apparent that there was a need to 
delineate a framework by which these two entities could live 
together peacefully. In recognition of that need, the Treaty of 
1614 was established between the Chickahominy Tribe and the 
Colonists.
    In the intervening years, several treaties were drawn 
between England and the Virginia Indian nations, culminating in 
the Treaty of 1677, which is referred to interchangeably as the 
Treaty of Middle Plantation or the Articles of Peace. It is 
noteworthy that those tribes listed in H.R. 1385 were in fact 
signatories to the Treaty of 1677.
    The Indian nations of Virginia never took up arms against 
the United States, which perhaps explains why there was never a 
treaty between the Indian nations of Virginia and the United 
States. Without a treaty relationship, there was no official 
relationship between the aforementioned entities.
    To make matters worse for the Virginia Indian nations of 
Virginia, the colonial government, through warfare and other 
means and later the Commonwealth of Virginia through the power 
of the pen, sought their elimination. The woes that plagued the 
Indian nations of Virginia were systemic. Those woes were given 
birth and perpetuated by a system that sought to deny the very 
existence of the Indian nations of Virginia.
    The documentary genocide that the Virginia Indians suffered 
at the hands of Walter Plecker, who ruled over the Bureau of 
Vital Statistics in Virginia from 1912 to 1946, gained full 
momentum when the state's legislature enacted the Racial 
Integrity Act in 1924. This Act included penalties for 
assigning Indian names to Native infants or assigning the 
designation Indian to birth certificates.
    Although socially unacceptable to kill Indians outright, 
Virginia Indians became fair game to Plecker as he led efforts 
to eradicate all references to Virginia Indian nations on vital 
records. This law stayed in effect until 1976 and caused many 
of our tribal members to have to travel out of state in order 
to be married as Indians.
    This law also forced all segments of the population to be 
registered in birth as white or colored. State law declared 
there were no Indians in this state in 1924, and if you dared 
to say differently you went to jail or worse.
    In 1997, legislation was passed that required the 
Commonwealth of Virginia to bear the cost of correcting the 
vital records of the Virginia Indians. Unfortunately, this 
legislation has not and cannot undo the damage done to my 
ancestors who endured humiliation in venues as disparate as 
trying to obtain marriage licenses or being inducted into the 
armed forces as Indians.
    The six tribes in this bill gained state recognition in the 
Commonwealth of Virginia between 1983 and 1989. In 1999, we 
came to Congress when we were advised by the Bureau of Indian 
Affairs that many of us would not live long enough to see our 
petitions go through the administrative process. By the way, we 
have buried three of our Chiefs since then.
    Actions taken by the Commonwealth of Virginia during the 
20th century erased our history by altering records as part of 
a systematic plan to deny our existence. This state action 
distinguishes us from the other tribes in this country that 
were protected from this blatant denial of Indian heritage and 
identity.
    As part of the Jamestown 400th anniversary commemoration, 
these tribes traveled to England in 2006 telling the story of 
Virginia's early history. The people of England have an 
enduring respect and love for Pocahontas. As we worshipped at 
St. George's Church, its congregation extended that same kind 
of love and respect toward us, and to my amazement the attitude 
of love and respect transcended the spiritual and emotional 
service within the church and was extended to us in every venue 
we visited. I believe our traveling to England and being 
embraced by its citizenry and elected officials represented a 
significant move toward reconciliation and healing.
    A product of the research of the first permanent English 
settlement at Jamestown was the revelation of what our 
contributions had meant to its success. Honors from across the 
Commonwealth of Virginia have been held in rapt attention as we 
have shared our connection to England and our influence on the 
development of the embryonic seeds of democracy which took root 
in our homeland.
    This is a proud story which deserves a happy ending, an 
ending that acknowledges the sovereignty of these six Virginia 
Indian nations. We must come full circle and be embraced by the 
Congress of the United States of America.
    I and those Chiefs here with me stand on the shoulders of 
many others besides Powhatan and Pocahontas. We lament the 
passing of nine out of 10 of our countrymen by the end of the 
17th century. To be sure, some of those who perished did not 
die by the sword. Some died from diseases alien to this land 
and some from other causes. However, the decimation of our 
ranks was tied directly to events that unfolded after the 
settlers arrived in 1607.
    When we commemorated Jamestown's anniversary in 2007, those 
of Indian heritage in Virginia were reminded of that darker 
side of 17th century history. As Chief of our tribe, we have 
persevered in this process for one reason: We do not want our 
families to let the legacy of Walter Plecker stand. We want the 
assistance of Congress to give the Indian tribes in Virginia 
their freedom, their freedom from a history that denied their 
Indian identity.
    Without acknowledgement of our identity, the harm of racism 
becomes a dominant history. We want our children and the next 
generation to have their Indian heritage honored and to move 
past what we experience and our parents experience.
    We, the leaders of the six Virginia Indian tribes, are 
asking Congress to help us make history for the Indian people 
of Virginia, a history that honors our ancestors who were there 
at the beginning of this great country. We believe the Federal 
recognition of the Indian tribes will make a difference that 
goes beyond the stamp of recognition.
    It will reconcile the history in this country between two 
cultures in a way that honors our history of learning to live 
together in peace. It will honor Natives that have served in 
the military and who as a percentage of their population have 
given the ultimate sacrifice at a rate higher than any other 
racial group in the United States.
    This is what we want for our people and for our nation. Our 
visit to England in which we shared our culture and history, 
described our contemporary lifestyles as both contributors to 
the American way of life and aspirants to the American dream, 
that has strengthened our resolve to obtain Federal 
acknowledgement.
    What would Federal acknowledgement mean in the daily lives 
and the future of Virginia tribes? For one thing, it guarantees 
our access to archeological endeavors on public lands and 
rights-of-way and the ability to retrieve the bones of our 
ancestors from Federal repositories. It would create a 
government-to-government relationship between the tribes and 
the Federal government.
    For years the Commonwealth of Virginia did not care about 
our story. Our public school curricula had scant mention of who 
we are, so mainstream America knows little about what has 
happened in those years between the 17th century and today. The 
fact that we were so prominent in the early history and then so 
callously denied our Indian heritage is a story that most don't 
recognize.
    The Commonwealth of Virginia has taken definitive actions 
to right the wrongs inflicted upon its indigenous people and 
stands with us today. In 1983, the Commonwealth of Virginia 
established the Virginia Commission on Indians.
    Governor Kaine has appointed Virginia Indians to boards, 
commissions and also leadership positions within the state 
agencies. He has ensured the involvement of Virginia Indians in 
defining and developing the 2008 standards of learning, which 
will influence the content of social studies textbooks to be 
used in Virginia's public schools.
    We believe it is time for the U.S. Congress to stand 
alongside the Commonwealth of Virginia, to stand along the six 
tribes named in H.R. 1385 and grant us the recognition we 
deserve.
    Chairman Rahall, we, the Chickahominy, the Eastern 
Chickahominy, the Monacan, the Nansemond, the Upper Mattaponi 
and the Rappahannock Tribes implore you to pass the Thomasina 
E. Jordan Indian Tribes of Virginia Federal Recognition Act of 
2009.
    I would like to add that action by the church, the Papal 
Bull 1452, gave Europeans the right to come in and pillage and 
steal our lands, so perhaps it is time to go back to the Old 
Testament and look at what Mordecai told Esther. He said 
perhaps you were put in such a royal position as you are for 
such a time as this.
    Mr. Chairman, I believe that is why you are here today. I 
thank you for your time and your patience in hearing this 
testimony.
    [The prepared statement of Chief Adkins follows:]

         Statement of The Honorable Stephen R. Adkins, Chief, 
                Chickahominy Indian Tribe, on H.R. 1385

    Thank you Chairman Rahall and other distinguished members of this 
committee for inviting me here today to speak on House Bill 1385. 
Before I begin my remarks I must acknowledge you, Chairman Rahall, and 
the House Natural Resources Committee who heard testimony on H.R. 1294, 
carried the bill to the full house and led the bill to its eventual 
passage by the U.S. House of Representatives in May 2007. Today I thank 
you for again picking up the mantle and shepherding this true and just 
cause for the tribes named in H.R. 1385. The bill, introduced by 
Congressman Jim Moran is titled the Thomasina E. Jordan Indian Tribes 
of Virginia Federal Recognition Act of 2009. I am proud to appear 
before this Congressional Committee today to speak on behalf of the six 
Tribes named in H.R. 1385: the Eastern Chickahominy, the Monacan, the 
Nansemond, the Upper Mattaponi, the Rappahannock, and my tribe, the 
Chickahominy. I am honored to be testifying alongside His Excellency 
the Governor of the Commonwealth of Virginia, Timothy Kaine, who in his 
inaugural address pledged his strong support for Federal Recognition of 
these Virginia Indian Tribes and whose strong support continues as 
evidenced by his presence here today. I am also pleased to testify 
along with Dr. Helen Rountree, a renowned anthropologist specializing 
in the heritage of the Virginia Tribes, who worked on the petitions we 
filed with the BIA and who has written several books on the Indians of 
Virginia. Finally let me acknowledge the leaders of the aforementioned 
tribes whose compelling stories to a large degree mirror my own.
    It saddens me to my very core that we have to appeal to the 
legislative body of arguably the greatest country in the free world; a 
country noted worldwide as a champion of human rights, to find redress; 
to correct a wrong Virginia Indians have endured since the United 
States was formed. A country who in its search to form a more perfect 
union systematically ignored those very people who helped ensure the 
survival of the First Permanent English Settlement at Jamestown in what 
is now the United States of America.
    Early in the relationship between the Virginia Indian Nations and 
the colonists it became very apparent that there was a need to 
delineate a framework by which these entities could coexist. In 
recognition of that need, the treaty of 1614 was established between 
the Chickahominy Tribe and the colonists. In the intervening years 
several treaties were drawn between England and the Virginia Indian 
Nations, culminating in the treaty of 1677 called, interchangeably, the 
treaty of Middle Plantation or the Articles of Peace. It is noteworthy 
that those tribes listed in H.R. 1385 were signatories to the treaty of 
1677.
    The Indian Nations of Virginia never took up arms against the 
United States which perhaps explains why there was never a treaty 
between the Indian Nations of Virginia and the United States. Without a 
treaty relationship there was no official relationship between the 
aforementioned entities. To make matters worse for the Indian Nations 
of Virginia the colonial government, through warfare and other means, 
and later the Commonwealth of Virginia, through the power of the pen, 
sought their elimination.
    The woes that plagued the Indian Nations of Virginia were systemic. 
These woes were given birth and perpetuated by a system that sought to 
deny the very existence of the Indian Nations of Virginia. Things that 
other tribes took for granted like giving Indian babies traditional 
Indian names or ensuring proper racial designation on vital records 
were denied to many Virginia Indians.
    I have been asked why I do not have a traditional Indian name. 
Quite simply my parents, as did many other native parents, weighed the 
situation and decided giving me a traditional Indian name was not worth 
the risk of going to jail. The documentary genocide the Virginia 
Indians suffered at the hands of Walter Ashby Plecker, a rabid 
separatist, who ruled over the Bureau of Vital Statistics in Virginia 
for 34 years, from 1912 to 1946 was well documented in an Article 
written by Peter Hardin of the Richmond Times Dispatch in 2000. 
Although socially unacceptable to kill Indians outright, Virginia 
Indians became fair game to Plecker as he led efforts to eradicate all 
references to Indians on Vital Records. A practice that was supported 
by the state's establishment when the eugenics movement was endorsed by 
leading state universities and was further supported when the state's 
legislature enacted the Racial Integrity Act in 1924. A law that stayed 
in effect until 1967 and for several decades caused many of our parents 
to have to travel to Washington D.C. or elsewhere, in order to be 
married as Indians. This vile law forced all segments of the population 
to be registered at birth in one of two categories, white or colored. 
Our anthropologist says there is no other state that attacked Indian 
identity as directly as the laws passed during that period of time in 
Virginia. No other ethnic community's heritage was denied in this way. 
Our state, by law, declared there were no Indians in the State in 1924, 
and if you dared to say differently, you went to jail or worse. The 
Racial Integrity Act stayed in effect for half of my life. My father 
and his peers lived in the heart of the Plecker years and carried those 
scars to their graves. When I approached my father and his peers 
regarding our need for state or federal recognition they pushed back 
very strongly. In unison they said. ``Let sleeping dogs lie and do not 
rock the boat''. Their fears of reprisal against those Indian folks who 
had risked marrying in Virginia and whose birth records accurately 
reflected their identity outweighed their desire to openly pursue any 
form of recognition. Those fears were not unfounded because the threat 
of fines or jail time was very real to modern Virginia Indians. 
Chairman Rahall, the story I just recounted to you is very painful and 
I do not like to tell that story. Many of my people will not discuss 
what I have shared with you but I felt you needed to understand recent 
history opposite the romanticized, inaccurate accounts of 17th century 
history.
    In 1997 legislation was passed that required the Commonwealth of 
Virginia to bear the costs of correcting the vital records of the 
Virginia Indians. Unfortunately, while this legislation allows those of 
the living generations to correct birth records, this legislation or 
law has not and cannot undo the damage done by Plecker and his 
associates to my ancestors who endured pain and humiliation in venues 
as disparate as trying to obtain marriage licenses or being inducted 
into the Armed Forces as Indian. The pain was the direct result of 
distorted, altered, incorrect records. We are seeking recognition 
through an act of Congress because actions taken by the Commonwealth of 
Virginia during the 20th Century erased our history by altering key 
documents as part of a systematic plan to deny our existence. This 
state action separates us from the other tribes in this country that 
were protected from this blatant denial of Indian heritage and 
identity. We are seeking recognition through Congress because this 
history of racism, in very recent times, intimidated the tribal people 
in Virginia and prevented us from believing that the petition process 
would understand or reconcile this state action with our heritage. We 
feared the process would not be able to see beyond the corrupted 
documentation that was designed to deny our Indian heritage. Many of 
the elders in our community also feared, and for good reason, racial 
backlash if they sought state or federal recognition.
    Chairman Rahall, the Indian Nations of Virginia worked hand in hand 
with the Federal Jamestown 400th Anniversary Commemoration Commission 
and the Virginia Jamestown 2007 Committee to provide the world with an 
accurate view of those significant events that marked the 17th century 
in what is now known as the Commonwealth of Virginia.
    These tribes traveled to England telling the story of Virginia's 
early history. We visited St. Georges Church at Gravesend where 
Pocahontas is entombed. The people of England respect and honor the 
memory of Pocahontas. As we worshipped at St. Georges, its living 
congregation gave us that same kind of respect and honor. But to my 
utter amazement, this attitude of honor and respect transcended the 
spiritual and emotional service within the church and was extended to 
us in every venue we attended from Kent University, to Kent County 
Council to the House of Commons and the House of Lords. We were treated 
with dignity and respect at a level we have never experienced in our 
homeland. The citizenry and the elected officials were amazed that we 
are not officially recognized as Indian Tribes by the United States of 
America. As we traveled across Virginia and throughout the U.S. we 
found that people here shared the same amazement at our lack of federal 
recognition. I believe our people traveling to England and being 
embraced by its citizenry and elected officials represented a 
significant move toward reconciliation and healing.
    I wish there was time today to tell the full story of what has 
happened to the Virginia Tribes since Pocahontas visited England and 
the Court of Queen Ann. The story of Chief Powhatan and his daughter 
Pocahontas is well known across this land. What about our story? For 
years the Commonwealth of Virginia did not care about our story. Our 
public school textbooks had scant mention of who we are. So, what do 
you know or what does mainstream America know about what happened in 
those years between the 17th century and today? The fact that we were 
so prominent in early history and then so callously denied our Indian 
heritage is the story that most don't want to remember or recognize. A 
product of the research of the history of the first permanent English 
Settlement at Jamestown was the revelation of what our contributions 
meant to its success. Audiences across the Commonwealth of Virginia 
have been held in rapt attention as we have shared our research. We 
share our connection to England and our influence on the development of 
the embryonic seeds of democracy which took root in our homeland. This 
is a proud story which deserves a happy ending, an ending that 
acknowledges the sovereignty of these six Virginia Indian Nations. We 
must come full circle and be embraced by the Congress of the United 
States of America.
    I and those Chiefs here with me, stand on the shoulders of many 
others besides Pocahontas and Powhatan. We lament the passing of nine 
out of ten of our countrymen by the end of the 17th century. To be 
sure, some of those who perished did not die by the sword; some died 
from diseases alien to this land and from other causes. However, the 
decimation of our ranks was tied directly to events that unfolded after 
the settlers arrived in 1607. During this period cultures were trampled 
upon and languages were cast aside. The native people who befriended 
these strangers ultimately died at their very hands. When we 
commemorated Jamestown's anniversary in 2007 and the birth of our 
Nation, those of Indian heritage in Virginia were reminded of this 
darker side of 17th century history.
    Let me tell you how we got here today. The six tribes on this bill 
gained State Recognition in the Commonwealth of Virginia between 1983 
and1989. In 1997, Virginia passed the statute that acknowledged the 
state action re the vital records of Virginia Indians, but it couldn't 
fix the problem. The damage to our documented history had been done. 
Although there were meager attempts to gain federal acknowledgement by 
some of the tribes in the mid 20th century, our current sovereignty 
movement began directly after the passage of the legislation 
acknowledging the attack on our heritage. In 1999, we came to Congress 
when we were advised by the BAR (Bureau of Acknowledgement and 
Research) now OFA (Office of Federal Acknowledgement) that many of us 
would not live long enough to see our petition go through the 
administrative process. A prophecy that has come true. We have buried 
three of our chiefs since then. Given the realities of the OFA and the 
historical slights suffered by the Virginia Indian Tribes for the last 
400 years, the six tribes referenced in H.R. 1385 feel that our 
situation clearly distinguishes us as candidates for Congressional 
Federal Recognition.
    As Chief of my community, I have persevered in this process for one 
reason. I do not want my family or my community to let the legacy of 
Walter Plecker stand. I want the assistance of Congress to give the 
Indian Communities in Virginia, their freedom from a history that 
denied their Indian identity. Without acknowledgment of our identity, 
the harm of racism is the dominant history. I want our children and the 
next generation, to have their Indian Heritage honored and to move past 
what we experienced and our parents experienced. We, the leaders of the 
six Virginia Tribes, are asking Congress to help us make history for 
the Indian people of Virginia, a history that honors our ancestors who 
were there at the beginning of this great country.
    We believe the Federal Recognition of the Virginia Indian Tribes 
will make a difference that goes beyond the stamp of recognition. It 
will reconcile the history, in this country, between two cultures in a 
way that honors our story of learning to live together in peace and in 
love. It will honor our Natives who have served in the military and 
who, as a percentage of their population, have given the ultimate 
sacrifice at a rate higher than any other racial group in the United 
States. That is what we want for our people, and for our nation. Our 
visit to England in which we shared our culture and history, described 
our contemporary lifestyles as both contributors to the American way of 
life and aspirants to the American Dream, has strengthened our resolve 
to obtain federal acknowledgement. It has made us understand that we 
deserve to be on a level playing field with the other 562 odd tribes 
who are federally acknowledged. It has made us unwilling to accept 
being discriminated against because of both a historical oversight and 
the concerted efforts of our Commonwealth to deny to us our rightful 
heritage.
    What difference would Federal Recognition make in the daily lives 
and in the future of the Virginia Tribes? It guarantees our access to 
archaeological endeavors on public lands and rights of way and the 
ability to retrieve the bones of our ancestors from federal 
repositories. It would create a government to government relationship 
between the tribes and the federal government. It would provide our 
youth of tomorrow the assurance of their existence in the future. It 
would mean that important medical and educational opportunities would 
exist for the members of the tribes.
    The Commonwealth of Virginia has taken definitive actions to right 
the wrongs inflicted upon its indigenous peoples and stands with us 
today. In 1983 the Commonwealth of Virginia established the Virginia 
Commission on Indians which later became the Virginia Council on 
Indians. Governor Kaine has appointed Virginia Indians to boards, 
commissions and leadership positions within state agencies. He has 
ensured the involvement of Virginia Indians in defining and developing 
the framework for the standards of learning which will influence the 
content of history and social studies textbooks to be used in 
Virginia's public schools. We believe it is time for the United States 
Congress to stand alongside the Commonwealth of Virginia and the Tribes 
named in H.R. 1385 and grant us the Recognition we deserve.
    Recognition acknowledges we were here first, we are still here, and 
we have a unique position within the fabric of this nation. Recognition 
now is about the future more so than it is about the past. The Virginia 
Tribes have been here for almost 20,000 years and we hope to be here 
another 20,000.
    We, the Chickahominy, the Eastern Chickahominy, the Monacan, the 
Nansemond, the Upper Mattaponi, and the Rappahannock Tribes implore you 
to pass the Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2009.
    Thank you,
                                 ______
                                 
    The Chairman. Thank you, Chief Adkins.
    Chairman Danforth?

STATEMENT OF GERALD L. DANFORTH, RETIRED CHAIRMAN, ONEIDA TRIBE 
                OF WISCONSIN, ONEIDA, WISCONSIN

    Mr. Danforth. Good afternoon, Chairman Rahall, Ranking 
Member Hastings, Members of the Committee. My name is Gerald 
Danforth, and I am an enrolled member of the Oneida Tribe of 
Indians of Wisconsin.
    I served two terms as the Oneida Tribal Chairman and 
retired from that office in 2008. Prior to that I served four 
years as a judicial officer for the Oneida Appeals Commission, 
and I am a veteran of 30 years in the United States Navy, 
including service in Vietnam and Desert Storm.
    It is an honor to be here today to testify before the House 
Resources Committee in support of H.R. 31, a bill that would 
provide for the Federal recognition of the Lumbee Tribe of 
North Carolina.
    I first met Lumbee Indians while serving in the Navy 
stationed in Charleston, South Carolina, in 1967. Since then I 
served with Lumbee Indians from time to time throughout my 
Naval career, and later on in that career I met and became good 
friends with a Master Chief, David Locklear, who I knew to be a 
Lumbee Indian. I didn't realize then, though, that Lumbee 
Indians were a state recognized tribe and not a Federally 
recognized tribe.
    In the year since, however, while serving as Oneida Tribal 
Chairman, I became much more knowledgeable about the Lumbee and 
about its many attempts to become Federally recognized. I have 
also come to know several Lumbees during my years of work in 
Indian Country.
    The Lumbee Tribe's attorney, Arlinda Locklear, who you will 
hear from shortly, is also the Oneida Tribe's attorney in our 
land claims in New York. Other Lumbees work in Indian Country 
in other ways, as doctors, educators, in Federal agencies that 
provide services to all Indian people.
    The Indian Claims Commission has a Lumbee who served as 
commissioner. The American Indian Policy Review Commission had 
a Lumbee commissioner and a Lumbee attorney as a task force 
member. So the Lumbees have been known throughout Indian 
country for generations.
    Now, this past February I was asked to facilitate 
government-to-government discussions between the Lumbee Tribal 
Council and other Indian tribes across and throughout Indian 
country. I understand that there have been opposing points made 
by certain other tribes, and I know at least today the 
Cherokee, the Eastern Band Cherokee, are present, and I have 
great respect for Eastern Band. I have visited Eastern Band 
several times and have friends there as well. The Virginia 
tribes are here and other Indian tribes across the country are 
here.
    So the line that I walk is a delicate line because I have 
friends and relatives on both sides of this matter. So out of 
respect for everybody, I will move forward with what I have to 
say.
    Those opposing points, as I have reviewed them, as I 
understand them, and I don't think there are that many. I 
believe that with a review of the facts most of those opposing 
points are diminished, are removed. If not, they are mitigated 
to a point where any opposition is minimal. The effect of 
recognizing the Lumbee becomes very minimal if the full facts 
are reviewed, because, as I understand some of the opposing 
points, they are based on inaccurate information or incomplete 
information.
    I believe that the intertribal discussions that will occur 
throughout this process will help the Lumbee Tribal Council 
communicate with other tribes throughout the country in a way 
that they have an opportunity to state the facts of their case. 
I obviously agreed to assist, and I have been researching prior 
testimonies of Lumbee recognition bills, studying Lumbee 
history.
    I recently spent four days in Robeson County, Lumbee 
homeland, to observe firsthand and to speak to members of the 
Lumbee community. During this four day visit I met the Tribal 
Council, administrative staff, elders, veterans, ministers, 
elementary and high school students and community members 
generally. We stopped during this tour at Prospect Church, 
where a group of approximately 20 ministers were having lunch, 
having a lunch meeting, making plans for a tribal wide revival 
for all the churches.
    I have to say and emphasize I have never seen so many 
religious leaders per capita in any community I have ever 
visited. I couldn't get over that. But there was another 
interesting thing that I recognized is that those leaders were 
also members of the Tribal Council, business owners, educators 
and other administrative. They were family leaders and vice 
verse. As it turned out, the person who was chauffeuring me 
around this tour was on his last stages of becoming one of the 
religious leaders in the community. There were hundreds of 
them.
    I think that one of the other great leaders we probably all 
know or have heard of from the Standing Rock Sioux. His name 
was Dr. Vine Deloria. He said it best when he said in one of 
his prior testimonies on behalf of Lumbee Federal recognition 
what he observed was this: A traditional Indian community more 
closely resembles what we find in Robeson County among the 
Lumbees. Large, extended families who exert social and 
political control over family members and who see their family 
as part of an extended people.
    Our tour there in Robeson County also included a historic 
overview of the Lumbee and a presentation from the legal staff 
that had charted Lumbee family genealogy from the mid 1700s to 
present day.
    A visit to one of the elementary schools and a high school 
gave me the opportunity to see the Lumbee students in their 
studies in the classroom, to see the young students as the 
teacher gave them the signal to return from the playground as 
they came running back, flush faced and ready to hit the books 
again. It is the same picture that I observed in Oneida and in 
many other--I should say any other--tribal school setting 
throughout Indian Country.
    At the conclusion of my visit to Robeson County, the 
supportive testimony that I had read previously was made even 
more clear and convincing to me now. What I saw while visiting 
Lumbee brought to mind things I see in every Indian community, 
and, like in other Indian communities, there are settlements 
within the Lumbee community that are large, extended families.
    Like in other Indian communities, there is broad knowledge 
among members of the Lumbee tribe about their genealogies, 
their family connections and their history. I heard these 
discussions among the Lumbee people, young and old, over and 
over again every place that we went.
    Finally, as in other Indian communities, there are famous 
former leaders who everybody knows and who everybody admires. 
Among the Lumbees, in my mind, was this individual named Henry 
Berry Lowry.
    For these reasons that I have stated, there was no doubt in 
my mind that I was in Indian Country when I was among the 
Lumbee.
    Now, while I can't speak on behalf of Indian Country on 
this matter, my outreach and informal discussions that I have 
had with tribal leaders from different parts of the country 
suggest there is significant support for the Federal 
recognition of the Lumbee. Many supporters are willing to 
commit their support to writing. Some are quietly supporting. 
Even some that I have talked to who I knew had opposed when I 
explained the facts as I understood them I could see them 
rethinking their position.
    To my understanding, I think there are only a few points of 
contention. I believe a visit to Lumbee territory will convince 
any open-minded person that those points of contention are 
based on myth and not actual reality.
    Today the United States recognize, as has been previously 
testified this morning, more than 560 Indian tribes, and each 
of those tribes have their own story of relations with the 
United States of land loss, of treaty violations, of 
discrimination and of the struggle to survive. I have learned 
that the Lumbee history is very much like that of other tribes, 
of land loss, of discrimination and of a struggle to maintain 
their independence.
    The Lumbee have survived. Even without Federal recognition 
they have survived. That said speaks volumes in my mind to the 
governmental affairs that exist, however the design is, in 
Robeson County. So there is really no excuse for not treating 
the Lumbee Tribe like every other tribe in the country, and I 
believe H.R. 31 would do just that.
    Chairman Rahall, Members of the Committee, thank you for 
treating this bill with the urgency that you have. Congressman 
McIntyre and co-sponsors of this bill, thank you for 
introducing this bill. Ya wago.
    [The prepared statement of Mr. Danforth follows:]

 Statement of Gerald L. Danforth, Tribal Member and retired Chairman, 
            Oneida Tribe of Indians of Wisconsin, on H.R. 31

    My name is Gerald L Danforth and I'm an enrolled member of the 
Oneida Tribe of Indians of Wisconsin. I served two terms as Oneida 
Tribal Chairman; I retired from that office in 2008. Before that, I had 
served four years as a Judicial Officer of the Oneida Appeals 
Commission. I am also a veteran of thirty years in the United States 
Navy. I retired from the Navy as Force Master Chief, the highest rank, 
and one of only twelve, open to enlisted personnel.
    It is an honor to be here today to testify before the U.S. House 
Resources Committee in support of H.R. 31, a bill to provide for the 
federal recognition of the Lumbee Tribe of North Carolina.
    I first met Lumbee Indians while serving in the Navy, stationed in 
Charleston, South Carolina in 1967. During my naval career I served 
with Lumbee Indians from time-to-time, and later in my career I became 
good friends with Master Chief David Locklear, whom I knew to be a 
Lumbee Indian. I didn't realize then that the Lumbees were state 
recognized, but not a federally recognized tribe. In the years since 
however, while serving as Oneida Tribal Chairman, I became much more 
knowledgeable about the Lumbee Tribe and of its many attempts to become 
a federally recognized tribe.
    I also came to know several Lumbees during my years of work in 
Indian country. The Lumbee Tribe's attorney, Arlinda Locklear, is also 
the Oneida Tribe's attorney in its land claims in New York. Other 
Lumbees work in Indian country in other ways--as doctors, educators, 
and in federal agencies that provides services to Indian people. The 
Indian Claims Commission had a Lumbee who served as commissioner. And 
the American Indian Policy Review Commission had a Lumbee commissioner 
and a Lumbee attorney as a task force member. So the Lumbees have been 
known throughout Indian country for generations.
    This past February, I was asked to assist with facilitating 
government-to-government discussions between the Lumbee Tribal Council 
and other tribal leaders, pertaining to the Lumbee federal recognition. 
I understand that there have been opposing points made by certain 
tribes with regard to past Lumbee recognition bills for one reason or 
another. I believe however, the majority of those opposing points are 
based upon inaccurate or incomplete information. I find that a review 
of the facts and ``the will to do what is right'' can resolve, and if 
not, can certainly mitigate any seemingly negative effects the bill may 
have on other tribes. With that in mind, I anticipate these inter-
tribal discussions will continue concurrently during this legislative 
session.
    I obviously agreed to assist, and I've been researching prior 
testimonies of Lumbee recognition bills, studying Lumbee History, and I 
recently spent four days in Robeson County, Lumbee homeland, to observe 
first hand, and speak to members of the Lumbee Tribe.
    During this four day visit I met the tribal council members, 
administrative staff, elders, veterans, ministers, elementary and high 
school students, and community members. I was invited to sit in on a 
tribal council session--there are twenty-one council members, and 
believe me, their debate mirrored that of the Oneida Council debates--I 
felt right at home, and was pleased that I didn't have to Chair the 
meeting.
    In route to one of the Lumbee elementary schools, we made an 
unplanned stop at Prospect Church, where a group of approximately 
twenty ministers were having a lunch meeting to plan for a tribal wide 
revival for all the churches. I have never seen as many religious 
leaders per capita in any other community. Most interesting to me was 
that it appeared that ministers were also business owners, tribal 
government officials, tribal administrative staff persons, and family 
leaders and vice-verse (later, several Lumbee officials would 
corroborate this observation). Vine Deloria Jr. probably said it best 
in his testimony in support of a prior Lumbee federal recognition bill, 
``A traditional Indian community more closely resembles what we find in 
Robeson County among the Lumbees, large extended families who exert 
social and political control over family members, and who see their 
family as a part of an extended people.''
    The tour also included a historic overview of the Lumbee and a 
presentation from the legal staff that had charted Lumbee family 
genealogy from the mid-seventeen hundreds to present day. A visit to 
one of the elementary schools and a high school gave me the opportunity 
to see the Lumbee students in their classroom studies and flushed-faced 
as they ran toward their teachers signal to return from the playground. 
I would have seen the same faces at any tribal school throughout the 
country.
    At the conclusion of my visit to Robeson County, the supportive 
testimony I had read was made even more clear and convincing to me now.
    What I saw while visiting the Lumbee community brought to mind 
things I see in every Indian community I visit. Like in other Indian 
communities, there are settlements within the Lumbee community that are 
large, extended families. As Dr. Deloria observed, this is the 
traditional way Indian people live and govern themselves. That is 
certainly the case within the Lumbee Tribe. Like in other Indian 
communities, there is broad knowledge among members in the Lumbee Tribe 
about their genealogies, family connections, and history. I heard these 
same discussions among Lumbee people, young and old, wherever I went in 
their community. Like in other Indian communities, there is little to 
no separation between business-social affairs and political affairs. I 
heard the same names over and over again while visiting the Lumbee 
community, whether the discussion was business, church affairs, tribal 
recognition, or politics in general. This is typical in Indian 
communities. Finally, like in other Indian communities, there are 
famous former leaders who stand out, who everyone knows, and who 
everyone admires. The one who stands out in my mind among the Lumbees 
is Henry Berry Lowrie. For all these reasons, there was no doubt in 
mind that I was in an Indian community while I was among the Lumbee.
    While I can't speak on behalf of Indian country on this matter, my 
outreach and informal discussions with tribal leaders from different 
parts of Indian country suggest that there is significant support for 
federal recognition of the Lumbee. Many supporters will commit their 
support to writing, while others, for their own reasons, are quietly 
supporting. Even some of those who have opposed prior Lumbee 
recognition bills, when given the facts surrounding the points of 
contention, seem to be re-thinking their position. To my understanding, 
there really are only a few points of contention. And a visit to the 
Lumbee territory will convince any open minded person that those points 
of contention are based on myth, not reality.
    Today, the United States recognizes more than 560 Indian tribes. 
Each of those tribes has its own story of relations with the United 
States--of land loss, of treaty violations, of discrimination, of 
struggle to survive. I have learned that the Lumbee history is very 
like that of other tribes--of land loss, of discrimination, of struggle 
to maintain their independence. And the Lumbee have done survived this 
without federal recognition. There really is no excuse for not treating 
the Lumbee Tribe like every other tribe in the country.
    To conclude, the Lumbee Indians have been steadfast in their 
determination to receive federal recognition longer than any other 
Indian tribe that I am aware of--more than one-hundred years! They have 
suffered discrimination to a degree far worse than one can imagine.
    Today's Lumbee youth should not have to graduate from their 
classroom only to discover a world of social and political injustice, 
caused in large part by a precarious and unfair situation that denies 
them to proclaim themselves fully as Indian--equal to other Indians, 
with fair and equal treatment. It is time now to correct this problem.
    Chairman Rahall, and Members of the Committee, thank you for 
treating this bill with the urgency that you have. Congressman McIntyre 
and Cosponsors, thank you for introducing this bill.
    I'd be happy to answer any questions you may have.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Locklear?

  STATEMENT OF ARLINDA F. LOCKLEAR, ESQUIRE, ATTORNEY FOR THE 
        LUMBEE TRIBE OF NORTH CAROLINA, WASHINGTON, D.C.

    Ms. Locklear. Thank you, Mr. Chairman, Mr. Vice Chairman 
and Members of the Committee. I appreciate the opportunity to 
testify today.
    I have submitted a written statement for the record, so at 
this point in the proceeding I will just summarize a few of the 
more important points as the record has developed at this 
hearing.
    First of all, I think it is safe to say that we could not 
possibly overstate the level of frustration that the Lumbee 
Tribe experiences when they hear the refrain the tribe is 
attempting to bypass the process by which they would be 
studied. That simply belies the history of the 120 year effort 
that the Lumbee people have undertaken.
    Some context in that regard is necessary. The Lumbee Tribe 
first made its request for recognition to Congress in 1888. It 
did so in the form of a petition that, as you heard from the 
Chairman, his great, great grandfather also co-signed, 
addressed to the Congress, directly seeking assistance to 
provide funding from the Federal Indian Education Grant to the 
Indian school that had just been created by the State of North 
Carolina for the tribe. The school was created by the state, 
but it was badly funded and the tribe needed assistance to 
maintain its separate school system.
    That petition was referred to the Department of the 
Interior. In 1890, the Department of the Interior responded in 
a letter directly to the tribe essentially apologizing, saying 
we understand the need, but we have too few funds to provide 
services for those presently recognized, so we are not able to 
help you.
    Starting in 1899, as a result of that initial failure, the 
tribe sought direct recognition by Congress in a series of 
special legislation. Between 1899 and 1936, there were roughly 
a dozen bills introduced in Congress to achieve that purpose.
    Now, it is important to note that each of those bills 
followed on the heels of and in most cases were identical to 
the language of the most recent state legislation that had just 
recognized the tribe. That is an important point of history as 
we go forward, particularly as we look at the 1956 Act.
    All of those bills failed, though, again mostly because of 
the cost of services. However, here is the important point 
about process. In response to those bills, and often times at 
the direction of Congress itself, the Bureau of Indian Affairs 
dispatched a series of its own experts to study the tribe, its 
community and its history. They began in 1912; the last one, as 
you saw from the list that the Chairman provided, in 1937.
    Just one of those I would like to highlight for the 
Committee's consideration. In 1914, at the direction of 
Congress, the Bureau of Indian Affairs dispatched a special 
Indian agent, one of their own experts, to Robeson County to 
study the tribe and examine its history. As a result, in 1914, 
Special Agent McPherson submitted a 252 page report to Congress 
which addressed those exact criteria, the condition of the 
community itself and an exhaustive review--his words--of the 
history of the tribe. That is process.
    Mr. McPherson concluded in his report to Congress that 
these are indeed Indian people descended from the Cheraw and 
related coastal tribes from North Carolina, that they exhibited 
a strong interconnected community, and he saw clear evidence of 
political leadership from their ability to mobilize thousands 
of members at the drop of a hat for the request of a beating.
    Those are the criteria that establish an Indian tribe. 
Those criteria were examined in 1912, and they were found to 
exist. However, once again, largely because of the cost of 
services, the Department opposed the bill. That is only one 
example. It was done time and time again.
    One other example that I will cite briefly was a 1934 
statement by the Department of the Interior to Congress itself 
in response again to one of the bills to recognize the tribe.
    The Department reviewed the history of its own studies, of 
its own experts I remind you, and concluded that these folks, 
these Indian people in Robeson County, again descended for the 
Cheraw and related Siouan speaking tribes, clearly existed as a 
community and clearly showed evidence of leadership, but again 
opposed recognition.
    That goes to the process issue. The tribe has been 
processed since 1888, and it is very frustrating to be told 
that now there is a new process and it should be processed once 
again.
    The second point that we think is important for 
consideration on this bill goes to the final Act that Congress 
did pass with regard to the Lumbee, and that was the 1956 Act 
of Congress. Finally, in response to this long series of Acts, 
the Congress did act in 1956. However, as you well know, Mr. 
Chairman and Mr. Vice Chairman, that was the height of the 
termination era of Federal Indian policy.
    The Congress was getting out of Indian business at the 
time, not looking for more tribes to bring under Federal 
jurisdiction. So even though the bill that was introduced 
verbatim again to the most recent state bill to recognize the 
tribe, intended to recognize the tribe, it was amended before 
enactment to include classic termination language. So Congress 
did a very odd thing in 1956. It recognized on the one hand and 
simultaneously terminated on the other.
    The third important point with regard to the need for 
special legislation here is that Congress has done this to only 
two other tribes in the history of Federal Indian policy; that 
is, recognize and terminate at exactly the same point in time.
    The closest analogy is Ysleta del Sur Pueblo of Texas. In 
1968, Congress passed an Act which, according to its 
legislative history, was modeled on the 1956 Lumbee Act. It did 
the same thing for the Tiwas, as they were called at the time, 
that the Congress had done to the Lumbees. They were a long-
time state recognize tribe. The Congress acknowledged them as 
Indians and at the same time terminated them.
    The Department concluded that because of the 1968 Tiwa Act 
they were not eligible for the process, and the Department in 
1987 expressed no opposition to recognition of that tribe by 
legislation, and indeed that year Congress did recognize that 
tribe.
    So what Mr. McIntyre proposes in his bill is not a new 
model. It is not a new mold. It is following through on 
Congress' own precedent for dealing with this very small group 
of tribes in this very peculiar situation. The Lumbee Tribe is 
the last of those.
    So by passing Mr. McIntyre's bill you bring to close and 
finally repudiate all vestiges of the termination policy. You 
do not open the floodgate that other tribes can walk through 
because there are none others left.
    Finally, if I may very briefly comment on a couple of the 
proposed amendments that were suggested by the Department of 
the Interior? It is correct that Mr. McIntyre's bill, the 
language with regard to the land in the trust provision was 
written before the Supreme Court's recent decision last month 
in the Carcieri case that the Department witnesses referred to.
    We have examined that language. We think that the language 
probably is sufficient for purposes of Carcieri, and here is 
why. The language of the bill, H.R. 31, specifically does 
provide that fee land located in Robeson County for which the 
tribe may submit applications under Part 151 will be treated as 
on-reservation applications for that purpose.
    If you look at the language of Part 151 of the regulation, 
those regulations specifically cite the Indian Reorganization 
Act, Sec. 465, as the authority for those regulations, so by 
that relation back in effect the Congress is saying that the 
Department has authority under Sec. 465 to process applications 
for the Lumbee Tribe, and that is the precise issue that was 
raised in Carcieri.
    We would agree, though, that it needs to be perfectly 
clear, perhaps through a combination of legislative history 
language and maybe even some minor amendment to the language 
itself. We could make sure that there is no question in that 
regard.
    Finally with respect to the point of the verification of 
the tribal role. Last Congress, the Committee had before it 
H.R. 65. H.R. 65 provided in its recognition of the tribe a 
provision that authorized the Secretary to verify the roll and 
provided a 12-month period for that verification to take place.
    In its testimony then, last Congress on the bill, the 
Department again raised the question of what does verification 
mean and is 12 months sufficient time. In response to that 
testimony from the Administration, this Committee at its markup 
on the bill did make changes in the bill to accommodate those 
concerns.
    It expanded the period from 12 months to 24 months, and it 
included language in the bill which specifically advised what 
the purpose of the verification was, and that language says 
that the Secretary's verification shall be limited to 
confirming compliance with the membership criteria set out in 
the tribe's own constitution.
    That language is in the bill now. That language is in H.R. 
31 because H.R. 31 is identical to the bill that was reported 
out of Committee last Congress, so we believe that those 
concerns by the Administration have been addressed.
    Thank you, Mr. Chairman, and again we appreciate your 
support and your leadership and also our dear friend, 
Congressman McIntyre. We look forward to the movement of the 
bill.
    [The prepared statement of Ms. Locklear follows:]

          Statement of Arlinda F. Locklear, Esquire, Attorney 
           for the Lumbee Tribe of North Carolina, on H.R. 31

    It is my privilege to make this statement as counsel for the Lumbee 
Tribe of North Carolina in support of H.R.31, a bill to extend full 
federal recognition to the Tribe. I am special counsel to the Tribe on 
the recognition effort. I am also an enrolled member of the Tribe.
The hundred year legislative record on Lumbee recognition
    In one form or another, Congress has deliberated on the status of 
the Lumbee Tribe of North Carolina for more than one hundred years. On 
numerous occasions during that time, Congress has itself or directed 
the Department of the Interior to investigate the Tribe's history and 
conditions. On all such occasions, the Tribe's Indian identity and 
strong community have been underscored.
    Congress' first experience with the Tribe followed shortly upon the 
heels of formal recognition of the Tribe by the State of North Carolina 
in 1885. The 1885 state statute formally recognized the Tribe under the 
name Croatan Indians of Robeson County, authorized the Tribe to 
establish separate schools for its children, provided a pro rata share 
of county school funds for the Tribe's schools, and authorized the 
Tribe to control hiring for the schools and eligibility to attend the 
schools. See North Carolina General Assembly 1885, chap. 51. Two years 
later, tribal leaders sought and obtained state legislation 
establishing an Indian normal school, one dedicated to training Indian 
teachers for the Indian schools. See North Carolina General Assembly 
1887, chap. 254. The Indian Normal School was badly underfunded, 
though, leading to the Tribe's first petition to Congress for 
recognition and assistance in 1888.
    The 1888 petition to Congress was signed by fifty-four (54) tribal 
leaders, including all members of the Indian Normal School Board of 
Trustees. All the traditional Lumbee surnames are represented in the 
list of signatories--Sampson, Chavis, Dial, Locklear, Oxendine, and 
others--and descendants of these signatories are active today in the 
tribal government. The petition sought federal assistance for the then 
named Croatan Indians in general and funding for the Tribe's schools in 
particular. Congress referred the petition to the Department of the 
Interior, which investigated the Tribe's history and relations with the 
state. The Commissioner of Indian Affairs ultimately denied the request 
for funding, citing insufficient resources.
    After the failure of the 1888 petition to Congress, the Tribe 
sought recognition more directly through proposed federal bills. In 
1899, the first bill was introduced in Congress to appropriate funds to 
educate the Croatan Indian children. See H.R.4009, 56th Cong., 1st 
Sess. Similar bills were introduced in 1910 (See H.R.19036, 61st Cong., 
2d Sess.) and 1911 (See S.3258, 62nd Cong., 1st Sess.) In 1913, the 
House of Representatives Committee on Indian Affairs held a hearing on 
S.3258 where the Senate sponsor of the bill reviewed the history of the 
Lumbees and concluded that the Lumbees, then called Croatans, had 
``maintained their race integrity and their tribal characteristics;'' 
See Hearings before the Committee on Indian Affairs, House of 
Representatives on S.3258, Feb. 14, 1913. In response to the same bill, 
the Department of the Interior dispatched C.F. Pierce, Supervisor of 
Indian Schools, to conduct an investigation of the Croatan Indians. 
Pierce reviewed the Tribe's history, acknowledged their Indian ancestry 
and the strength of their community, but recommended against federal 
assistance for the Tribe:
        It is the avowed policy of the Government to require the states 
        having an Indian population to assume the burden & 
        responsibility for their education as soon as possible. North 
        Carolina, like the State of New York, has a well organized plan 
        for the education of Indians within her borders, and I can see 
        no justification for any interference or aid, on the part of 
        the Government in either case. Should an appropriation be made 
        for the Croatans, it would establish a precedent for the 
        Catawbas of S.C., the Alabamas of Texas, the Tuscaroras of 
        N.Y., as well as for other scattering tribes that are now cared 
        for by the various states.
Those other tribes mentioned by Pierce have since been recognized by 
the United States.
    In 1914, the Senate directed the Secretary of the Interior to 
investigate the condition and tribal rights of the Lumbee Indians and 
report to Congress thereon. See S.Res.410, 63rd Cong., 2d Sess. The 
Secretary assigned Special Indian Agent O.M. McPherson to conduct the 
investigation. According to the Secretary's letter to the President of 
the Senate transmitting the McPherson report, McPherson conducted ``a 
careful investigation on the ground as well as extensive historical 
research.'' The report covered all aspects of the Tribe's history and 
condition, running 252 pages in length. See Indians of North Carolina, 
63rd Cong., 3d Session, Doc. No. 677. McPherson's report again 
confirmed the tribal characteristics of the Lumbee Indians, but 
Congress took no action on the McPherson report.
    In 1924, yet another bill was introduced in Congress to recognize 
the Lumbee Indians as Cherokee Indians of Robeson County. See H.R.8083, 
68th Cong., 1st Sess. This bill failed and in 1932 a very nearly 
identical bill was introduced in the Senate. See S.4595, 72d Cong., 1st 
Sess. This bill failed as well.
    The next federal bill was introduced in 1933 and was nearly 
identical to the prior two bills, except that it directed that the 
Croatan Indians ``shall hereafter be designated Cheraw Indians and 
shall be recognized and enrolled as such...'' H.R.5365, 73d Cong., 1st 
Sess. In his statement at the hearing on the bill, the Secretary of the 
Interior attached an opinion of John Swanton, a well-respected 
specialist on southeastern Indians with the Smithsonian Institution, 
which concluded that the previously named Croatan Indians actually 
descended from Cheraw and other related tribes. The Secretary 
recommended that the United States recognize the Tribe as the Siouan 
Indians of Lumber River, but also that the Congress include termination 
language because of the expense of providing federal Indian services to 
the Indians. Rep.No.1752, House of Representatives, 73d Cong., 2d Sess. 
The committee adopted the change proposed by the Secretary and reported 
the bill out favorably, but the bill was not enacted. The following 
year, the Senate Committee on Indian Affairs took the same action on 
the identical bill in the Senate, S.1632, but the Senate floor also did 
not act on the bill. See Rep.No.204, Senate, 73d Cong., 2d Sess.
    These numerous federal bills to recognize the Tribe under various 
names have a common and clear legislative history--that is, state 
statutes that modified the name by which the State of North Carolina 
recognized the Tribe. The 1899 federal bill would have recognized the 
Tribe as Croatan, just as the State had done in 1885. The 1911 federal 
bill would have recognized the Tribe as the Indians of Robeson County, 
just as the State had done in a 1911 amendment to state law. See North 
Carolina General Assembly 1911, chap. 215. The 1913 federal bill would 
have recognized the Tribe as Cherokee, just as the State had done in a 
1913 amendment to state law. See North Carolina General Assembly 1913, 
chap. 123. Indeed, a committee report on the 1913 federal bill 
explicitly acknowledged that the federal bill was intended to extend 
federal recognition on the same terms as the amended state law. 
Rep.No.826, House of Representatives, 68th Cong., 1st Sess.; see also 
S.4595, 72d Cong., 1st Sess. [1932 bill which referred to the 1913 
state statute as its antecedent.] Thus, Congress consistently followed 
the lead of North Carolina in its deliberations on the Tribe's status 
and did so in finally enacting a federal bill in 1956. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ In between the 1933 bill and the 1956 Lumbee Act, the Tribe 
attempted to obtain federal recognition through an earlier 
administrative process. Congress enacted the Indian Reorganization Act 
in 1934, which authorized half-blood Indians not then recognized to 
organize and adopt a tribal constitution, thereby becoming federally 
recognized. The Lumbee leadership wrote to the Commissioner of Indian 
Affairs, inquiring whether the act applied to the Lumbees. The inquiry 
was referred to Associate Solicitor Felix Cohen, the well known author 
of the foremost treatise on Indian law, the Handbook of Federal Indian 
Law. Cohen concluded that the Lumbees could organize under the act, if 
some members certified as one-half Indian blood or more and the 
Department approved a tribal constitution. The Tribe immediately asked 
the Department to make that inquiry and the Department dispatched Dr. 
Carl Seltzer, a physical anthropologist, for that purpose. 
Approximately 200 Lumbees agreed to submit to Dr. Seltzer's 
examination; interviews of these individuals were conducted as well as 
physical examinations. Dr. Seltzer certified 22 out of the 200 tribal 
members as one-half or more Indian blood, eligible to organize under 
the act. However, this effort also failed ultimately.
---------------------------------------------------------------------------
Legislative history of the 1956 Lumbee Act
    In light of the mounting historical evidence compiled in Congress' 
deliberations on its recognition bills, including the McPherson Report 
and the Swanton opinion, the Indians of Robeson County grew 
dissatisfied with their designation under state law as Cherokee. Under 
pressure from the Tribe and after a referendum among tribal members, 
the State of North Carolina once again modified its recognition of the 
Tribe in 1953, renaming it Lumbee. North Carolina General Assembly 
1953, chap. 874. Two years later, a bill identical to that one enacted 
by the state was introduced in Congress. See H.R.4656, 84th` Cong., 2d 
Sess.
    The federal bill passed without amendment in the House of 
Representatives and was sent to the Senate. The Department of the 
Interior objected to the bill in the Senate, just as it had done in the 
House, but with more success. The Secretary noted that the United 
States had no treaty or other obligation to provide services to these 
Indians and said:
        We are therefore unable to recommend that the Congress take any 
        action which might ultimately result in the imposition of 
        additional obligations on the Federal Government or in placing 
        additional persons of Indian blood under the jurisdiction of 
        this Department. The persons who constitute this group of 
        Indians have been recognized and designated as Indians by the 
        State legislature. If they are not completely satisfied with 
        such recognition, they, as citizens of the State, may petition 
        the legislature to amend or otherwise to change that 
        recognition....If your committee should recommend the enactment 
        of the bill, it should be amended to indicate clearly that is 
        does not make these persons eligible for services provided 
        through the Bureau of Indian Affairs to other Indians.
The Senate committee adopted the Secretary's recommendation and, when 
the bill was enacted into law, it contained classic termination 
language: ``Nothing in this Act shall make such Indians eligible for 
any services performed by the United States for Indians because of 
their status as Indians, and none of the statutes of the United States 
which affect Indians because of their status as Indian shall be 
applicable to the Lumbee Indians.'' Pub.L.570, Act of June 7, 1956, 70 
Stat. 254.
    Clearly, the 1956 Lumbee Act was intended to achieve federal 
recognition for the Tribe. The House sponsor for the bill wrote to 
Senator Scott, seeking his support for the bill, and noted that the 
bill was copied from the recent state law by which the State of North 
Carolina recognized the Lumbee Tribe. Senator Scott, who agreed to 
sponsor the bill in the Senate, issued a press release describing the 
bill as one to give federal recognition to the Lumbee Indians of North 
Carolina on the same terms that the State of North Carolina had 
recognized the Tribe in 1953. Senator Scott testified before a Senate 
committee that, ``The State of North Carolina has already by state law 
recognized the Lumbee Indians under that tribal name. Giving official 
recognition to the Lumbee Indians means a great deal to the 4,000 
Indians involved.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ The tribal population figure given by Senator Scott in his 
statement was repeated in the House and Senate reports on the bill. See 
H.Rep.No.1654, 84th Cong., 2d sess; S.Rep.No.84-2012, 84th Cong., 2d 
sess. The figure was erroneous. According to a correction to the figure 
published in contemporaneous newspaper accounts of the statement, the 
Senator intended to refer to 4,000 Indian families, not 4,000 
individual Indians. The total tribal population in 1956 was set in this 
account at 27,726. This account is consistent with 1950 federal census 
data.
---------------------------------------------------------------------------
    There are also excerpts from the legislative history of the 1956 
act suggesting that Congress did not intend to make the Tribe eligible 
for federal services, even without the amendment proposed by the 
Secretary of the Interior. For example, in a colloquy on the House 
floor, the House sponsor Mr. Carlyle was asked whether the bill would 
commit the United States to furnishing tribal services. Mr. Carlyle 
responded in the negative. Congressman Ford then stated that, ``[i]t 
simply provides for the change of name,'' and Mr. Carlyle agreed. 102 
Cong. Rec. 2900 (May 21, 1955). <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Because of the history of relations with the State, in which 
the recognized tribal name was changed several times over the years, 
the Tribe viewed the ``giving of a name'' as recognition. Even today, 
tribal members who inquire about the status of the pending bill will 
sometimes ask when Congress will give the Tribe its name.
---------------------------------------------------------------------------
    The eligibility for federal services, though, is not determinative 
of whether federal recognition has been bestowed. While federal 
recognition and eligibility for federal services are often viewed as 
interchangeable, they are not under federal law. The Department of the 
Interior has itself made this clear in the context of Congress' 
deliberations in 1977 on legislation to restore the previously 
recognized Siletz Tribe. In its comments on the bill, the Department 
recommended that the language in the bill restoring ``federal 
recognition'' be replaced with language restoring ``the federal trust 
relationship.'' The Department explained the reason for this proposed 
change as follows:
        Section 3(a) states: ``Federal recognition is hereby extended 
        to the tribe.'' This suggests that the Siletz Indians are not 
        now federally recognized. This is not the case; they are 
        recognized. The termination act simply dissolved the special 
        relationship between the Siletz Indians and the Federal 
        Government and terminated any federal services and supervision. 
        See 25 U.S.C. Sec. 691. Federal recognition and federal 
        services are often confused and erroneously used 
        interchangeably. Because of the close connection between 
        federal recognition and the provision of federal services, 
        etc., the error is understandable, but nonetheless federal 
        recognition and federal services are not synonymous and should 
        not be used interchangeably. In lieu of the above quoted 
        language, we would substitute the following: ``The trust 
        relationship between the Federal government and the Siletz 
        Indians is hereby restored.''
See 1977 U.S. Code Cong. And Admin. News, p. 3700. The 1956 Lumbee Act 
should be similarly construed to recognize the Tribe, even though there 
was no clear intent to provide federal Indian services. As the Siletz 
legislative history shows, a tribe can be recognized but yet have no 
trust relationship with the United States or eligibility for federal 
services. Construed thusly, the 1956 Lumbee Act simultaneously 
recognized and terminated the Tribe.
Administrative and judicial interpretation of the 1956 Lumbee Act
    Since 1956, federal agencies and courts have reached varying 
conclusions regarding the effect of the 1956 Lumbee Act. In 1970, the 
Joint Economic Committee of Congress described the Lumbee as having 
been officially recognized by the act, although not granted federal 
services. See ``American Indians: Facts and Future,'' Toward Economic 
Development for Native American Communities, p. 34 (GPO 1970). Also in 
1970, the Legislative Reference Service of the Library of Congress 
described the 1956 Lumbee Act as legislative recognition of an Indian 
people. See Memorandum, April 10, 1970, on Extending Federal 
Jurisdiction and Services to Hill 57 Indians, LRS, Library of Congress. 
And in 1979, the Comptroller General ruled that the 1956 act left the 
Lumbees' status unchanged, i.e., it neither recognized the Tribe nor 
terminated the Tribe's eligibility for services it might otherwise 
receive. The one court to construe the statute concluded it was 
intended ``to designate this group of Indians as `Lumbee Indians' and 
recognize them as a specific group..,'' but not to take away any rights 
conferred on individuals by previous legislation. Maynor v. Morton, 510 
F.2d 1254, 1257-1258 (D.C. Cir. 1975) [holding that the so-called half-
bloods certified under the Indian Reorganization act were eligible to 
receive Bureau of Indian Affairs' services].
    The Congressional Research Service (CRS) thoroughly reviewed the 
history and various interpretations of the 1956 Lumbee Act in 1988. It 
did so in response to a request from the Senate Select Committee on 
Indian Affairs, which had under consideration at the time H.R. 1426, a 
bill to provide federal recognition to the Lumbee Tribe. The CRS 
concluded as follows:
        The 1956 Lumbee legislation clearly did not establish 
        entitlement of the Lumbee Indians for federal services. It also 
        clearly named the group and denominated them as Indians. 
        Without a court decision squarely confronting the issue of 
        whether the 1956 statute confers federal recognition on the 
        Lumbee, there is insufficient documentation to determine if the 
        statute effects federal recognition of the Lumbees. It is, 
        however, a step toward recognition and would be a factor that 
        either the Department of the Interior or a court would have to 
        weigh along with others to determine whether the Lumbees are 
        entitled to federal recognition.
Memorandum dated September 28, 1988, reprinted in S.Rep.No.100-579, 
100th Cong., 2d Sess. At a minimum, then, Congress took the first step 
toward recognizing the Lumbee Tribe in 1956.
    Whatever its ambiguity otherwise, the 1956 Lumbee Act indisputably 
makes the Lumbee Tribe ineligible for the administrative acknowledgment 
process. See 25 C.F.R. Part 83. Under the acknowledgment regulations, 
the Secretary of the Interior cannot acknowledge tribes that are 
subject to legislation terminating or forbidding the federal 
relationship. Id., Sec. 83.3(g). In a formal opinion issued on October 
23, 1989, the Solicitor for the Department of the Interior concluded 
that the 1956 Lumbee Act is such federal legislation and, as a result, 
the Department is precluded from considering any application of the 
Lumbee Tribe for federal acknowledgment.
    Thus, the Tribe continued its efforts to obtain full federal 
recognition from Congress. Companion bills were introduced in the 100th 
Congress for this purpose, H.R.5042 and S.2672. Hearings were held on 
the bills, once again establishing the Lumbee's tribal existence, and 
the Senate bill was reported favorably out of committee. Neither bill 
was enacted, however. Companion bills were introduced in the 101th 
Congress to recognize the Tribe [H.R.2335 and S.901], but neither was 
enacted. Once again in the 102d Congress, companion bills were 
introduced [H.R.1426 and S.1036]. This time, the House of 
Representatives passed the bill [with 240 yeas, 167 nays, and 25 not 
voting], but the Senate failed to invoke cloture on debate [with 58 
voting for and 39 voting against] and the bill failed. In the 103d 
Congress, H.R.334, a bill virtually identical to that passed in 1991, 
was introduced; the bill passed the House again but was never acted on 
in the Senate. Most recently, the 110th Congress considered similar 
bills, H.R. 65 and S. 660, to recognize the Lumbee Tribe. H.R. 65 
passed the House of Representatives by 256 voting for and 128 voting 
against passage. The House-passed bill was also reported out of the 
Senate Committee on Indian Affairs favorably but failed on the Senate 
floor.
    H.R.31 is identical to H.R.65, reported out favorably by this 
committee and passed by the House of Representatives last Congress.
Legislative precedent for the bill
    Only one other tribe in the history of federal Indian affairs has 
been placed by Congress in precisely the same position as the Lumbee 
Tribe, that is, half in and half out of the federal relationship, by 
special legislation. <SUP>4</SUP> In 1968, Congress enacted a special 
act regarding the Tiwas of Texas, 82 Stat. 93, one that was modeled on 
the 1956 Lumbee Act and left the Tiwas in the same legal limbo.
---------------------------------------------------------------------------
    \4\ There is a third tribe that was subject to similar 
legislation--the Pascua Yaquis of Arizona. In 1964, Congress passed a 
statute conveying federal land to the Pascua Yaqui Association, Inc., 
an Arizona corporation. See 78 Stat. 1195, Pub. L. 89-14. The final 
section of this statute, like the Lumbee and Tiwa acts, provided that 
the Yaqui Indians would not be eligible for federal Indian services and 
none of the federal Indian statutes would apply to them. Congress has 
since extended full federal recognition to the Pascua Yaqui. See 25 
U.S.C. Sec. 1300f. The position of the Pascua Yaqui was somewhat 
different from that of the Lumbees and Tiwas, since the earlier federal 
statute involved a state corporation and arguably would not have 
recognized a tribe, even without the termination language. Also, the 
Pascua Yaqui recognition legislation was enacted in 1978, before the 
administrative acknowledgment process was in place. Nonetheless, the 
Department proposed that Congress repeal the 1964 Pascua Yaqui bill and 
require that the Yaquis go through the soon to be established 
administrative acknowledgment process. See S.Rep.No. 95-719, 95th 
Cong., 2d Sess. 7, reprinted in 1978 U.S. Code Cong & Admin. News 1761, 
1766. Congress refused to do so and enacted the recognition 
legislation.
---------------------------------------------------------------------------
    Like the Lumbee Tribe, the Tiwas of Texas had been long recognized 
by the state. In the 1968 Tiwa Act, Congress designated and recognized 
the Indians as Tiwas, expressly terminated any federal trust 
relationship, and precluded the delivery of federal Indian services--
just as it had done in the 1956 Lumbee Act. In fact, the Senate 
committee specifically noted in its report on the 1968 Tiwa Act that 
the bill was ``modeled after the act of June 7, 1956 (70 Stat. 254), 
which relates to the Lumbee Indians of North Carolina.'' S.Rep.No.1070, 
99th Cong., 2d Sess. According to the Department of the Interior, this 
1968 Tiwa Act made the tribe ineligible for administrative 
acknowledgment, a decision that clearly presaged the Department's 
construction of the 1956 Lumbee Act in 1989. Because of this unique 
circumstance, the Department expressed no opposition to special 
legislation extending full recognition to the Tiwas of Texas. In 1987, 
Congress removed the Tiwas of Texas from the restrictions imposed upon 
them in the 1968 Tiwa Act. Congress enacted the Ysleta del Sur Pueblo 
Restoration Act, Pub.L. 100-89, Act of August 18, 1987, 101 Stat. 667, 
to restore the federal trust relationship with the Ysleta del Sur 
Pueblo of Texas, previously known as the Texas Tiwas. Just as the 1968 
Tiwa Act created a special circumstance justifying special legislation 
for that tribe, so does the 1956 Lumbee Act for the Lumbee Tribe.
    Further, just as it did for the Tiwas of Texas, the Congress should 
enact comprehensive legislation as proposed by the Lumbee Tribe, 
legislation that resolves all related issues--status, service delivery 
area, base roll, jurisdiction, etc. The Congress should not enact 
another half measure, one that repeals the 1956 Lumbee act and requires 
administrative action on the Tribe under the acknowledgment regulations 
for numerous reasons.
    First, as a matter of fundamental fairness, the Congress should 
deal with the Lumbee Tribe just as it has every other tribe in the same 
situation, that is, by enacting recognition legislation because the 
tribe is ineligible for the administrative process. Congress has never 
passed special legislation that would require administrative action on 
a tribe that is under present law ineligible for the administrative 
process. The Lumbee Tribe is the last tribe in the country left in that 
position. There is no legitimate reason to depart now from Congress' 
legislative tradition in such circumstances, particularly since to do 
so would impose a tremendous burden on the Tribe--first, obtaining the 
passage of special legislation amending the 1956 Lumbee act, and 
second, subjecting the Tribe to the intrusive, time consuming, and 
expensive administrative acknowledgment process.
    Second, there is no good purpose to be served by sending the Lumbee 
Tribe to the current administrative process. That process provides the 
Department an opportunity to examine a group's history and community to 
determine whether the group is, in fact, an Indian tribe. The 
Department of the Interior and the Congress have already made that 
inquiry with regard to the Lumbee Tribe on numerous occasions. In 
response to the Tribe's repeated requests to Congress and the 
Department for federal recognition, the Congress and the Department 
have compiled a voluminous record on the Tribe's history and community. 
Because that record plainly establishes the status of the Lumbee 
Indians as an Indian tribe, further study of the Tribe would be a 
considerable waste of time (indeterminate period before active 
consideration and between five and ten years time before final agency 
action) and substantial waste of tribal and federal resources (in the 
hundreds of thousands of dollars.)
    Third, despite some suggestion to the contrary by other witnesses, 
there is simply no magic to the current administrative acknowledgment 
process. That process is not the source of all knowledge or wisdom 
regarding the status of Indian tribes. To the contrary, the 
overwhelming majority of tribes now recognized by the United States 
were recognized by Congress. According to a GAO report, there were 561 
federally recognized Indian tribes as of November 2001. Of those, 530 
were recognized by Congress and 31 were recognized by the Department of 
the Interior. Out of the 31 recognized by the Department of the 
Interior, 10 were recognized before the 1978 regulations were adopted, 
14 were recognized after 1978 and under those regulations, and 7 were 
recognized after 1978 but without regard to the regulations. In short, 
there is no historical or other necessity for subjecting the Lumbee 
Tribe to the current administrative process.
    Fourth, given the hundred year history summarized above, the Lumbee 
Tribe has every reason to be skeptical of unbiased and even-handed 
treatment by the Department of the Interior. The Department has 
successfully blocked federal recognition of the Tribe for over one 
hundred years, both before Congress and administratively. It is simply 
not realistic to expect the Department now to do what it has never been 
able to do in the past--base its judgment about the Lumbee Tribe purely 
on the facts and not on fiscal or other considerations.
    Finally, because of a recent development in the law, the 
administrative process could not possible extend equal treatment to the 
Lumbee Tribe as a federally recognized tribe. On February 24, 2009, the 
Supreme Court announced its decision in Carcieri v. Salazar, Sl. Op. 
(No. 07-526). The Supreme Court held that the Secretary of the Interior 
lacked authority under the Indian Reorganization Act to take land into 
trust for tribes that were not, as of 1934, a ``recognized tribe now 
under Federal jurisdiction.'' In other words, if the Lumbee Tribe were 
relegated to the administrative process and even if the Tribe were 
ultimately successful there, the Secretary would not have authority to 
place land into trust for the Tribe. Once again, the Tribe would be 
treated as a second class tribe, without access to trust land and all 
the consequences and opportunities that flow from that status.
    For more than one hundred years now, the Lumbee Tribe has been 
studied and ``processed.'' The record produced by these studies, even 
those by the Department, consistently shows an independent Indian 
community descended from Cheraw and related Siouan speaking tribes that 
has existed from white contact until the present as a separate 
community with known and visible leaders. Under present law, the Lumbee 
Tribe can only be recognized by an act of Congress. Legislative 
precedent under these circumstances supports the enactment of H.R.65, 
comprehensive recognition legislation, not another half measure.
Major provisions of H.R.31
    Congressman McIntyre's bill is appropriately structured as an 
amendment to the 1956 Lumbee Act, thus allowing Congress to complete 
the task it began in 1956. Specifically, the bill provides for:
    <bullet>  explicit federal acknowledgment of the Tribe, including 
the application to the Tribe of all laws of the United States of 
general applicability to Indians and Indian tribes;
    <bullet>  the eligibility of the Tribe and its members for all 
programs, services, and benefits provided by the United States to 
Indian tribes and their members, such services to be provided in the 
Lumbees' traditional territory of Robeson, Cumberland, Hoke, and 
Scotland Counties, North Carolina;
    <bullet>  the determination of a service population, to be done by 
the Secretary of the Interior's verification that all enrolled members 
of the Tribe meet the Tribe's membership criteria;
    <bullet>  the direction that applications for trust status for fee 
lands located in Robeson County shall be treated as an on-reservation 
application, thereby solving the Carcieri problem;
    <bullet>  the prohibition of gaming activity under the Indian 
Gaming Regulatory Act or otherwise; and
    <bullet>  the granting of civil and criminal jurisdiction to the 
State of North Carolina regarding the Lumbee Tribe, to insure 
consistent and continuous administration of justice, until and unless 
the State of North Carolina, the Tribe, and the United States, agree to 
transfer any or all of that authority to the United States.
    These provisions address all aspects of a government-to-government 
relationship between the United States and the Lumbee Tribe. Enactment 
of H.R.31 would accomplish what the Lumbee Tribe has sought for one 
hundred and twenty years--full federal recognition.
Conclusion
    Congress and the Department of the Interior have over the last 
century repeatedly examined the Tribe's identity and history and have 
consistently found the Tribe to be an Indian community dating back to 
the time of first white contact. There is no need for further study of 
the Tribe's history. There is no need for another half measure by 
Congress. There is need for an act of Congress that comprehensively and 
once and for all addresses the status of the Lumbee Tribe and all 
related issues. On the Tribe's behalf, I urge the committee's favorable 
action on H.R.31.
                                 ______
                                 
    The Chairman. Ms. Rountree?

STATEMENT OF DR. HELEN C. ROUNTREE, PH.D., PROFESSOR EMERITA OF 
    ANTHROPOLOGY, OLD DOMINION UNIVERSITY, HAMPTON, VIRGINIA

    Ms. Rountree. Mr. Chairman, Members of the Committee and 
guests, it is my honor to speak on behalf of these Virginia 
Indian people with whom I have been working intensively since 
1969.
    I am Dr. Helen C. Rountree, Professor Emerita of 
Anthropology at Old Dominion University in Norfolk, Virginia. 
Having that university day job, so to speak, I have been able 
to do my research entirely as a volunteer. I am not a hired gun 
for the Indians I am testifying about today, and so far I have 
produced seven University Press books on them.
    The ancestors of the six tribes were native to Virginia 
when Jamestown was founded. All were signatories in 1677 to a 
treaty between the Virginia tribe and the King of England. 
However, subsequent records about them were limited for nearly 
two centuries. They became landless as non-Indian settlers 
poured in, and by Virginia custom, not law, landless Indian 
communities were considered to be outside the scope of the 
treaty. That eliminated colonial level loss records being made 
from them.
    The treaty itself was with the King of England and is now 
legally considered to be with the Commonwealth of Virginia, not 
the United States, and Virginia, remember, is not interested in 
landless tribes. These tribes therefore remained state Indians 
in a state that ignored them. They were considered citizens of 
their counties, but five of the six tribes lived in counties 
whose courthouses burned, mainly during the Civil War.
    When much more detailed U.S. Census records began to be 
made in 1850, these people appear as enclaves and, in some U.S. 
Censuses, specifically Indian ones. They are traceable as the 
ancestors of the six Virginia tribes before you today.
    The Office of Federal Acknowledgment just last year issued 
changes to try to speed up the Federal recognition process, but 
those changes do very little for the tribes of whom I speak. 
Most of the changes are for tribes with a treaty and/or IRA 
relationship with the Federal government, which these six 
tribes do not have for the reasons already given.
    The remaining change, moving up the starting date to 1789, 
does not do much for them either. Aside from the problems 
already mentioned with pre-Civil War records, there are 
additional problems with state and local records that make 
these Indian communities hard for a researcher like me to 
track. It is as if the ever-growing legend of Pocahontas, 
contrasted with the reality of 19th and 20th century Indian 
people, made my fellow Anglo-Virginians ever less tolerant of 
anything other than the legend.
    Beginning after the Civil War and culminating with 
Virginia's racial integrity law of 1924, Virginia became a 
state committed to the proposition that there were only two 
races, white and colored, leaving no room for Indians. Under 
the 1924 law, anyone insisting on an Indian identity on an 
official document could be sent to prison for a year. Several 
people--members of these six tribes--were in fact imprisoned 
for such insistence.
    The campaign to eliminate Indians from the state was headed 
by the state's Vital Statistics Bureau, which went so far as to 
issue a circular with suspicious families' names listed county 
by county with the demand that they be labeled colored. The 
families were referred to, and I quote, as ``these mongrels.''
    The circular was sent to all officials in charge of county 
records. This is in 1943, by the way, not 1924. All officials 
in charge of county records, all school superintendents and all 
state-licensed health personnel who signed off on birth and 
death certificates.
    It is no wonder that these Indian communities became much 
harder for researchers to find. Some of their members left the 
state, keeping up their ties to home, but returning only during 
the civil rights era when they no longer had to be, as one old-
timer said to me, scared like a rabbit.
    But the communities hung together and hung on, as the 
attached quick-reference chart will show. They still exist, and 
they still say, as they have said all along, that they are 
Indians, yet even now so thorough was the public relations 
campaign against them for decades that they meet skepticism on 
a daily basis.
    The tribes I speak for today consulted a BIA representative 
over a decade ago and were told that even if they submitted a 
petition forthwith, they would not see a decision ``in your 
lifetime,'' and this was said to people then in their forties.
    The six tribes are not merely being impatient in wanting to 
move faster than that. Their primary motive--this is my opinion 
here. Their primary motive for seeking Federal recognition is 
getting better access to health programs, which are badly 
needed by their elders now.
    Little schooling within Virginia was available to those 
people when they were young, if, that is, they wanted to remain 
Indians in the state. See the quick-reference chart which tells 
you when schools for Indians were finally set up. Therefore, 
their income level has suffered ever since, and in their old 
age they are hurting badly.
    The six tribes are not interested in remedying that fact 
through gaming. In fact, they have waived their rights to 
gaming if they are recognized. Instead, they hope to provide 
better conditions for their people through Federal Indian 
programs after recognition by the U.S. Congress.
    I have been able to document that these people are Indian 
tribes and that they have endured over three centuries of 
injustice, some of the worst of it and by far the most public 
of it being in the recent past. Without Federal recognition and 
the aid springing from it, the injustice is ongoing.
    I hope that you will accede to their request for 
acknowledgment. Thank you.
    [The prepared statement of Ms. Rountree follows:]

      Statement of Helen C. Rountree, Ph.D., Professor Emerita of 
        Anthropology, Old Dominion University, Norfolk, Virginia

    Mr. Chairman, members of the Committee, and guests: It is my honor 
to speak on behalf of these Virginia Indian people, with whom I have 
been working intensively since 1969. I am Dr. Helen C. Rountree, 
Professor Emerita of Anthropology at Old Dominion University in 
Norfolk, Virginia. Having that university ``day job,'' so to speak, I 
have been able to do my research entirely as a volunteer; I am not a 
``hired gun'' for the Indians I am testifying about today. And so far I 
have produced seven university press books on them.
    The ancestors of the six tribes were native to Virginia when 
Jamestown was founded; all were signatories in 1677 to a treaty between 
the Virginia tribes and the King of England. However, the subsequent 
records about them were limited for nearly two centuries. They became 
landless as non-Indian settlers poured in, and by Virginia custom (not 
law) landless Indian communities were considered to be outside the 
scope of the treaty. The treaty itself was with the King of England and 
is now legally considered to be with the Commonwealth of Virginia, not 
the United States. These tribes therefore remained ``state'' Indians in 
a state that ignored them. They were considered citizens of their 
counties, but five of the six tribes lived in counties whose 
courthouses burned, mainly during the Civil War. When much more 
detailed U.S. Census records began to be made in 1850, these people 
appear as enclaves and, in some U.S. Censuses, specifically Indian 
ones. They are traceable as the ancestors of the six Virginia tribes 
before you today.
    The Office of Federal Acknowledgment just last year issued changes 
to try to speed up the federal recognition process, but those changes 
do very little for the tribes of whom I speak. Most of the changes are 
for tribes with a treaty and/or IRA relationship with the federal 
government, which these six tribes do not have for the reasons already 
given. The remaining change, moving up the starting date to 1789, does 
not do much for them, either. Aside from the problems already mentioned 
with pre-Civil War records, there are additional problems with state 
and local records that make these Indian communities hard for a 
researcher like me to track. It is as if the ever-growing legend of 
Pocahontas, contrasted with the reality of 19th and 20th century Indian 
people, made my fellow Anglo-Virginians ever less tolerant of anything 
other than the legend.
    Beginning after the Civil War and culminating with Virginia's 
Racial Integrity Law of 1924, Virginia became a state committed to the 
proposition that there were only two races, ``white'' and ``colored,'' 
leaving no room for Indians. Under the 1924 law, anyone insisting on an 
Indian identity on an official document could be sent to prison for a 
year. Several people--members of these six tribes--were, in fact, 
imprisoned for such insistence. The campaign to eliminate Indians from 
the state was headed by the state's Vital Statistics Bureau, which went 
so far as to issue a circular with ``suspicious'' families' names 
listed county by county, with the demand that they be labeled 
``colored.'' The families were referred to (and I quote) as ``these 
mongrels.'' The circular was sent to all officials in charge of county 
records, all school superintendents, and all state-licensed health 
personnel (who signed off on birth and death certificates). It is no 
wonder that these Indian communities became much harder for researchers 
to find. Some of their members left the state, keeping up their ties to 
home but returning only during the Civil Rights era when they no longer 
had to be, as one old-timer said to me, ``scared like a rabbit.'' But 
the communities hung together and hung on, as the attached quick-
reference chart will show. They still exist, and they still say, as 
they've said all along, that they're Indians. Yet even now, so thorough 
was the public relations campaign against them for decades, they meet 
skepticism on a daily basis.
    The tribes I speak for today consulted a B.I.A. representative over 
a decade ago and were told that even if they submitted a petition 
forthwith, they would not see a decision ``in your lifetime'' (this was 
said to people then in their 40s). The six tribes are not merely being 
impatient, in wanting to move faster than that. Their primary motive 
for seeking federal recognition is getting better access to health 
programs, which are badly needed by their elders now. Little schooling 
within Virginia was available to those people when they were young--if, 
that is, they wanted to remain ``Indians'' in the state (see the quick-
reference chart). Therefore their income level has suffered ever since, 
and in their old age they are hurting badly. The six tribes are not 
interested in remedying that fact through gaming--in fact, they have 
waived their rights to gaming, if they are recognized. Instead they 
hope to provide better conditions for their people through federal 
Indian programs, after recognition by the United States Congress.
    I have been able to document that these people are Indian tribes 
and that they have endured over three centuries of injustice, some of 
the worst of it and by far the most public of it being in the recent 
past. Without federal recognition and the aid springing from it, the 
injustice is ongoing. I hope that you will accede to their request for 
acknowledgment.
[GRAPHIC] [TIFF OMITTED] 48110.001

                                 .eps__
                                 
    The Chairman. Mr. Cook?

STATEMENT OF MICHAEL COOK, EXECUTIVE DIRECTOR, UNITED SOUTH AND 
           EASTERN TRIBES, INC., NASHVILLE, TENNESSEE

    Mr. Cook. Sekoh. By way of further introduction, I want to 
introduce myself as a member from the Mohawk community of 
Akwesasne. I am the Executive Director of the United South and 
Eastern Tribes, and I have the privilege of representing the 
leadership of our 25 member tribes located from Maine to 
Florida to Texas within the confines of 12 states.
    On behalf of the leadership, I want to express our 
appreciation, Mr. Chair, for the acceptance of our words that 
will be used in consideration of this debate. Also, I want to 
on behalf of our leadership acknowledge the work of you and 
this Committee for the betterment of Indian Country as a whole. 
Awah.
    Also, I would like to briefly express to my fellow 
panelists that my words today are not in any way intended to 
disrespect your quests for the betterment of your communities, 
but to offer another way.
    USET opposes H.R. 31 legislation that would congressionally 
acknowledge the Lumbees as an Indian tribe without going 
through the administrative process. USET supports H.R. 839 
legislation that would allow all Indian groups under the 1956 
Lumbee Act to complete the Federal administrative process for 
acknowledgement.
    We strongly support the administrative process for Indian 
groups to seek Federal recognition through the Office of 
Federal Acknowledgment where the question can be examined in 
detail by experts and according to standards that were 
originally crafted after extensive review and consultation with 
tribes by the American Indian Policy Review Commission.
    Providing acknowledgement through the legislative process 
could lead to unfair results. Federal legislative 
acknowledgment of a group potentially gives unfair preferential 
treatment to that group over all other groups who are in the 
OFA process and waiting for a determination. H.R. 31 would 
congressionally acknowledge the Lumbees as a tribe, but would 
require all other similarly situated groups to go through the 
OFA process.
    Providing Federal acknowledgement to a group through 
legislation invariably leads to inconsistent and subjective 
results. Without the use of uniform procedures and criteria, 
the process of determining Federal recognition as a tribe will 
inevitably be based on emotion and politics. The OFA should 
determine whether a group should be Federally recognized.
    Why? Our position is that the procedures were a result of a 
two-year study of the congressionally established American 
Policy Review Commission and the input of tribes across the 
country calling for standardized criteria in determining the 
future relationships of tribes of the United States.
    The OFA, not Congress, is staffed with experts such as 
historians, anthropologists and genealogists whose jobs are to 
determine the merits of the groups' claims that it is an Indian 
tribe that has existed since historical times as a distinct 
political entity. It is not headlines that there is opposition. 
There is controversy around H.R. 31 and the Lumbees' quest for 
the betterment of their communities. The OFA would dissipate 
that cloud.
    USET does not take a position on whether any particular 
Indian group deserves Federal recognition. We have testified 
many times in support of Indian groups going through the OFA 
process while consistently opposing those same groups going 
through the legislative process.
    Keller George, an Oneida Indian Nation member and former 
USET president of 12 years, testified in 2003, ``USET does not 
believe that the Lumbee should get preferential treatment and 
circumvent the administrative process within the Department of 
the Interior. USET supports, however, legislation that would 
clear the way for the Lumbee to get a shot at recognition 
through the administrative process.''
    The OFA process serves to protect the cultural identity of 
established tribes, as well as the government-to-government 
relationship that such tribes have with the United States. It 
is because Federal recognition is so important that it must be 
handled with unusual care.
    Federal recognition is a formal act, creating a perpetual 
government-to-government relationship between a tribe and the 
United States in which the United States acknowledges the 
sovereign status of a tribe. Federal recognition creates a 
trustee relationship and fiduciary responsibilities on the part 
of the United States. It enables tribes to gain access to vital 
services needed to break the yoke of unemployment, low 
education levels, substandard housing and poverty, which have 
historically plagued our people.
    Furthermore, Federally recognized tribes have inherent 
sovereign powers recognized by the United States to exercise 
criminal jurisdiction and civil jurisdiction within their 
territory.
    H.R. 839, would clear the way for the Lumbee to complete 
the OFA process and have the merits of the Lumbee petition for 
acknowledgement considered. A 1989 Interior solicitor's opinion 
stopped that review process of the Lumbee petition.
    If Congress believes that the OFA process is in need of 
repair, then legislation should be developed to review and 
strengthen the OFA procedures. In those circumstances where an 
Indian entity cannot go through the legislative process, such 
as with the Lumbees, Congress should enact legislation that 
would allow them to go through the OFA process, not legislation 
that would circumvent that process.
    To the extent the OFA process needs to become more 
efficient, Congress should ensure the OFA is appropriated the 
dollars it needs to do its job more efficiently. It is 
perpetually understaffed and underfunded. Also, Secretary 
Salazar has publicly commented that he will ensure that the 
process is reviewed and it works as well as possible.
    The relationship that all Federally acknowledged tribes 
have with the United States and the public perception of those 
tribes is diminished if a group is afforded Federal 
acknowledgement without serious technical review. Thus, 
Congress should take the politics out of Federal 
acknowledgement and allow the expert agency to do its job.
    The USET board of directors urges the House Resources 
Committee and Congress as a whole to reject H.R. 31.
    Niawen.
    [The prepared statement of Mr. Cook follows:]

            Statement of Michael Cook, Executive Director, 
         The United South and Eastern Tribes (USET), on H.R. 31

USET SUPPORTS H.R. 839, LEGISLATION THAT WOULD ALLOW ALL INDIAN GROUPS 
   UNDER THE 1956 LUMBEE ACT TO COMPLETE THE FEDERAL ADMINISTRATIVE 
                       PROCESS FOR ACKNOWLEDGMENT

    On behalf of the United South and Eastern Tribes, an inter-Tribal 
organization comprised of 25 federally recognized Tribes located in 12 
states from Maine to Texas, we submit this testimony in support of H.R. 
839, legislation that would allow all Indian groups that fall under the 
1956 Lumbee Act to complete the administrative process at the Office of 
Federal Acknowledgment (OFA) within the Department of the Interior.
    USET opposes the H.R. 31, legislation that would congressionally 
acknowledge the Lumbees as an Indian tribe without going through the 
administrative process.
    USET strongly supports the administrative process for Indian groups 
to seek Federal recognition through the Office of Federal 
Acknowledgment. Due to the complexity of determining whether an entity 
is deserving of Federal recognition, although Congress has the 
legislative authority to recognize a tribe, it has appropriately 
shifted that responsibility to the agency level, where the question can 
be examined in detail by experts and according to standards that were 
originally crafted after extensive review and consultation with Tribes 
by the American Indian Policy Review Commission.
    To the extent that the OFA process needs to become more efficient, 
Congress should ensure the OFA is appropriated the dollars it needs to 
do its job more efficiently. It is perpetually understaffed and 
underfunded. Also, Secretary Ken Salazar has committed to reviewing the 
OFA process to ensure it works as well as possible, so the agency with 
the expertise on these issues is reviewing the agency for 
inefficiencies.
    Providing Acknowledgement through the Legislative Process Will Lead 
to Unfair Results. Federal legislative acknowledgment of a group gives 
unfair preferential treatment to that group over all other groups who 
are in the OFA process and waiting for a determination. In fact, H.R. 
31 would congressionally acknowledge the Lumbees as a tribe but would 
require all other similarly situated groups to go through the OFA 
process. Moreover, providing federal acknowledgement to a group through 
legislation invariably leads to inconsistent and subjective results. 
Without the use of uniform procedures and criteria, the process of 
determining federal recognition as a tribe will inevitably be based on 
emotion and politics. The relationship that all federally acknowledged 
tribes have with the United States and the public perception of those 
tribes is diminished if a group is afforded federal acknowledgement 
without serious technical review. Thus, Congress should take the 
politics out of federal acknowledgement and allow the expert agency to 
do its job.
    The OFA, not Congress, Should Determine Whether a Group Should be 
Federally Acknowledged. Established in 1978, the OFA has a procedure 
and framework as well as the expertise for making federal 
acknowledgement determinations. The OFA process should be used in 
determining whether the Lumbee or any other group should be federally 
acknowledged as an Indian tribe. The OFA procedures were the result of 
a two-year study of the Congressionally-established American Indian 
Policy Review Commission and the requests of tribes across the country 
calling for standardized criteria in determining the future 
relationships of tribes with the United States. The OFA, not Congress, 
is staffed with experts, such as historians, anthropologists, and 
genealogists, whose jobs are to determine the merits of a group's 
claims that it is an Indian tribe that has existed since historical 
times as a distinct political entity.
    Other Tribes Oppose Congressional Acknowledgment. USET supports 
legislation that would allow the Lumbees to complete the administrative 
process but oppose congressional acknowledgement. In their efforts to 
achieve federal acknowledgment, the Lumbees have self-identified 
themselves over time as ``the Cherokee Indians of North Carolina,'' and 
as ``Siouan,'' ``Croatan,'' and now ``Cheraw'' Indians. Finally, groups 
within the Lumbee have opposed this legislation, claiming that the 
history the Lumbee use to support its federal recognition efforts does 
not belong to the Lumbee.
    USET does not take a position on whether any particular Indian 
group deserves Federal recognition. However, USET has testified many 
times in support of Indian groups going through the OFA process, while 
consistently opposing those same groups going through the legislative 
process. Keller George, former USET President, testified in ``03, 
``USET does not believe that the Lumbee should get preferential 
treatment and circumvent the administrative process within the 
Department of the Interior''; ``USET supports, however, legislation 
that would clear the way for the Lumbee to get a shot at recognition 
through the administration process.''
    The OFA process serves to protect the cultural identity of 
established Tribes, as well as the government-to-government 
relationship that such Tribes have with the United States. Further, the 
process assures that the Federal government, through the use of experts 
in genealogy, history, and anthropology, can reach a determination in a 
manner that is fully supportable by a well-developed and evaluated 
record. This is an evaluation that agencies are well-positioned to 
undertake, but for which the Congress is not equipped.
    It is because Federal recognition is so important that it must be 
handled with unusual care. Federal recognition is a formal act, 
creating a perpetual government-to-government relationship between a 
Tribe and the United States, in which the United States acknowledges 
the sovereign status of a Tribe. Federal recognition also creates a 
trustee relationship and fiduciary responsibilities on the part of the 
United States. Federal recognition enables Tribes to gain access to 
vital resources needed to break the yoke of unemployment, low education 
levels, substandard housing, and poverty, which have historically 
plagued our people. Federal recognition also shields Tribes from undue 
federal and state encroachments. Furthermore, Federally recognized 
Tribes have inherent sovereign powers recognized by the United States 
to exercise criminal jurisdiction and civil jurisdiction within their 
territory.
    H.R. 839, would clear the way for the Lumbee to complete the OFA 
process and have the merits of the Lumbee petition for acknowledgement 
considered. A 1989 Interior solicitor's opinion stopped the review 
process of the Lumbee petition.
    If Congress believes that the OFA process is in need of repair, 
then legislation should be developed to review and strengthen the OFA 
procedures. In those circumstances where an Indian entity cannot go 
through the legislative process, such as with the Lumbees, Congress 
should enact legislation that would allow them to go through the OFA 
process, not legislation that would circumvent that process.
    The USET Board of Directors urges the House Resources Committee and 
the Congress as a whole to reject HR.31.
                                 ______
                                 
    The Chairman. Thank you.
    My first questions are for Chief Adkins and Ms. Rountree. 
Much has been said here today about documents of Virginia 
Indians either designating them as Indians or as colored.
    Would you please explain this situation where some 
documents the Department of the Interior has lists tribal 
members as Indian?
    Mr. Adkins. Mr. Chairman, within all the tribes you can 
find vital records that show Indian. It is probably easy to 
find 16 in any given tribe, but there may be 150 or 200 that 
have the wrong documentation.
    Those of us who were fortunate enough to have our records 
correct lived under a cloud that the vital records gestapo 
would come at any time and take us to jail, so even though we 
were able to persevere and have those correct documents, we 
lived under a cloud.
    So, yes, it is true that there are some records that are 
correct, and I would like to defer to Ms. Locklear because 
there is a double-edged sword even if you produce that 
documentation.
    Ms. Locklear. If I may, Mr. Chairman, I think there is a 
problem that goes beyond just the genealogical issue that the 
Administration witnesses spoke about earlier.
    Even if you can make the link to a historic Indian 
community for purposes of what they call their Criterion E by 
birth and death records, the suppression of Indian identity is 
very problematic for other mandatory criteria in the process.
    For example, Criterion A requires that there be since 1900 
continuous identification of an Indian entity. The way OFA has 
interpreted that provision, it requires an outside observer to 
state every 10 years that there is an Indian entity with regard 
to that petitioner, and the suppression of evidence that we 
have heard described today would suggest a serious problem in 
that regard because of the Plecker effort.
    The Chairman. Dr. Rountree, do you wish to comment?
    Ms. Rountree. I just have one little thing. The records 
cited by the BIA people today all date from 1924 or before. 
Plecker was only getting cranked up then.
    After 1924 it became a blanket situation, and you see 
throughout Virginia records nothing about Indians, partially 
because whole tribes were going elsewhere to get married. They 
wouldn't get married at home at all.
    Mr. Adkins. Mr. Chairman, when my daughter was born in 1976 
at Dungannon, Virginia, my wife and I obviously were there for 
the admission records. I was leaving the office, and I had been 
designated white. Now, I looked the same as I do today.
    But what folks had said was we have to either designate 
white or colored, so I guess I was supposed to feel relieved 
that I was designated white, but I felt badly because I wasn't 
designated the tribe that really I was. So even in 1976, nine 
years after 1967, this still occurred.
    The Chairman. Mr. Cook, several tribes who are members of 
USET have either been restored or recognized by Congress. For 
instance, Congress restored the Alabama Coushatta and Catawba 
and recognized the Pequot Eastern Band of Cherokee and the 
Micmac Indians, to name a few.
    But in your testimony you state that Congress is ``not 
equipped'' to make these determinations. Was Congress not 
equipped to restore or recognize those USET member tribes?
    Mr. Cook. The intent of the language, Mr. Chair, is not to 
belittle Congress, but it is intended to put forth a process 
that is fair and is able to have all sides being aired, to 
submit their comments and concerns.
    The USET board of directors has been consistent in its 
position of encouraging tribes to go through the Federal 
process. It is understood that every tribe is different. Every 
tribe is unique and has special circumstances that at some 
point the Congress will step in.
    The Chairman. So does USET believe those tribes should have 
their status rescinded so as to go through the administrative 
process?
    Mr. Cook. Absolutely not.
    The Chairman. Thank you.
    Mr. McIntyre. I am sorry, Mr. Chairman. I didn't hear his 
answer. For the record, what was his answer to your question?
    The Chairman. The last question was absolutely not.
    Mr. McIntyre. OK.
    The Chairman. Let me ask Chairman Goins. Your testimony 
documents the 120 year effort of the Lumbee people to gain 
Federal acknowledgement.
    Despite the well documented history of the Lumbee, some 
have questioned the Lumbee as a tribe because of different 
names the tribe has been known over the years. Can you explain 
the changes in the tribe's names throughout history?
    Mr. Goins. Mr. Chairman, I am glad you asked me that 
question because the question we should be asking is why would 
the State of North Carolina dishonor the Lumbees by imposing 
these names?
    The State of North Carolina forced these names upon our 
people. It wasn't until the 1953 legislation passed in Raleigh 
that allowed the Lumbees to vote on their own name. This is 
where all of these names come from, the Croatan, the Cherokees, 
these other names. It wasn't the Lumbees. It was the state 
legislature of Raleigh.
    The Chairman. Thank you. Very interesting.
    Chairman Danforth, let me again thank you for the 30 years 
of service that you have given to our United States.
    This, combined with your service as Chairman of the Oneida 
Tribe of Wisconsin, shows that you have dedicated your life to 
public service and the good of all Americans, and we do owe you 
a debt of gratitude.
    You state in your testimony that you have known Lumbee 
Indians and the Lumbee Tribe since 1967. In your involvement 
and interaction early on and into today, do you see these 
people as an Indian tribe similar to your own? Are they a 
distinct community similar to your tribe? Finally, do they have 
a government that extends political influence over its members 
similar to your tribe?
    Mr. Danforth. I think they do in each case you stated 
there, Mr. Chairman, and I will try to elaborate a little bit 
on each one. If I could ask you to repeat those just one at a 
time, please?
    The Chairman. Sure. The first one is in your involvement 
and interaction early on and continuing to today, do you see 
these people and Indian tribes similar to your own?
    Mr. Danforth. Very much so. As I mentioned in my testimony, 
what I observed there in Robeson County were family plots where 
this is where the Locklear family lives or this is where the 
Dials are. They are also separated internal within their 
community by religion.
    You know, as in our case in Oneida our original reservation 
is set up also in religious sectors where the first Christian 
party was, the Orchard Party was, and so on and so forth. These 
are where the families live. You know, you have King Lane and 
names of families where settlements within our reservation 
exist. So in that regard it is correct.
    Also with regards to the testimony I gave of an observation 
and how their religious leaders interfaced in other ways within 
the tribe. Now, in my tribe we have very limited separation 
between our social, our business and our tribal politics. Even 
though we try to keep them separate, they are like Gumby. They 
come right back like in the mix.
    I see the same thing occurring in Robeson County. It is not 
called the same thing perhaps, but it is very similar to what 
is happening there, and I am probably struggling a bit in my 
testimony of how to properly describe that.
    I made reference to Dr. Deloria's observation that I think 
was very--you know, I read his whole testimony, but that was a 
part that really captured my thoughts of how that analogy was.
    The Chairman. Thank you.
    The gentleman from Washington, Mr. Hastings?
    Mr. Hastings. Thank you, Mr. Chairman, and thank all of you 
for your testimony. As one that has been gone from this 
Committee for 12 years, I find the testimony and the issue 
very, very, very, very interesting.
    Mr. Goins, I just have one question based on figures of how 
many members are in the Lumbee Tribe. Can you tell me when and 
how the tribe's base roll was compiled and how the tribe 
developed its enrollment criteria?
    Mr. Goins. I am going to try to answer it, and then I would 
relinquish it to Arlinda.
    Our rolls goes back to what we call our base rolls, which 
is the 1900 Census is what BIA requires and the 1910 Census. We 
also look at church historical records for our tribal rolls.
    Now, the rolls was developed, and I want to say, Arlinda, 
in the late 1970's?
    Ms. Locklear. Early 1980's.
    Mr. Goins. Early 1980's when we started developing our 
rolls. We call it the base rolls, but it is the 1900 Census 
where they actually went in and documented the heads of the 
households, if they are Indian, whatever. We used that. We used 
the 1910 Census, and we also used historical church records.
    Arlinda?
    Mr. Hastings. Go ahead.
    Ms. Locklear. That is correct. I would add that there are 
two membership criteria for the tribe; not only proof of 
descent from a member on the base roll, but also the 
maintenance of community relations.
    In other words, you need to basically be known by the 
community. If you have moved away and not maintained community 
ties, even if you have Lumbee ancestry you are not eligible for 
membership.
    Mr. Hastings. OK. Good. Thank you. I yield back.
    The Chairman. The gentlelady from California?
    Ms. Napolitano. Thank you, Mr. Chair.
    Mr. Cook, what is the oldest case that you know of that has 
waited as long as the Lumbees or longer?
    Mr. Cook. I don't really have an answer for that.
    Ms. Napolitano. There may not be one. Is that possible?
    Mr. Cook. Certainly.
    Ms. Napolitano. That is quite telling. Mr. Goins, there is 
legislation that would allow the Lumbee Tribe to go through the 
Federal acknowledgement process, and we know this is time 
consuming, costly, requires thousands and thousands of pages of 
documentation.
    What would the impact be of this legislation that is going 
through this acknowledgement process upon the Lumbee people? 
Who would pay for it?
    Mr. Goins. First of all, we couldn't do it. We just don't 
have the funds available.
    In fact, the money we raised so far has been from plate 
sales, donations. That is how we come up with money. Basically 
we couldn't afford it. We just don't have the funds.
    Ms. Napolitano. Would that be an impediment then----
    Mr. Goins. Yes, ma'am.
    Ms. Napolitano.--for you to be able to go through the 
process?
    Mr. Goins. Yes. Yes. Yes. In fact, I would like to put on 
the record our attorney is doing this pro bono. That is nice of 
her, isn't it? Yes.
    But we take a lot of donations. The tribal council, they 
raise funds. We ask for a lot of volunteers. That would be a 
big hill for us to climb just to even start the process would 
be to fund it. You are correct.
    Ms. Napolitano. OK. To Mr. Adkins, due to the historical 
circumstances of the Virginia tribes it would be nearly 
impossible to meet the criteria of the Federal acknowledgement 
process.
    But do you believe the individual Virginia tribes are 
currently distinct communities that exert political influence 
over the tribal members, and can you elaborate on that?
    Mr. Adkins. To answer your question in a word, yes, they 
are distinct tribal communities. As I have visited each tribe, 
all these tribes have regular tribal meetings. They have their 
base rolls established, and they are the governance that 
permeates the whole community.
    When I look at the Chickahominy Tribe, we meet every other 
month with a full tribal meeting. Our board meets monthly, and 
we have an annual meeting each year. Our fiscal year ends in 
June. We have tribal elections every year for four year terms.
    That may not represent all the tribes in Virginia, but they 
have a political structure that is similar, and they do exert 
governance over their communities.
    Ms. Napolitano. When was the last time the Virginia tribes 
met with the Office of Federal Acknowledgement, and what is the 
current status of those tribes with FAP?
    Mr. Adkins. I can't recall. It was probably three years ago 
that I met with Lee Fleming with the Office of Federal 
Acknowledgement.
    I went to talk about our petition process, and a lot of the 
conversation kept going back to the bill that we had in 
Congress, which I continually tried to steer back to the 
petition process because I wanted to equip myself to further 
that process. So all of us do have petitions in the Office of 
Federal Acknowledgement that are in varying degrees of 
completion.
    Now, I didn't get the last part of that question.
    Ms. Napolitano. Well, what is the current status of those 
tribes with FAP?
    Mr. Adkins. Then I guess I did answer. They are in various 
stages of completion.
    Ms. Napolitano. OK.
    Mr. Adkins. I think the onerous part of that for us too 
would be the enormous amount of money that it would take to 
fund this, which I think is a travesty in itself.
    I have often said that were I to work for the Bureau of 
Indian Affairs and someone walked through the door and said I 
am here with my first stage of the Federal acknowledgement, I 
would say that is my career. You know, I will be here 30 years 
trying to help you out. That is kind of what we see with Bureau 
of Indian Affairs.
    Ms. Napolitano. At the time did they tell you they would 
handle the actions of Walter Plecker to obliterate the records 
of Virginia Indians? How did they say it to you, if they did?
    Mr. Adkins. We had several technical review sessions in the 
basement of our church, and we were advised that there were 
resources within the Bureau of Indian Affairs to help us do the 
technical study. I am not sure that those resources are there 
because I continue to hear that the BIA is strapped for 
resources to do that kind of work.
    I don't know that the Plecker era was specifically 
addressed. We were advised that there were ways to get around 
the records that were destroyed in courthouses, but again I 
don't have a lot of faith in that statement.
    Ms. Napolitano. Mr. Chair, it is kind of hard to put a 
finger on the reasoning why it has been--there are so many 
reasons on the delay, or at least from what I have read, but 
thank you for the time, and I thank the witnesses.
    The Chairman. The gentleman from North Carolina, Mr. 
McIntyre?
    Mr. McIntyre. Thank you, Mr. Chairman. I am very pleased 
with the testimony that we have been able to hear and the 
answers that have been given to the questions and so I want to 
thank you for allowing me to sit with the panel today and to 
bring this bill before the Committee.
    I want to thank those who have testified for presenting a 
clear, cogent and convincing case with regard to moving the 
recognition for the Lumbee Tribe ahead. I know it has been a 
heart-rending situation to go through these years.
    I know indeed that, as I stated earlier in my testimony, 
that justice delayed is justice denied, and I think the last 
word, as the Chairman said, that I have said previously is that 
indeed, Mr. Chairman, it is time for the discrimination to end 
and the recognition to begin.
    God bless you, and thank you for your willingness to do 
that.
    The Chairman. Thank you, Mike.
    Before we conclude, the Chair would just like to note and 
to highly compliment those members of this panel--and I am not 
going to mention names; we know who you are--whose tribes may 
not be rolling in the cash and therefore could not really 
afford this trip to Washington to testify, yet you took it upon 
yourselves to raise the money through bake sales, other 
community fundraising events, and brought yourselves up here 
that way, as opposed to those you are in opposition to you, but 
who may have flown their Lear jets into town to speak on the 
other side. So I just wanted to compliment you for that.
    If there are no further questions or comments, the 
Committee on Natural Resources stands adjourned.
    [Whereupon, at 1:40 p.m., the Committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
